<html>
<title> - U.S. MILITARY COMMITMENTS AND ONGOING MILITARY OPERATIONS ABROAD</title>
<body><pre>[Senate Hearing 108-569]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-569
 
    U.S. MILITARY COMMITMENTS AND ONGOING MILITARY OPERATIONS ABROAD

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 2003

                               __________

         Printed for the use of the Committee on Armed Services




                     U.S. GOVERNMENT PRINTING OFFICE
95-376 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

    U.S. Military Commitments and Ongoing Military Operations Abroad

                           september 9, 2003

                                                                   Page

Wolfowitz, Hon. Paul, Deputy Secretary of Defense................     7
Grossman, Hon. Marc I., Under Secretary of State for Political 
  Affairs........................................................    24
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff, 
  Accompanied By: Major Gen. James Mattis, USMC, Commander, First 
  Marine Division................................................    35

                                 (iii)


    U.S. MILITARY COMMITMENTS AND ONGOING MILITARY OPERATIONS ABROAD

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2003

                                        U.S. Senate
                                Committee on Armed Services
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Allard, Sessions, Collins, Ensign, Talent, Chambliss, 
Graham, Cornyn, Levin, Kennedy, Byrd, Reed, Akaka, Bill Nelson, 
E. Benjamin Nelson, Dayton, Clinton, and Pryor.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Mary Alice A. Hayward, professional 
staff member; Ambrose R. Hock, professional staff member; Ann 
M. Mittermeyer, counsel; Lynn F. Rusten, professional staff 
member; and Scott W. Stucky, general counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Kenneth M. Crosswait, professional staff member; 
Evelyn N. Farkas, professional staff member; Richard W. 
Fieldhouse, professional staff member; Maren R. Leed, 
professional staff member; Gerald J. Leeling, minority counsel; 
and Peter K. Levine, minority counsel.
    Staff assistants present: Leah C. Brewer, Andrew Kent, and 
Nicholas W. West.
    Committee members' assistants present: Christopher J. Paul 
and Dan Twining, assistants to Senator McCain; John A. Bonsell, 
assistant to Senator Inhofe; James Beauchamp, assistant to 
Senator Roberts; Arch Galloway II, assistant to Senator 
Sessions; James P. Dohoney, Jr., assistant to Senator Collins; 
D'Arcy Grisier, assistant to Senator Ensign; Lindsey R. Neas, 
assistant to Senator Talent; James W. Irwin and Clyde A. Taylor 
IV, assistants to Senator Chambliss; Aleix Jarvis, assistant to 
Senator Graham; Christina O. Hill, assistant to Senator Dole; 
Russell J. Thomasson, assistant to Senator Cornyn; Mieke Y. 
Eoyang, assistant to Senator Kennedy; Christina Evans and 
Terrence E. Sauvain, assistants to Senator Byrd; Elizabeth 
King, assistant to Senator Reed; Davelyn Noelani Kalipi and 
Richard Kessler, assistants to Senator Akaka; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; Todd Rosenblum, assistant to Senator Bayh; 
Andrew Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, ladies and gentlemen. The 
committee meets this morning to receive testimony on U.S. 
global military commitments and ongoing military operations. We 
welcome our witnesses this morning: Deputy Secretary of Defense 
Paul Wolfowitz; Under Secretary of State for Political Affairs, 
Ambassador Marc Grossman; and General Richard B. Myers, 
Chairman of the Joint Chiefs of Staff.
    We also are privileged to have with us a special guest here 
this morning. General Mattis, if you would stand, please. 
General Mattis is commander of the Marines in country in Iraq. 
I had the privilege of visiting him in Iraq with a 
congressional delegation (CODEL), and at some point in time we 
are likely to have you come forward, General. Thank you.
    We meet today, 2 days before the second anniversary of the 
September 11 attacks on this Nation, terrorist attacks which 
took the lives of over 3,000 innocent victims and forever 
changed our sense of security, forever changed the manner in 
which we in this great Nation will conduct our lives for 
ourselves, our families, and indeed our Nation's defense 
posture.
    As we reflect this morning on the request by the President 
for $87 billion, we should keep in mind, apart from the tragic 
loss of life, what was the cost of September 11, what is the 
cost to do everything we can as a Nation to prevent a 
recurrence of any incident similar to that or others?
    Since that fateful day 2 years ago, U.S. military forces, 
working side by side with coalition partners from around the 
world, have been engaged in an all-out global war on terrorism 
in an effort to prevent future terrorists from reaching our 
shores. As the President stated so eloquently on Sunday 
evening, and I quote him:

        ``And for America there will be no going back to the 
        era before September 11, 2001, to false comfort in a 
        dangerous world. We have learned that terrorists 
        attacks are not caused by the use of strength; they are 
        invited by the perception of weakness. The surest way 
        to avoid attacks on our own people is to engage the 
        enemy where he lives and where he plans and where he 
        trains. We are fighting the enemy in Iraq and 
        Afghanistan so that we do not meet him again on our 
        streets, in our cities, in our towns, and in our 
        villages.''

    What has been accomplished over the past 2 years in the war 
on terror? That is the question before us today. What are the 
future tactics, plans, and costs? That is before us today.
    I think myself we have accomplished a great deal. The 
Taliban regime which provided a safe operating base for al 
Qaeda in Afghanistan no longer controls that nation and has 
been driven into the hills. Do they appear? Yes, occasionally, 
but certainly not with the force they once had. They have been 
replaced by an emerging democratic government. Al Qaeda's 
training camps in Afghanistan have been destroyed. Many of its 
top leaders and operatives are dead or in custody, and the 
remnants again are scattered.
    Over the past 2 years, thousands of terrorists around the 
world have been captured and many terrorist operations have 
been disrupted. That is progress. In Iraq, Saddam Hussein's 
reign of terror has ended, never to return. The threat he posed 
to his people, his neighbors, and indeed to the world has been 
removed, and Iraq is in the early stages of establishing a 
democratic form of government representative of the needs of 
all the Iraqis, not just selected portions of that population. 
Saddam Hussein doled out the largesse to only a few, and most 
of all himself.
    Much remains to be done in both Iraq and Afghanistan to 
consolidate our military victories, and we as a Nation are 
committed to seeing it through to the end, let there be no 
doubt. We must not lose sight of the many achievements of the 
past 2 years. I believe, and I think most Americans believe, 
that the world is a safer place because we and a coalition of 
partners acted promptly and decisively.
    Recent military operations in Afghanistan and Iraq are a 
tribute to the professionalism and dedication of the men and 
women in the United States Armed Forces and their families. We 
are proud to have with us today the distinguished Chairman and 
other military officers as symbols of those achievements by our 
professional military.
    Both operations achieved their basic goals in record time. 
Their primary military objectives were removing regimes from 
power that were a threat to the security of the United States 
and indeed the world. They were led by a team--Secretary of 
State Colin Powell, Secretary of Defense Donald Rumsfeld, and 
their deputies, one of whom, Secretary Wolfowitz, is here 
before us today; and on the military side, General Myers, 
indeed General Franks, and General Abizaid.
    I personally am very proud of that team, to have had the 
opportunity to work with them. While we have had our 
differences, I respect them. I commend their leadership, and we 
are going to stick together to get this job done.
    We have assumed extensive post-conflict stability 
operations that are ongoing and require significant manpower, 
resources, time, and commitment to fully secure the peace. Has 
everything gone exactly as envisioned? We all know that is not 
correct. But when in history has an operation of this magnitude 
gone exactly as planned?
    But now is not the time, in my judgment, to try and assess 
what went right and what went wrong and who may be at fault for 
faulty vision. What we should do now is resolve to remain 
strong behind this President and this team, to do everything we 
can to cut back on the tragic casualties we are taking, not 
only loss of life but loss of limb, and to care for those 
families and to press on as quickly as we can to establish this 
nation in a security framework so that they can take the nation 
back, the Iraqis themselves, and to run it.
    As we meet this morning, we are ever mindful that the U.S. 
and Coalition Forces continue to be exposed to significant 
personal risks through this ongoing phase of operation.
    On Sunday the President went before the American people to 
forthrightly give his views and ask for their continuing 
support. As part of that thoughtful address to the Nation, the 
President clearly stated, ``We will do what is necessary,'' and 
asked Congress for $87 billion to fund the ongoing operations 
in Iraq and Afghanistan.
    I am confident that Congress will support him. It is 
imperative that Congress, we the representatives of the people, 
provide the President and the men and women of the Armed Forces 
and those engaged in the stability operations and the 
reconstruction the resources they need to fight this war on 
terrorism. Ultimate victory in this global effort depends on 
our continuing support.
    It is a war we will win. It is a war I am confident the 
American people will continue to support, provided we continue 
to give strong leadership.
    I heard this morning that there may be a division of 
opinion about this $87 billion: support for that portion that 
goes for the troops, but a question mark on that portion that 
goes to the reconstruction and the political reconciliation so 
that the Iraqi people can take over their own government. I am 
open to listen to those who have ideas, but in my judgment the 
reconstruction is a direct corollary to the casualties we take. 
The sooner the electricity is on, the sooner the water is 
running, the sooner that we give that nation a quality of life 
over and above what Saddam Hussein allowed his people, in my 
judgment the sooner the Iraqi people will in greater numbers 
turn to support the coalition and finish the job. So look at 
the timetable, those who want to try and change course, on 
exactly who, how, why, and when we do this reconstruction.
    Over the past several months, approximately half the 
members of this committee took the opportunity to join our 
forces in Iraq, Afghanistan, and indeed Liberia and other 
locations around the world. I want to thank them and I urge 
others to avail themselves of the opportunity, because the on-
scene presence not only says to the troops we are with you, but 
much can be learned and brought back to bear on the decisions 
that this committee and other committees in Congress have to 
make.
    We have all come away from these visits with our own 
impressions, and I share my own. First and foremost, as 
Americans we can take pride in the magnificent performance and 
the professionalism of our troops. Soldiers, sailors, airmen, 
and marines I met with are doing their jobs and doing them 
well, often in the harshest of conditions, on land and afloat. 
It is very clear that our troops understand the importance and 
the necessity of performing their duty and the enormity of the 
task and they appreciate the support of the American people. 
Their morale is strong and they are fully committed to getting 
the job done.
    All of America appreciates the sacrifice they have made, 
together with their families, and we commend them for the 
strength that they have shown in the face of the strongest of 
adversity.
    In Iraq, I was encouraged by the level of involvement of 
other nations, and I fully support the administration's renewed 
efforts to obtain a new United Nations (U.N.) mandate, which 
will hopefully result in additional troops from other nations 
to share the burdens in Iraq. Currently, 29 countries have 
forces on the ground in Iraq and others have committed to the 
effort. A Polish division composed of troops from many nations 
has recently taken over a sector in central Iraq. Significant 
numbers of Dutch and Italian forces have joined the British 
division in the south.
    Clearly, the significant commitment of U.S. Forces in Iraq 
and Afghanistan as well as Liberia will have an impact on the 
ability of the U.S. to meet other military commitments. 
Discussion has begun about the nature of our future force 
presence abroad. Last week General Myers was quoted as saying, 
``We are still in Bosnia, we are still in Kosovo. Should we be 
there? Should the Europeans pick up more of that? We are in 
many places, in numbers that perhaps we do not need to be in. 
Given the new security environment, it cannot be business as 
usual in the rest of the world.'' I commend you for that 
insight, General.
    We are greeted this morning by the news of extension of 
some of our National Guard and Reserve units and others in 
terms of their period of service in Iraq. All of this ties 
together to focus attention on the overall size of the forces, 
and there is a legitimate debate as to whether the in-country 
force level meets the requirements of the commanders. We expect 
to hear discussions on that today.
    In my opinion, the framework of national security and 
foreign policy issues before the administration is the most 
complex since World War II. We are fortunate to have this 
Defense-State team before us today in public service addressing 
these challenges. I welcome our witnesses.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you very much, Mr. Chairman. I join 
you in welcoming our witnesses today.
    As we meet, Iraq is anything but secure. Attacks on 
Americans continue. Just within the last month, the Jordanian 
embassy was bombed, the U.N. headquarters in Baghdad was 
bombed, the Shiite mosque in Najaf was bombed, a Sunni mosque 
in Baghdad was attacked by gunmen last Friday, and there are 
reports that al Qaeda and sympathetic foreign fighters are 
infiltrating Iraq to attack U.S. and coalition personnel.
    Our military forces are stretched thin. Over 180,000 are 
fighting the war in Iraq or supporting it from Kuwait and other 
Persian Gulf states. Another 10,000 are conducting combat and 
stability operations in Afghanistan. At the same time we are 
helping to maintain the peace in Liberia, Bosnia, and Kosovo. 
Of course, we have thousands of troops deployed in South Korea, 
dedicated in war plans to the defense of that nation in a 
region that is becoming ever more volatile with the North 
Korean drive to obtain and develop nuclear weapons.
    We read in the paper this morning that thousands of 
National Guard and Reserve troops in Iraq and the Gulf area are 
going to have their tours of duty extended, and that is indeed 
very troubling news to people back in all of our States.
    Sunday night the President finally came forward with the 
amount that he will ask in a supplemental appropriation request 
for fiscal year 2004 for military operations and reconstruction 
in Iraq and Afghanistan, $87 billion. This huge sum is a bitter 
pill for the American people to swallow in a year when the 
President's budget falls billions short in funding education 
programs and the No Child Left Behind Act; proposes to cut 
highway funding by $2.5 billion from current levels; when the 
administration proposes to cut after-school programs by $400 
million, or 40 percent, from this year's level; when it 
proposes new costs on veteran's health care programs that will 
be a real hardship for those who have served our country in 
uniform in the past; proposes huge cuts in funding for programs 
to help small- and middle-sized manufacturing firms at a time 
when we are losing tens of thousands of manufacturing jobs in 
this country every month.
    This $87 billion comes on top of the $79 billion 
appropriated for those purposes in this fiscal year. It is 
ironic to note that administration officials denounced Mr. 
Lindsey's estimate that the cost of the war before it was 
launched would be in the range of $100 to $200 billion. We are 
already in the upper reaches of that estimate for the first 2 
years of a long commitment.
    Secretary Wolfowitz, you told Congress in March that, ``We 
are dealing with a country that can really finance its own 
reconstruction, and relatively soon.'' Talk about rosy 
scenarios. Before this committee, when senior military leaders 
tried to give us realistic estimates that Iraq will require 
substantial numbers of U.S. troops for the foreseeable future, 
they were contradicted and at times ridiculed by the civilian 
leadership of the Department of Defense (DOD).
    It has been clear from the beginning that the United States 
cannot do all of this alone. The U.S. needs the support of the 
international community in Iraq, including the troops of Muslim 
nations, not only to share the burden, but also to change the 
perception of many Iraqis from that of a western occupation to 
that of an international effort to stabilize and rebuild their 
country.
    The administration was long overdue in recognizing the need 
for the increased involvement of the world community through 
the United Nations in Iraq. The administration only belatedly 
and begrudgingly now has gone back to the United Nations for an 
explicit mandate, a mandate that many countries such as 
Pakistan, Turkey, and India have said for months that they 
needed if they were going to send troops to Iraq.
    The administration's task is now more difficult because it 
delayed so long. Their go-it-alone chickens are coming home to 
roost. Ninety percent of the troops in Iraq are American troops 
and probably a larger percentage of reconstruction funds are 
going to be American if the administration's proposal is 
adopted, unless we change the context, unless we change the 
dynamic in Iraq, to one of an international community effort 
with the support of the United Nations.
    But if the administration is going to win international 
support, it is going to have to be willing to provide a 
substantial and meaningful U.N. role in the political 
development of a new Iraqi government and in the reconstruction 
of Iraq.
    The issue, by the way, is not whether there will be a 
unified military command under a U.S. commander. There must be 
and there will be. We have the dominant share of the troops. 
There is no doubt about that issue. But based upon my visit to 
U.N. headquarters in New York yesterday, my meetings with our 
U.S. Ambassador to the U.N., John Negroponte, and with U.N. 
Secretary-General Kofi Annan, I do not believe that we will 
receive a substantial contribution of troops and resources from 
other nations unless the administration is willing to give the 
United Nations a substantial and meaningful role in the 
civilian side of the reconstruction effort.
    It is imperative that we do so, so that we will be clearly 
exposing the lie that the jihadists use to attract soldiers for 
their army of terror, that the west intends to dominate a 
Muslim country.
    Congress will provide the funding to give our troops what 
they need, let there be no doubt about that. But before 
providing reconstruction funds, partly to assure that those 
funds can be effectively spent in an effort that will be 
successful, we must assure ourselves that the administration is 
willing to give more than lip service to enlisting the support 
of key additional nations in providing troops and resources for 
the long struggle that lies ahead in Iraq.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Several members have asked for time for opening statements, 
but I had to make the judgment call that we would proceed 
directly to our witnesses. In that context, I will extend the 
time for a questioning period to enable members to add some 
observations prior to their questions.
    Secretary Wolfowitz.

 STATEMENT OF HON. PAUL WOLFOWITZ, DEPUTY SECRETARY OF DEFENSE

    Secretary Wolfowitz. Thank you, Mr. Chairman and members of 
the committee. I have submitted a fairly long statement that I 
will put in the record and I will try to give you a reasonably 
short summary.
    Chairman Warner. Thank you, Mr. Secretary. The full text of 
all statements will be incorporated in the record.
    Secretary Wolfowitz. One of the things that is most 
important for troops facing danger on the front lines is the 
knowledge that their dedication and sacrifice is appreciated by 
the people of America. On behalf of the men and women who serve 
our country so faithfully and so well, let me begin by 
expressing thanks to Congress for the bipartisan support that 
you give our Armed Forces.
    Just 2 years removed from the most brutal attack on our 
Nation's soil since Pearl Harbor, we remain a Nation at war. We 
fight a threat posed by an enemy that hides in the shadows and 
has burrowed into scores of countries around the globe. With 
the help of a coalition of some 90 nations, we have gone after 
that adversary of freedom wherever he may be found, using every 
resource at our command, including our instruments of 
diplomacy, intelligence, law enforcement, financial influence, 
and of course every necessary weapon of war, to defeat the 
global terror network.
    It might be worth mentioning, Mr. Chairman, that I just got 
an unclassified summary from the Central Intelligence Agency 
(CIA) of where we stand in that larger war, and let me just 
read two sentences from it: ``2 years after the September 11 
attacks, al Qaeda's central leadership is reeling from the 
impact of the counterterrorist successes of the U.S. and our 
allies. The central leadership of al Qaeda is at growing risk 
of breaking apart, as our blows against the group create a 
level of disarray and confusion throughout the operation that 
we have not seen since the collapse of the Taliban in late 
2002.''
    I think that is a good news story. I guess one should also 
remember that in war good news can be followed by bad news. But 
I think the point is that we are moving to victory.
    Like World War II and the Cold War, this war is being 
fought on a global stage. Like those previous conflicts, the 
stakes are enormous and our very freedom is threatened. 
However, we also need to realize that this war is different 
from any previous war. If we react based on experiences from 
past conflicts or from prior peacekeeping experiences, we are 
likely to act incorrectly in many cases. We face a new 
situation and we need to constantly think anew about it.
    At the Pentagon, just 1 year removed from sealing the 
horrible gash that the terrorists made in our outer wall, the 
memory of our lost comrades remains strong. Our military and 
civilian forces have not forgotten whom we are fighting and 
what we are fighting for. They above all know what is at stake.
    It is a big job. It is going to take patience and time and 
determination. It will take more than killing and capturing 
terrorists and dismantling terrorist networks, as important as 
that is. It also requires winning on what I would call the 
second front of the war on terror, what the President called in 
his State of the Union message building a just and peaceful 
world beyond the war on terror, and particularly in the Muslim 
world.
    We do not start a job that we cannot finish, and when we do 
start a job we give it our best. That is the American way. As 
the President said on Sunday night: ``Our strategy in Iraq has 
three objectives: destroying the terrorists, enlisting the 
support of other nations for a free Iraq, and helping Iraqis 
assume responsibility for their own defense and their own 
future.''
    ``First,'' he said, ``we are taking direct action against 
terrorists in the Iraqi theater, which is the surest way to 
prevent future attacks on coalition forces and the Iraqi 
people. Second, we are committed to expanding the international 
cooperation in the reconstruction and security of Iraq, just as 
we are in Afghanistan. Third, we are encouraging the orderly 
transfer of sovereignty and authority to the Iraqi people. Our 
coalition came to Iraq as liberators,'' the President said, 
``and we will depart as liberators.''
    I would like to focus in these brief opening remarks on 
three critical areas where we seek the support of Congress and 
particularly of this committee: First specific issue, obtaining 
the resources and the authority to train and equip and field 
foreign military forces fighting along side our own; second, to 
give us the flexibility that we have asked for to reduce the 
stress on active duty end strength by making it easier to 
convert military jobs to civilian jobs; and most important, 
most demanding, to support the President's request expressed so 
forcefully Sunday night for the resources needed to wage and 
win this war. We need resources for our military. We also need 
resources to win that second battle front, both in Afghanistan 
and Iraq, to help those people build new and free countries 
that will remain free of instability and terrorism and to send 
a message to the world, especially to our enemies, that we have 
the staying power to finish the job.
    Concerning the first point, General Abizaid and his 
commanders have said repeatedly that they not only do not need 
more troops, they do not want more American troops. What they 
do want are more international troops to share the burden of 
providing stability forces. But most of all what they want are 
more Iraqi troops, because it is their country that we have 
liberated and it is they who need to take over the main 
security tasks.
    In July, when I visited the marines in southern Iraq, the 
commander of the First Marine Division, Major General Jim 
Mattis, who, as the chairman noted, is here with us today, told 
me how he had sent some of his 15,000 troops home already 
because he had enough of them to do the job and he did not want 
what he called ``the reverberations of a heavy footprint'' that 
a large army requires. He said that if you want more people on 
your side, do not bring in more Americans.
    General Abizaid mentioned in his briefings here last week 
that what we really need are more Iraqis fighting with us. We 
have begun recruiting and training Iraqis for an Iraqi Civilian 
Defense Corps to take over tasks such as guarding fixed sites 
and power lines.
    It is the same with former New York City Police Chief 
Bernie Kerik, who just volunteered for 4 months helping Iraqis 
rebuild their police force. He favors empowering Iraqis over 
sending more American troops. He said if you triple the number 
of coalition forces, ``you will probably triple the attacks on 
the troops.''
    The future is not in the military, but in getting control 
back in the hands of the Iraqi people. We are making rapid 
progress in that area. We have gone from no Iraqis fighting 
with us when Baghdad fell to currently more than 55,000--
55,000, Mr. Chairman, serving with us and providing security 
for their country. That makes Iraqis the single largest member 
of the coalition after the United States, and they are taking 
on the hard missions. They are fighting and taking casualties 
with us. Just a few days ago, one of them was killed by a 
suicide bomber attempting to attack our troops.
    Those numbers are predominantly Iraqi police, some 40,000. 
But we have started two new formations, the Iraqi Facilities 
Protective Service and the Iraqi Civil Defense Corps. By 
January we plan to have 15,000 members of the Civil Defense 
Corps and 20,000 members of the Facilities Protective Service. 
Those numbers, as well as the police numbers, can be increased 
more rapidly with the resources that the President is asking 
Congress to provide.
    We should not, however, find that we are held back by a 
shortage of money or authority to give those willing and able 
to fight on our side the proper training and equipment to get 
the job done.
    On converting military jobs to civilian jobs, we ask 
Congress to give us the flexibility to make it easier to do 
that because it would help relieve some of the current stress 
on the Active-Duty Force. Right now the complexities of putting 
civilians in the thousands of jobs that do not need to be 
performed by men and women in uniform puts unnecessary strain 
on our uniformed personnel. I could also add, Mr. Chairman, 
from personal experience, that it makes it more difficult to 
recruit the great talent pool that we have out in this country 
among Iraqi Americans and Afghan Americans who are ready and 
willing to serve either as civilians or as military.
    In the current situation, bringing more troops on line by 
increasing our end strength will not provide a short-term 
answer. It takes time to recruit and train people and any 
increase we put into effect now would have no appreciable 
effect for some time to come. If the current strain on our 
military forces reflects a temporary spike from an increase in 
wartime operations tempo, it would be better to resist 
increasing forces for the long term because doing so will 
impose a sizable personnel cost in the out years that will 
inevitably come at the expense of other things that our Armed 
Forces need.
    What can deliver results more quickly are the things we are 
looking at to reduce the stress on our current end strength. 
That includes an examination of our entire global footprint, as 
you just suggested in your remarks, Mr. Chairman. It means 
looking at how to make adjustments in the active-Reserve mix so 
that particular portions of our force, and particularly 
specific portions of our Reserve Force, are not inordinately 
strained. It means looking at how we can shift some jobs 
performed by people in uniform to civilians who can do them 
just as well or perhaps better.
    We are asking you now to help us with our proposed national 
security personnel system. The fact that we are fighting a 
tough and sustained war on terrorism only makes the need to 
take that step even more pressing.
    But finally and most important, Mr. Chairman, we are asking 
you to provide substantial means to fight and win this war. The 
bulk of the President's request, some $66 billion, will be 
dedicated to ensuring that our men and women in uniform have 
the resources they need to complete their missions in the war 
on terror. The rest, $21 billion, would help build safe, 
stable, and self-governing societies in Iraq and Afghanistan.
    In recent weeks, many of you have said that even if this is 
a formidable venture, even if it costs substantial resources, 
it is important enough to our country, to our security, to our 
national interest, to merit Congress's full support. The costs 
are large, but it is a battle that we can win and it is a 
battle that we must win, because victory in this battle will be 
a major victory in the war on terrorism and a major defeat for 
the global terrorist networks.
    As large as these costs are, they are still small compared 
to just the economic price that the attacks of September 11 
inflicted, to say nothing of the terrible loss of human life. 
Even those costs are small in comparison to what future, more 
terrible terrorist attacks could inflict.
    By those actions and by what Congress says, you can help us 
send the message to the world and particularly to our enemies 
that America is behind our troops, that America has the staying 
power to fight this war on terrorism to victory.
    The Baathist bitter-enders and their foreign terrorist 
allies believe that if they can inflict casualties on us, as in 
Beirut and Somalia, we will give up and go home. We know that 
Osama bin Laden saw Somalia as an example of how Americans can 
be driven out by inflicting casualties. We know that Saddam 
Hussein told Ambassador April Glaspie in 1990 that he could 
take massive casualties and we could not stand even a few.
    The sooner these terrorists and Baathists understand 
clearly that our will cannot be broken and that the Iraqi 
people, despite hardship and difficulty, will persevere in 
building their new society, the sooner we will win. That is why 
it is so urgent that Congress pass this supplemental request, 
and I would encourage speedy action when the request is 
formally submitted, because just as the speedy action of 
Congress after September 11 sent a strong message to friends 
and enemies alike and to our troops, so too a rapid response 
now will send that same message, and particularly to the troops 
who are giving us 100 percent. They need to know that we are 
behind them 100 percent.
    Mr. Chairman, I would like to join you in expressing my 
thanks and the thanks of our troops for the special efforts, 
for the special efforts that members of this committee and 
Congress more generally have made to visit Iraq. Your visits 
have been important not only for the morale of our men and 
women; they have also given you an opportunity to get a much 
clearer picture of the situation on the ground.
    The common experience of almost everyone I have talked to 
who goes to Iraq seems to be that, while we all see the 
problems that are so frequently reported in the press, we also 
see a great deal of good news. In the case of Iraq, where the 
only news for 35 years was horrible news, the remarkable amount 
of good news is indeed a story.
    It is impossible to generalize about Iraq, Mr. Chairman. I 
am afraid when a bomb goes off in one place people get an 
impression that the whole country is about to come apart. The 
truth is--and I suppose when I say it I should knock on wood--
one does not know what tomorrow will bring. But the truth is 
that so far the predominantly Shia south has been remarkably 
stable and I would say far more stable than most pre-war 
predictions would have given you. The mixed ethnic Arab-
Turkish-Kurdish north has also been remarkably stable, again 
contrary to fears many of us had that we might face large-scale 
ethnic conflict.
    Our problems, and they are real, have largely been 
concentrated in the Baathist areas in central Iraq and parts of 
Baghdad. I have tried in my statement at some length to give 
some feel for that wide variation. I am not going to take you 
through it now, but I would like to mention southern Iraq, and 
Najaf in particular, partly because it was in the news and 
partly because General Mattis is here and if you wish to hear 
more from him he can tell you much more than I can.
    But it is interesting, I think, what stunning successes the 
Marines achieved in those two cities, Najaf and Karbala, the 
holiest cities of Shia Islam. It is a success that can be 
perceived, I think, even despite the recent tragic bombing in 
Najaf. That event of course was a terrible tragedy and has 
contributed to unease and fear in Iraq, and that is precisely 
what the people who did it intended, and as far as we know they 
were probably outsiders.
    It does not take many people to plant a car or a truck 
bomb. They have done that here in the United States. To me, the 
real news has been the remarkable calm and restraint that Iraqi 
Shia have shown in the wake of that horrible provocation. Some 
hundreds of thousands of people came out to witness the funeral 
procession of Ayatollah Hakim as it passed, with no major 
violence reported. Fears have been expressed that this 
horrendous act could lead to attacks by Shia on Sunni, but so 
far at least that has not happened.
    Last week, General Abizaid told reporters that, after being 
in the United States a week and a half and reading news reports 
on conditions in Iraq, it could lead him to think that perhaps 
he should go back to Iraq, he said, and find someone to 
surrender to. Yet when he talks to our troops, well-informed by 
first-hand knowledge, he said, ``They are so confident and so 
positive that it takes me only about 30 minutes,'' the General 
said, ``to understand that we have this under control.''
    Of course, there are still many challenges remaining for 
our troops and, as our commanders consider military operations 
in Iraq, there are at least two things they tell us they would 
like more of. Number one is Iraqis fighting to secure their own 
liberty, as I mentioned earlier. The number two critical item 
is forces of other countries, and we are making progress there 
as well.
    So far, close to 30 nations have sent close to 23,000 
personnel to Iraq. Over 40 nations have pledged more than $3 
billion in assistance. In southern Iraq, Polish forces have 
assumed command of an international division and we are hoping 
to add another division above and beyond that. The President's 
request will provide some $800 million to support the troops of 
our coalition partners who need that help to provide support.
    In the wake of the bombing on the U.N., we have a new 
opportunity to get a more extensive resolution from the U.N. 
that will make it easier for those countries that are 
contributing to continue to do so and hopefully easier for new 
countries to enter as well.
    Mr. Chairman, I would like to conclude by mentioning 
something that General Mattis said to me when I visited Iraq in 
July. He said the people that presented the fiercest opposition 
to them as they drove north in that phase of major combat 
operations were the Fedayeen Saddam, a group of thugs with a 
cult-like dedication to Saddam Hussein who, though their 
numbers are reduced, are still a problem, and foreign 
terrorists.
    I asked him: ``How did you know that foreigners were 
fighting?'' He said: ``Well, we found a lot of foreign 
passports on the battlefield.'' He was good enough to bring a 
few of these that he found back with him. This is one, a 
foreigner who came into Iraq on March 24 through Syria--not a 
Syrian, but through Syria. The entry permit on his passport 
said he came to, ``volunteer for jihad.''
    Here is another one who came into Iraq through Syria, the 
same crossing point. The entry permit said ``to join the Arab 
volunteers.'' Here is a third one that came in on April 7.
    In other words, from the very early stages of the war 
foreign terrorists were coming into Iraq, obviously with the 
full knowledge and cooperation of the Iraqi government, and 
sent to the front lines to fight Americans. They are still 
there. Others are coming. Getting better border controls is one 
of our important objectives.
    But I think it is a strong illustration of the major threat 
that we face today. As the intelligence briefings put it, it is 
the combination of former regime loyalists and foreign 
terrorists. The level of cooperation between them is something 
that is hard to determine. There is some, we know. There is 
probably a lot more that we do not know.
    The foreign terrorists, Mr. Chairman, who go to Iraq to 
kill Americans understand this: If killing Americans leads to 
defeat and the restoration of the old regime or any new 
tyranny, it would score an enormous strategic victory for 
terrorism and for the forces of repression and intolerance, 
rage and despair, hatred and revenge. As the President told 
members of the American Legion recently: ``Terrorists know that 
a democratic Iraq in the Middle East would be a further defeat 
for their ideology of terror.''
    Iraqis understand this. Along side us, they are working 
hard to fight the forces of anger and helplessness and to seize 
this historic opportunity to move their country forward.
    When I met with General Abizaid when we were both in Iraq 
in July, he put the battle in Iraq into a larger perspective 
that I think is worth quoting. I would remind everyone too, as 
most of you know, that he is not only a distinguished general, 
he is a real Middle East expert, a fluent Arabic speaker who 
has spent many years in that part of the world.
    The general said: ``The whole difficulty in the global war 
on terrorism is that this is a phenomenon without borders. The 
heart of the problem is in this particular region and the heart 
of the region happens to be Iraq. If we cannot be successful 
here, we will not be successful in the global war on 
terrorism.''
    ``Success in Iraq,'' the general said, ``offers a chance, 
when you combine it with initiatives in the Arab-Israeli 
theater and initiatives elsewhere, to make life better, to 
bring peace to an area where people are very, very talented and 
resources are abundant, especially here in Iraq.''
    Mr. Chairman, members of the committee, America's troops 
and those of our coalition partners, among whom I would 
emphasize are the Iraqi people themselves, are determined to 
win, and they will win if we continue to give them the moral 
and the material support they need to do the job. As the 
President said, our forces are on the offensive. As Army Vice 
Chief of Staff General Jack Keane said in testimony here: 
``They bring the values of the American people to this 
conflict. They understand firmness. They understand 
determination. But our troops also understand compassion. Those 
values are on display every day as they switch from dealing 
with an enemy to taking care of a family.''
    I have seen the troops in Iraq, as many of you here have as 
well, and I think you would all agree General Keane is 
absolutely right.
    [The prepared statement of Secretary Wolfowitz follows:]

               Prepared Statement by Hon. Paul Wolfowitz

    Mr. Chairman and members of the committee: One of the things that 
is most important for troops facing danger on the front lines is the 
knowledge that their dedication and sacrifice is appreciated by the 
people of America. On behalf of the men and women who serve our country 
so faithfully and so well, let me begin by expressing thanks to 
Congress for the bipartisan support that you give our Armed Forces.
    The enemy are people who show no mercy toward women or children. 
They are people who kill Arabs and Indonesians and Iraqis and Afghans, 
not just Americans and Europeans and Australians.
    Although they claim to act in the name of Islam, they attack not 
only churches and synagogues, but mosques as well. They pride 
themselves on being people who love death above life. They fear 
democracy because, as one recent al Qaeda publication makes clear, in 
their view, the goal of democracy is to ``make Muslims love this world, 
forget the next world and abandon jihad.'' Evidently, they are not 
happy that citizens of democracies can freely choose to remain faithful 
to their religious beliefs and traditions--apparently in their view, 
religion can survive only if it is imposed by tyranny and terror.

                        AMERICA: A NATION AT WAR

    It is fitting that, during this week of September 11, we gather in 
this seat of American democracy to take stock of America's efforts 
since that tragic day, in the global war on terrorism.
    Just 2 years removed from the most brutal attack on our Nation's 
soil since Pearl Harbor, we remain a Nation at war. We fight a threat 
posed by an enemy that hides in the shadows and has burrowed into 
scores of countries around the globe. With the help of a coalition of 
some 90 nations, we've gone after this adversary of freedom wherever he 
may be found, using every resource at our command--including our 
instruments of diplomacy, intelligence, law enforcement, financial 
influence, and, of course, every necessary weapon of war to destroy and 
defeat the global terror network.
    Like World War II and the Cold War, this war is fought on a global 
stage. Like those previous conflicts, the stakes are enormous and our 
very freedom is threatened. However, we also need to realize that this 
war is different from any previous war. If we react based on 
experiences from prior conflicts--or from prior peacekeeping 
experiences--we are likely to act wrong in many cases. We face a new 
situation and we need to think anew about it.
    I've traveled to Afghanistan and Iraq, as have many of you here, 
and I think you'll agree, Mr. Chairman and members of the committee, 
that the men and women of America's Armed Forces support this national 
endeavor with the greatest pride, their very best efforts, a clear 
understanding of their mission, and the strongest possible 
determination to win.
    At the Pentagon, only 1 year removed from sealing the horrible gash 
the terrorists made in its outer wall, the memory of our lost comrades 
remains strong; our military and civilian forces have not forgotten 
whom we are fighting and what we are fighting for. They, above all, 
know what's at stake.
    If you go to the Memorial Chapel in the Pentagon, which is located 
at the restored site of the deadly impact, you'll find that service 
members and civil servants, as well as other Americans who come to 
visit, to this very day, write their thoughts into a book there--they 
leave their condolences for those lost at their posts, killed simply 
because they were defending America. Visitors put into words their 
faith that America will prevail over the forces that would destroy 
freedom.
    We will prevail. We will prevail because we're the people who meet 
adversity head on and come out better for it. When the terrorists 
attacked, they seem to have thought we were a weak people, grown used 
to comfort, and softened by everything we enjoy in this great Nation. 
But, since September 11, they've come to learn just how wrong they are.
    We rebuilt the Pentagon. The builders who labored so tirelessly to 
put it back together made it better than it was before. That's the 
American way.
    We fought back. When the time came to make a choice, America took 
the fight to those who would rob us and others of our freedom. We acted 
decisively to keep gathering threats from becoming even more deadly 
attacks on the American people--because sitting back and hoping we 
don't get hit again is not a strategy.
    We worked with those dozens of countries, exchanging intelligence, 
closing bank accounts to keep funds from moving to terrorists; sharing 
information and police records, keeping people from crossing borders--
to keep applying pressure across the globe. Of course, we're working 
with our coalition partners in Afghanistan and Iraq and in other 
regions of the world to root out terrorists. It's a big job, and it's 
going to take patience and time and determination.
    It will take more than killing and capturing terrorists and 
dismantling terrorist networks--as important as that is. It also 
requires winning on what could be called the second front of the war on 
terror, what the President called ``building a just and peaceful world 
beyond the war on terror,'' particularly in the Muslim world.
    We don't start a job we can't finish. When we do start a job, we 
give it our best. That's the American way.
    As the President said on Sunday night: ``Our strategy in Iraq has 
three objectives: destroying the terrorists, enlisting the support of 
other nations for a free Iraq and helping Iraqis assume responsibility 
for their own defense and their own future. First, we are taking direct 
action against the terrorists in the Iraqi theater, which is the surest 
way to prevent future attacks on coalition forces and the Iraqi people. 
Second, we are committed to expanding international cooperation in the 
reconstruction and security of Iraq, just as we are in Afghanistan. 
Third, we are encouraging the orderly transfer of sovereignty and 
authority to the Iraqi people. Our coalition came to Iraq as liberators 
and we will depart as liberators.''

                     HELPING WIN THE WAR ON TERROR

    To help this Nation finish what it has begun and continue to 
victory in the war on terror, I'm here today to ask for help in three 
critical areas:
    1. Obtaining the appropriation and the authority to train and equip 
foreign military forces;
    2. Giving us the flexibility we've asked for to reduce the stress 
on active duty end strength by making it easier to convert military 
jobs to civilian jobs; and,
    3. No single thing is more important or more demanding than 
supporting the President's request, expressed so forcefully Sunday 
night, for adequate resources to wage and win this war. We need 
resources for our military, we also need resources to win that second 
battle front, both in Afghanistan and Iraq, to help those people build 
new and free countries that will remain free of instability and 
terrorism--and to send the message to the world, especially to our 
enemies, that we have the staying power to finish the job.
Training and equipping foreign military forces
    In the authorization bill, we asked Congress to provide us with 
$200 million in authority to provide assistance or support to foreign 
nations aiding U.S. military operations to combat terrorism. We intend 
to use this authority to train and equip foreign forces that are 
fighting alongside our forces--and often in place of our forces--in the 
war on terrorism. Both the House and Senate deleted that provision from 
the bill. While we have been asking on an urgent basis for the 
conference committee to restore this authority, we will undoubtedly be 
requesting it again, and probably on a larger scale, in the 
supplemental request that the President spoke about Sunday night. 
However, I would still urge the conference to consider restoring our 
original request because it is impossible sitting here to predict that 
Iraq and Afghanistan will be the only places in the world where well 
trained and equipped foreign forces fighting alongside our own could 
help our forces be more effective and save American lives.
    To fight the kind of war we face, we need maximum flexibility to 
benefit from the effect of foreign military forces who share our goals. 
We can't do it alone. Nowhere is this more clear than in Iraq.
    General Abizaid and his commanders have said repeatedly that not 
only don't they need more troops, they don't want more American troops. 
They do want more international troops to share the burden of providing 
stability forces and to reduce the political liability of a U.S.-only 
occupation. But most of all, what they want are more Iraqi troops 
because it is their country that we have liberated and it is they who 
need to take over the main security tasks.
    In July, the commander of the 1st Marine Division, Major General 
Jim Mattis, told me how he'd sent some of his 15,000 troops home 
already because he had enough of them to do the job, and he didn't want 
what he called the ``reverberations of a heavy foot print'' that a 
large army requires--the fuel, the food, the equipment, and all the 
materials a sizable force in place requires. He said that if you want 
more people on your side, don't bring in more Americans.
    As General Abizaid mentioned in his briefings here last week, what 
we really need are more Iraqis fighting with us. We've begun recruiting 
and training Iraqis for an Iraqi civilian defense force to take over 
tasks such as guarding fixed sites and power lines.
    It is the same with former New York City Police Chief Bernard 
Kerik, who just completed 4 months helping Iraqis rebuild their police 
force. He favors empowering Iraqis over sending in more troops. He 
said: If you triple the number of coalition forces, you'll probably 
triple the attacks on the troops. The future is not in the military but 
in getting control back in the hands of the Iraqi people.''
    Currently we have more than 55,000 Iraqis serving with us in 
providing security for their country, making Iraqis the single largest 
member of the coalition after the United States. These Iraqis are 
fighting with us and taking casualties with us. Just a few days ago, 
one of them was killed by a suicide bomber attempting to attack our 
troops.
    Their numbers are made up of roughly 40,000 members of the Iraqi 
police, as well as members of the new Facility Protection Service, the 
new Iraqi Civil Defense Corps, and the border guards. By January, we 
plan to have 15,000 members of the Iraqi Civil Defense Corps, and 
20,000 members of the Facility Protection Service.
    With additional resources, those numbers could be expanded further, 
because there is no shortage of Iraqis willing to serve. We also have 
plans to field 66,000 police and 3 divisions of the new Iraqi Army 
which could be speeded up substantially with the additional resources 
the President has called for.
    Iraqis want to do their part to help secure public order and create 
a civil society. In fact, some 50 Iraqis have already died and many 
more have been wounded working with us to do just that.
    We should not find that we are held back by a shortage of money or 
authority to give those willing and able to fight on our side the 
proper training and equipment to do the job.
Converting military jobs to civilian jobs
    Along with preparing more Iraqis to fight with us, giving us the 
flexibility to make it easier to convert military jobs to civilian 
jobs--my second point--would help relieve some of the current stress on 
the Active-Duty Force. Right now, the complexities of putting civilians 
in the thousands of jobs that don't need to be performed by men and 
women in uniform puts unnecessary strain on our uniformed personnel. 
Today, as some thousands of uniformed personnel perform non-military 
jobs, we are calling up Reserves to help deal with the global war on 
terror.
    In the current situation, bringing more troops on line by 
increasing our end strength is not the answer. It takes time to recruit 
and train people, and any increase we put into effect now would have no 
appreciable effect for some time to come. If the current strains on our 
military force reflect an inevitable, yet temporary, spike from an 
increase in wartime operations tempo, it would be better to resist 
increasing forces for the long-term. If it turns out that an increase 
was unnecessary, a sizeable increase in personnel costs would come at 
the expense of other things our Armed Forces need.
    What makes more sense--and can deliver results more quickly--are 
the kinds of things we're looking at to reduce the stress on our 
current end strength, including reexamining our entire global 
footprint, looking at how best to make adjustments in the active/
Reserve mix, and most of all, looking at how we can shift some jobs 
performed by the military that would be more appropriately be done by 
civilians.
    We realize that achieving the goal of reforming the Defense 
Department's civil service system requires some bold moves to 
constitute real transformation. We are asking you now to help us take 
such a bold step and help us with our proposed National Security 
Personnel System. That we are fighting a tough and sustained war on 
terrorism only makes the need to take that step to reform our personnel 
system even more pressing.
Providing the necessary resources
    That we fight this war to win is why, in his address to the Nation 
Sunday evening, President Bush announced his intention to submit a 
request to Congress for additional funds to pay for military and 
intelligence operations in Iraq and Afghanistan and elsewhere in the 
war on terror and to help pay for the reconstruction of both nations.
    The bulk of the President's request ($66 billion) will be dedicated 
to ensuring our men and women in uniform have the resources they need 
to complete their missions in the war on terror. The rest ($21 billion) 
would help build safe, stable, and self-governing societies in Iraq and 
Afghanistan.
    In recent weeks, many of you have agreed that even if this is a 
formidable venture, even if it costs substantial resources, it is 
important enough to our national interests to merit Congress's full 
support.
    As the President said to the Nation on Sunday, the undertaking in 
Iraq is ``difficult and costly--yet worthy of our country, and critical 
to our security.'' This undertaking is so critical because, as the 
President said, ``Iraq is now the central front'' in the war on terror. 
``Enemies of freedom,'' he said, ``are making a desperate stand there--
and there they must be defeated.''
    There's no question that a powerful signal will go out to the 
terrorists and their allies that defeat in Iraq will be theirs when 
Congress acts quickly on the President's request.
    For Iraq, the roughly $51 billion of the total amount the President 
has requested for military expenses will be key to eliminating the 
remnants of Saddam's regime, as well as the foreign terrorists who've 
been fighting in Iraq. The President will request $20 billion to help 
in Iraq's transition to self-government, and to create the conditions 
that will encourage economic investment. Iraq's infrastructure was 
badly decayed. It is estimated that between $50-$75 billion will be 
needed to address the infrastructure's decades of malicious neglect. 
Roughly $5 billion will go to addressing security, so crucial to 
overall success, by training people who can guard borders and enforce 
customs laws, as well as a new Iraqi army, police force, and local 
civilian defense corps.
    As the President said on Sunday, this victory will require us to 
commit ``years and resources,'' just as in the aftermath of the Second 
World War, when we helped rebuild Germany and Japan. But that effort 
and investment, he reminded us, ``has been repaid in three generations 
of friendship and peace. America today accepts the challenge of helping 
Iraq in the same spirit we have helped others.''
    The costs are large, but it is a battle that we can win and we must 
win. Because victory in this battle will be a major victory in the war 
on terrorism and a major defeat for the global terrorist networks. As 
large as these costs are, they are still small compared to just the 
economic price that the attacks of September 11 have inflicted, to say 
nothing of the terrible loss of human life. Even those costs are small 
in comparison to what future more terrible terrorist attacks could 
inflict.
America is behind the troops
    By those actions and what Congress says, you can help us send the 
message to the world, and particularly to our enemies, that America is 
behind her troops, and has the staying power to fight this war on 
terrorism to victory.
    The Baathist bitter-enders and their foreign terrorist allies 
believe that if they inflict casualties on us, like in Beirut and 
Somalia, we will give up and go home.
    We know that Osama bin Laden saw Somalia as an example of how 
Americans can be driven out by inflicting casualties. We know that 
Saddam Hussein told Ambassador April Glaspie in 1990 that he could take 
casualties and the Americans could not.
    When the terrorists exploded a bomb outside a shrine in Najaf, and 
when they detonated a bomb in the U.N. Headquarters, the men and women 
killed weren't the only targets.
    Terrorists were aiming a blow at something they hate even more--the 
prospect of a country freed from their control and moving to become an 
Iraq of, by, and for the Iraqi people. Terrorists recognize that Iraq 
is on a course towards self-government that, once achieved, will be an 
example to all in the Muslim world who desire freedom, pointing a way 
out of the sense of failure that the extremists feed on. They test our 
will, the will of the Iraqi people, and the will of the civilized 
world.
    The sooner these terrorists understand clearly that our will can't 
be broken and that the Iraqi people, despite hardship and difficulty, 
will persevere in building their new society--the sooner the terrorists 
will come to terms with their defeat.
    That is why it is so urgent that Congress pass this supplemental 
request to cover ongoing military operations in Afghanistan and Iraq to 
ensure our troops have the resources they need to complete their 
mission.
    Just as after September 11, a speedy bipartisan passage of the 
supplemental request would send a strong message to our friends and our 
enemies--and to our troops, who are giving us 100 percent. They need to 
know we are behind them 100 percent.
View of the Military Front: Afghanistan
    Afghanistan was the first arena in the global war on terrorism and 
the United States remains strongly committed to success in that 
country. Success in Afghanistan entails the establishment of a moderate 
and democratic political order that is fully representative of the 
Afghan people. Afghanistan has suffered a great deal over the last 
quarter century and it has come a long way since the fall of the 
Taliban regime in 2001. The United States shares and supports President 
Karzai's and the Afghan people's hopes for a peaceful, democratic, and 
prosperous country that can serve as a partner in the region and as a 
model for other Muslim states.
    As part of our ongoing commitment to success in Afghanistan, we 
seek to accelerate the progress the United States, our Coalition 
partners, and our allies in the Afghan government have been making to 
bring lasting peace to the war torn country. Together, we have 
accomplished a great deal over the last 2 years. The Afghan people are 
experiencing restored liberties, some as simple as the right to 
education. The Afghan government, under the able leadership of 
President Karzai, continues to establish legitimate authority 
throughout the country and in the international community as a 
respected and recognized member of the community of nations.
    Over a million Afghan refugees have returned, and many more 
continue to do so with hopes for a better future in their native land 
after years of refuge in neighboring countries. Schools, clinics, and 
businesses continue to open around the country. The International 
Security Assistance Force (ISAF), now under North Atlantic Treaty 
Organization (NATO) command, continues to help provide security in the 
capital, Kabul. NATO's mission in Afghanistan is testimony to the 
Alliance's commitment to redefining its role in the new global era. We 
continue to support the ISAF mission in Kabul and look favorably upon 
possible expansion of the mission beyond the capital.
    The United States continues to lead the international community in 
reconstruction and humanitarian assistance to Afghanistan, with close 
to a billion dollars in 2003 alone. We are assisting the Afghan 
government in its effort to rebuild the Afghan National Army (ANA). The 
ANA has already proven effective in support of the war on terrorism.
    We have accomplished a great deal and we recognize that much more 
remains to be done to ensure success in Afghanistan. The war on terror 
is one aspect of our involvement in Afghanistan. The other is our 
commitment to promoting a functioning moderate and democratic political 
order that can serve as the foundation for lasting peace in the 
country. Realizing this vision will require increased commitment on the 
part of the United States and the international community.
    Recent weeks have shown that security in Afghanistan must be 
protected and enhanced as an important prerequisite to lasting peace. 
Taliban forces and their allies operating out of their sanctuaries 
along both sides of the Afghan-Pakistan border are attempting to 
regroup and destabilize Afghanistan. Taliban elements are targeting 
Non-Governmental Organizations (NGO) workers, Afghan civilians, 
including moderate local religious leaders, in an effort to impose 
their tyrannical and alien ways on the Afghan people. ANA forces 
working with U.S. and Coalition forces continue to successfully target 
and neutralize Taliban forces in southern and eastern Afghanistan. ANA 
forces have successfully conducted their first operations in support of 
their efforts.
    President Karzai continues to assert the legitimate authority of 
the central government in an effort to improve governance and security 
in the provinces. Over the last year alone, he has appointed new 
governors to key provinces and has initiated the important reform of 
the National Ministry of Defense. The United States stands firmly 
behind President Karzai and his administration in their effort to 
implement the will of the Afghan people. Afghanistan will soon usher in 
a new constitution by the end of this year with elections scheduled for 
June 2004. The Bonn Process has been a vital political roadmap for the 
country. We remain committed to its success and we recognize that our 
commitment will require increased resources to help the Afghan people 
realize their hopes for a better future free from religious tyranny and 
warlord banditry.
Iraq
    I would like to express my thanks and the thanks of our troops for 
the special efforts that members of this committee have made to visit 
Iraq. Your visits have not only been important for the morale of our 
men and women, they also give you an opportunity to get a much clearer 
picture of the situation on the ground. The common experience of almost 
everyone who goes there seems to be that, while we can see the problems 
that are so frequently reported in the press, we also see a great deal 
of good news. In the case of Iraq--where the only news for 35 years has 
been bad news--the remarkable amount of good news is indeed a story.
    I had an opportunity to get some of that good news first hand in 
July when I visited the troops of the 1st Marine Division in the Shia 
holy cities of Najaf and Karbala. The Marines achieved some stunning 
success in those cities in Iraq's Shi'a heartland, success that can be 
perceived even despite the recent bombing in Najaf. That event was, of 
course, a terrible tragedy and it has contributed to unease and fear in 
Iraq. However, it doesn't take many people to plant a car bomb or truck 
bomb. They've done that here in the United States. To me, the real news 
has been the relative calm and restraint that Iraqis have shown in the 
wake of this horrible provocation. Some hundreds of thousands of people 
came out to witness the funeral procession of Ayatollah Hakim, with no 
major violence reported. Fears have been expressed that this horrendous 
act could lead to revenge attacks by Shi'a and Sunni, but so far at 
least that hasn't happened.
    Last week, General Abizaid told reporters that, after being in the 
United States a week and a half, overheated news reports on the 
conditions in Iraq could lead someone to think he should go back to 
Iraq ``to find someone to surrender to.'' Yet when he talks to our 
troops--well-informed by first-hand knowledge--he said, ``They are so 
confident and so positive that it takes me only about 30 minutes to 
understand we've got this under control.''
    Secretary Rumsfeld has just returned from Iraq, and reports that 
the general is exactly right. Our troops do have the situation under 
control. We must ensure they have the tools, the resources, and the 
moral support back home, to keep it that way.
    There are still many challenges remaining for our troops in Iraq. 
As our commanders consider military operations in Iraq, there are at 
least two things they tell us they would like more of. Number one is 
Iraqis fighting to secure their own liberty, which I mentioned earlier.
    Their number two critical item is forces from other countries, and 
we're making substantial progress there. So far, close to 30 nations 
have sent close to 23,000 personnel to Iraq. Over 40 nations have 
pledged more than $3 billion in assistance. In southern Iraq, Polish 
forces have assumed command of an international division, and we are 
hoping to add another division above and beyond that. The President's 
request will provide some $800 million to support the troops of our 
coalition partners with limited resources who are interested in 
providing support.
    In that same multinational division, the Spanish brigade has taken 
charge of the other major holy Shia city, Najaf. Further south, under 
the British multinational division, an Italian infantry brigade--which 
will include some 400 carabinieri--who will be performing security and 
stability operations.
    We are actively pursuing the option of a U.N. resolution, which 
would lead other countries, whose laws or domestic politics require 
such a resolution, to contribute more.
    We want these troops not merely to supply additional military 
manpower and to relieve the pressure on our own forces. More 
importantly, their presence will demonstrate to the Iraqis and to the 
world that the transformation of Iraq is of importance, not only to the 
U.S., but to the entire international community.
    The other critical item that General Abizaid wants more of is 
actionable intelligence. The key to getting more intelligence is 
cooperation from Iraqis. That cooperation has been increasing 
substantially. One example of that cooperation was the Iraqi who turned 
in the Hussein brothers. That event itself has led to a large increase 
in the amount of intelligence that Iraqis are bringing to us--indeed 
such a large increase that we now have the challenge of sorting out the 
wheat from the chaff.
    As many of our commanders have told me and told Congress, in Iraq, 
it is now mostly a battle for intelligence. As General Mattis has said, 
``any victory we get is brought to us by the Iraqi people.'' Such 
victories are all a matter of building trust. Here are some examples of 
how the marines of the 1st Division did it.
    One of the division chaplains suggested that his marines bring cold 
water to the Iraqis they encounter, because when it's 115 degrees, it's 
hard to hate someone who's giving you cold water. The troops employ 
what they call ``wave tactics''--when they see Iraqis, they wave. When 
the marines are talking to people, they take off their sunglasses. It's 
quite common for young children to run quite a ways to meet up with the 
marines, and take their hands as they patrol the streets. A young 
corporal or lieutenant gets credit for this next idea--when marines see 
an Iraqi funeral procession, as the body passes by, they stop and 
present arms to show their respect. This practice has spread throughout 
the country, because it's working.
    In these ways, and many more, our troops are breaking through the 
walls of that ghastly prison Hussein built, and they are earning the 
trust of the people they have liberated. I would add, they're gaining 
valuable intelligence, one of the sure keys to winning this fight.

                  A VARYING PICTURE, REGION BY REGION

    While many Iraqis may still remain in the grip of fear conditioned 
by the old regime, our troops, our coalition allies and the new 
national and local Iraqi councils continue to make other significant 
progress in lessening its iron hold.
    The Governing Council of Iraq is easily the most representative 
body of governance ever formed in that nation, and is rapidly gaining 
real powers and responsibilities, such as appointing ministers, 
representing Iraq to the international community, and beginning the 
process of drafting the first-ever Iraqi constitution.
    This transfer of power to the Iraqi people is taking place at the 
local level as well. Over 90 percent of Iraqi towns and provinces now 
have their own governing councils, including the holy Shiite cities of 
Najaf and Karbala.
    Those military commanders I talked with in Iraq who also have 
experience in the Balkans all said that, in Iraq, we are far ahead of 
where we were in Bosnia and Kosovo at comparable times, and in some 
cases, we are ahead of where those places are today.
    Lieutenant General Ric Sanchez, the outstanding new commander of 
Combined Joint Task Force 7 and a veteran of Kosovo, told me that 
things are happening in Iraq after 3 months that hadn't happened after 
12 months in Kosovo. I asked him to elaborate, and off the top of his 
head, he jotted down a list of 10 things. Included on the General's 
list of developments are these:

        <bullet> The judicial system is functioning at a rudimentary 
        level. Investigative judges are working and misdemeanor trials 
        are ongoing with convictions.
        <bullet> The political infrastructure is functioning. 
        Neighborhood, district and city councils have been stood up. 
        Over 90 percent of major cities have city councils and there is 
        a National Level Interim Governing Council.
        <bullet> The police force is at more than 50 percent of the 
        requirement. Police are conducting joint and unilateral 
        effective operations.
        <bullet> Schools were immediately stood back up. At all levels 
        the school year was salvaged.
        <bullet> The medical system is operating.
        <bullet> Local economies are bustling, including oil, 
        agriculture and small business.
        <bullet> Public services--electrical, water, sewage--are nearly 
        up to pre-war levels.
        <bullet> Recruiting and training for new Iraq security forces 
        is underway--and, as already noted, we have gone from zero to 
        55,000 in just 4 months.

    In fact, despite the terrorism, the entire south and north are 
impressively stable, and the center is improving day by day. The public 
food distribution is up and running. We planned for a food crisis, but 
there isn't one. Hospitals nation-wide are open. Doctors and nurses are 
at work. Medical supply convoys are escorted to and from the 
warehouses. We planned for a health crisis, but there isn't one.
    Oil production has continued to increase, and recently it has 
averaged between 1.5 and 2 million barrels per day.
    We planned for the possibility of massive destruction of this 
resource of the Iraqi people, but our military plan helped preserve the 
oil fields for the Iraqis.
    The school year has been salvaged. Schools nationwide have reopened 
and final exams are complete. There are local town councils in most 
major cities and major districts of Baghdad, and they are functioning 
free of Baathist influence.
    There is no humanitarian crisis. There is no refugee crisis. There 
is no health crisis. There has been minimal war damage to 
infrastructure. There has been no environmental catastrophe, either 
from oil well fires, or from dam breaks.
    However, Saddam's legacy of destruction and decay is another story 
entirely.
South
    In the south, the Marine Corps made wonderful progress. General 
Mattis has told us how effective his battalion commanders--typically 
lieutenant colonels--have been as the hub of activity in the cities. 
They have stressed creating a supportive environment by parking their 
tanks out of sight, and getting in among the people to win their trust 
and confidence. In one example I mentioned earlier, the marines gave 
out chilled water to demonstrators at political rallies. Whenever the 
marines have rebuilt a school--and in Karbala alone there are nine such 
schools--they present a brass bell with the inscription: ``To the 
children of Iraq from the First Marine Division.''
    Our Army Civil Affairs teams are equally impressive. They have 
created functioning local governing councils free from Baathist 
influence. The governor of Karbala captured this development best when 
he told me: ``We Shi'a have theological ties to Iran, but we refuse to 
be followers of any country outside Iraq. I want to stress, we aspire 
to independence and democracy. We want to heal the wounds from the past 
regime's atrocities. We want to build factories, bring in the internet, 
practice our religious rites in freedom, and have good relations with 
our neighbors and the world. The marines in Karbala--commanded by Lt. 
Col. Lopez--work day and night with our Governing Council to provide 
security and services.''
    Of course, the peace in the south was recently shaken by the 
bombing at the Imam Ali Shrine in Najaf. While this attack was a 
particularly heinous and outrageous act, even by the standards of 
Middle Eastern terrorism, it is not representative of greater 
instability in the South any more than September 11 was a symbol of 
instability in the United States. It was what it appeared to be--the 
desperate act of evil men.
    Yet as the funeral marches for Shaik al-Hakim illustrate, hundreds 
of thousands of Iraqis were able to come out together without incident 
to pay respects to this spiritual leader. Despite the large numbers of 
people, and the intense emotion aroused by the bombing, the funeral 
processions were generally peaceful overall.
North
    Stability in the north is another success story. General Dave 
Petraeus and his troops of the 101st Airborne arrived in Mosul on 22 
April and over the next 30 days they put together this impressive list 
of accomplishments:

        <bullet> Met with community leaders;
        <bullet> Agreed on an election plan;
        <bullet> Established an elected interim city council;
        <bullet> Re-opened hospitals, schools, banks, and businesses;
        <bullet> Set up a Civil-Military Operations Center (CMOC);
        <bullet> Repaired the strategic bridge on the Mosul-Irbil road;
        <bullet> Fixed the benzene and propane shortages;
        <bullet> Opened the airport to humanitarian assistance flights;
        <bullet> Signed the Makhmur harvest accords between Kurds and 
        Arabs;
        <bullet> Completed the wheat harvest;
        <bullet> Re-opened the border with Syria so trade could resume;
        <bullet> Set up the new Mosul newspaper;
        <bullet> Paid government workers;
        <bullet> Re-established train service;
        <bullet> Established Task Force Neighborhood and Task Force 
        Graffiti and helped clean up the city; Task Force Pothole 
        employs Iraqis and improves the roads;
        <bullet> Conducted joint police patrols;
        <bullet> Began training a new police force;
        <bullet> Diplomatically removed Peshmerga forces from disputed 
        areas to back above the green line;
        <bullet> Average 300 day, 300 night, and 90 joint sector 
        security patrols (U.S. with local police); and have established 
        air and ground quick reaction forces to respond to Baathist 
        attacks;
        <bullet> They are currently supporting 10 major Coalition 
        Provisional Authority (CPA) funded reconstruction projects.

    General Petraeus said they have invested in water, electricity, 
roads, schools, hospitals, banks, agriculture, summer youth leagues, 
community swimming pools, orphanages, and kids' amusement park 
projects. He believes there are reasons for continued optimism in the 
north. They include: the quality of interim government leadership; 
citizen trust and confidence in Coalition Forces; a good university and 
school system; functioning food and fuel distribution systems; access 
to trade with Turkey and Syria; relatively good infrastructure; natural 
resources (water, oil, farm land); growth of small businesses; 
educated, hard-working, entrepreneurial populace; and as the locals 
have said, there is a ``thirst for democracy.''
Center and Northeast (4th Infantry Division)
    General Ray Odierno has a more difficult security challenge in the 
predominately Sunni areas and in areas close to the Iranian border. He 
understands the nature of the Baathist and foreign terrorist threat and 
how that interacts with and affects his civil-military programs. He 
said they have incredible tactical intelligence on the Baathist cells 
and are making solid progress in defeating this threat. Operations like 
Operation Peninsula Shield, Operation Sidewinder, and Operation Soda 
Mountain have been effective in rooting out Baathists and foreign 
terrorists. He said as we capture or kill the foot soldiers, it is 
becoming increasingly difficult for the mid-level Baathist financiers 
to organize, recruit and maintain an effective force.
    As Odierno deals more and more effectively with the Baathist 
forces, he too has been able to complete an impressive array of civil-
military projects in his area of responsibility. In Kirkuk, the 
northern part of his area of responsibility, General Odierno's troops 
have established Battalion Commander ``safe houses'' to more 
effectively interact with the population. They have stood up and are 
training a police force.
    My meeting in July with the Kirkuk Interim Governing Council 
members was one of the most heartening of all. Many of the 18 members 
spoke of their gratitude to President Bush and our troops for their 
liberation. The word ``liberation'' was used repeatedly by the members. 
An Arab member spoke eloquently of the need to return Kurdish property 
to their rightful owners. ``All Iraqis were victims of the last 
regime,'' he said. Others spoke of American troops working with us ``in 
a nice way to help solve our problems,'' that ``doors are always open 
to us'' and that ``we found out the Americans are our brothers who came 
as liberators not as conquerors.''
    One member said: ``Please tell President Bush thank you for his 
courageous decision to liberate Iraq. Many American soldiers have 
volunteered their lives [for liberation].'' The Turcoman member asked 
that I convey to President Bush the Turcoman communities' thanks for 
liberation. Another member commended the ``tireless efforts of General 
Odierno and his army'' in helping the Iraqi people. Finally, a member, 
speaking English, asked me when the U.S. Government was going to 
``confront Arab television for their incitement to kill Americans?''
    That council member's question suggests something else we don't 
hear reported enough: the vast majority of the Iraqi people are with 
us.
    This fundamental truth was reflected in the statement issued on the 
occasion of the Najaf attack by the Iraqi Governing Council: ``This 
type of criminal act will only make our people more determined to move 
forward in building a new Iraq so that security and prosperity will 
prevail.

                        IRAQI PEOPLE ARE WITH US

    The people of Iraq are not only looking ahead to the day when they 
have their own representative government, they are taking active steps 
to make that happen now. There are some who still ask the question: Is 
democracy possible in Iraq? There are even some who doubt that 
democracy could ever take root in the Arab world. But, the people of 
northern Iraq, beyond the reach of Saddam Hussein and his regime, over 
the course of more than a decade demonstrated an impressive ability to 
manage longstanding differences and develop relatively free and 
prospering societies.
    The mayor of Karbala expressed his personal gratitude, telling us 
they would, ``never forget that America saved us and delivered us from 
the regime.'' He added: ``We want to establish a national government 
and maintain relations with America.''
    My meetings with Iraqis convinced me that they are looking to do 
the same thing. We attended a meeting of the Mosul city council, which 
was instructive in debunking the myth that Arabs, Kurds, Turcomen, 
Assyrian Christians, and Yezidi cannot live and work together. The 
mayor of Mosul--who is a Sunni Arab and former Army commander who spent 
a year in prison and whose brother and cousin were murdered by the 
regime--said life under the old regime ``was like living in a prison.'' 
He described the regime as ``a ruthless gang that mistreated all 
Iraqis.'' Now that that regime has been removed, he and his council can 
turn their attention to more ordinary problems. Investment and jobs, he 
said, are their top priorities. He credited the wisdom of General 
Patraeus in improving the security situation. He added that jobs and 
investment will follow.
    When I asked the mayor if ethnic differences will prevent people 
from working together, the Turcoman assistant mayor immediately said: 
``We have never had ethnic problems in the past. Saddam created them. 
We have always considered ourselves members of the same family. It 
never crossed our minds that the next person is different.'' To that, 
the mayor added: ``What caused this great [ethnic] gap was Saddam. 
Throughout our history we have had no problems. This has happened only 
in our recent history. We consider ourselves one garden with many 
flowers of different colors.''
    Even though the enemy targets our success, we will win the peace. 
But, we won't win it alone. We don't need American troops to guard 
every mile of electrical cable. The real center of gravity will come 
from the Iraqi people themselves--they know who and where the criminals 
are. They have the most at stake--their future.
    When inevitable challenges and controversies arise, we should 
remind ourselves that most of the people of Iraq are deeply grateful 
for what our incredibly brave American and coalition forces have done 
to liberate them from Saddam's republic of fear.
    When we've shown Iraqis we mean to stay until the old regime is 
crushed, and its criminals punished--and that we are equally determined 
to give their country back to them--they will know they can truly begin 
to build a society and government of, by and for the Iraqi people.
    In many ways, the people of Iraq are like prisoners who endured 
years of solitary confinement--without light, without peace, without 
much knowledge of the outside world. They have just emerged into the 
bright light of hope and fresh air of freedom. It will take time for 
them to adjust to this new landscape--but, all things considered, they 
are doing rather well.
    Today, we are fighting a war on terror--a war that we will win. As 
the council member's question about the incitement to violence he saw 
on Arab television suggests, however, the larger war we face is the war 
of ideas--a challenge to be sure, but one that we must also win. It is 
a struggle over modernity and progress, pluralism and democracy, and 
real economic development.
    When I was in Iraq, General Mattis told us that the two groups who 
fought most aggressively during major combat operations were the 
Fedayeen Saddam--homegrown thugs with a cult-like attachment to 
Saddam--and foreign fighters, principally from other Arab countries.
    How do we know this? For one thing, the terrorists themselves tell 
us. General Mattis and his men found foreign passports on many of the 
enemy they killed, some of which stated openly that they had come to 
Iraq for the purpose of fighting jihad.
    Today in Iraq, we still face that poisonous mixture of Baath regime 
loyalists and foreign fighters.
    Brigadier General Martin Dempsey, the commander of the Army's 1st 
Armored Division, recently described those foreign fighters as 
``international terrorists or extremists who see this as the Super 
Bowl.''
    Foreign terrorists who go to Iraq to kill Americans understand 
this: if killing Americans leads to our defeat and the restoration of 
the old regime, they would score an enormous strategic victory for 
terrorism--and for the forces of oppression and intolerance, rage and 
despair, hatred and revenge. As the President told members of the 
American Legion recently: ``Terrorists know that a democratic Iraq in 
the heart of the Middle East would be a further defeat for their 
ideology of terror.''
    Iraqis understand this. Alongside us, they are working hard to 
fight the forces of anger and helplessness and to seize this historic 
opportunity to move their country forward.
    When I met with General Abizaid during my trip to Iraq, he placed 
into larger perspective the battle in Iraq. He said, ``The whole 
difficulty in the global war on terrorism is that this is a phenomenon 
without borders. The heart of the problem is in this particular region, 
and the heart of the region happens to be Iraq. If we can't be 
successful here, we won't be successful in the global war on 
terrorism.'' Success in Iraq, said the general, offers ``a chance, when 
you combine it with initiatives in the Arab/Israeli theater and 
initiatives elsewhere, to make life better, to bring peace to an area 
where people are very, very talented and resources are abundant, 
especially here in Iraq.''
    Each time terrorists have achieved a tactical success, whether in 
New York or Bali or Riyadh, or more recently in Najaf and with the U.N. 
bombing in Baghdad, they've temporarily shaken people, but each time 
they've aroused people.
    In fact, the statement released by the Iraqi Governing Council 
following the Najaf bombing decried ``the brutality and descent into 
insanity of the criminals who target a person while he is worshipping. 
This type of criminal act will only make our people more determined to 
move forward in building a new Iraq so that security and prosperity 
will prevail. The evil hand that struck Ayatollah Bakr al-Hakim and his 
brilliant record in confronting the buried regime will not be able to 
prevent the realization of Hakim's legitimate goals and supreme 
humanitarian values.''
    Based on his experience training the new Iraqi police, Bernie Kerik 
is reported to have said that attempts to frighten the new police 
force--such as in the bomb blast at the Iraqi police academy in Baghdad 
that killed one and wounded a dozen others--won't work. He said, 
``They're not going to intimidate them. They are courageous people who 
have been fighting for 37 years and now they finally have a chance to 
win.''

                                 * * *

    America's troops and those of our coalition partners--among whom we 
would emphasize are the Iraqis themselves--are determined to win. They 
will win, if we continue to give them the moral and material support 
they need to do the job. As the President said recently, our forces are 
on the offensive. As Army Vice Chief of Staff Gen. John Keane said in 
congressional testimony, ``They bring the values of the American people 
to this conflict. They understand firmness, they understand 
determination. But they also understand compassion. Those values are on 
display every day as they switch from dealing with an enemy to taking 
care of a family.''
    I've seen the troops in Iraq, as have many of you here. I think 
you'll agree that General Keane is absolutely right.
    The President on Sunday clearly stated the mission and the stakes 
involved, exactly as our troops understand them: He said, ``We are 
fighting the enemy in Iraq and Afghanistan today, so that we do not 
meet him again on our own streets, in our own cities.''
    America's Armed Forces will not be deterred from their mission by 
desperate acts of a dying regime or ideology. There is no question that 
America's commitment to secure a peaceful Iraq--back home--must be at 
least equal to the commitment of our troops and to the stakes, for it 
is related to nothing less than our security and that of our children 
and grandchildren.
    We look forward to doing our part to work with the Members of 
Congress to help support our Armed Forces throughout the world who are 
doing their part to make America and her people more secure.
    Thank you.

    Chairman Warner. Mr. Secretary, we thank you for your 
strong leadership and a very informative statement this 
morning.
    We have excellent attendance here at our committee. We are 
anxious to get into the questioning, but we also want to 
receive your observations, Secretary Grossman, and those of the 
Chairman, and we will invite General Mattis to the table so 
that he can respond to areas of his special expertise in the 
course of the questioning. Thank you.
    Secretary Grossman.

 STATEMENT OF HON. MARC I. GROSSMAN, UNDER SECRETARY OF STATE 
                     FOR POLITICAL AFFAIRS

    Secretary Grossman. Mr. Chairman, I do not know if perhaps 
I should yield to the Chairman of the Joint Chiefs of Staff.
    General Myers. Go.
    Secretary Grossman. Okay, thank you very much.
    Mr. Chairman, Senator Levin, other members of the 
committee: I thank you very much for this invitation to appear 
today. Senator, I would like to also put my full statement in 
the record, and I will try to limit it as much as I possibly 
can.
    Let me first of all say that, since we are here all 
together at this table, that the State Department, we, every 
single one of us, are committed to supporting in every way 
America's men and women in uniform. As I have on many occasions 
in front of this committee, I want to thank all of the members 
of this committee for your support for the 46,000 men and women 
of the State Department who also defend their country in 258 
diplomatic posts around the world and I think do a very 
important job in winning the war on terrorism.
    They have suffered as well, in embassies in Nairobi and 
Dar-e-Salaam, and also, as Deputy Secretary Wolfowitz said, 
have made I think a substantial contribution to the effort to 
create diplomatic coalitions, mop up terrorist financing, and 
bring more people to this fight. In fact, after the defeat of 
the Taliban in Afghanistan, State Department people volunteered 
to staff our reopened embassy in Kabul, where they endured, and 
still do endure, hard living conditions.
    We are not a big organization, so these numbers may not 
seem large compared to our colleagues, but 33 State Department 
employees joined General Garner in Iraq in April, 47 of my 
colleagues serve today with Ambassador Bremer, and 22 more are 
scheduled to go out in the next few weeks. Altogether, almost 
300 State Department people have volunteered to go since July 
and I think that is a credit to the dedication and patriotism 
of the men and women of the Department, foreign service, and 
civil service.
    Mr. Chairman, in your letter of invitation you asked us to 
talk a little bit about America's global commitments. I think 
it is important in that regard to first step back and remember 
that, almost exactly a year ago in fact, President Bush signed 
the National Security Strategy of the United States. It is that 
document which forms the basis of the conduct both for 
America's foreign policy and military policy. It says that the 
primary aim of the United States is to not just make the world 
more secure, but also to make the world better.
    In order to bring about, as Deputy Secretary Wolfowitz 
said, political freedom, economic freedom, peaceful relations 
with other states, and respect for human dignity, the President 
has designated a number of tasks. I hope you had a chance to 
see Secretary Powell's speech at George Washington University 
last Friday, in which he laid out what we are doing together 
with our military colleagues to meet these tasks, including 
strengthening alliances to defeat global terrorism, building 
cooperative partnerships with other major powers, including 
Europe, Japan, Russia, China, and India, and working with other 
nations to defuse regional conflicts and prevent our enemies 
from threatening us, our allies, our friends, with weapons of 
mass destruction.
    Luckily, as a number of you have said, we are not alone. 
The United States is not alone in this effort to make a better 
world. So at the President's direction, we seek partners and 
allies because it enables us to achieve better our national 
objectives.
    Mr. Chairman, Senator Levin, you asked in your letter about 
cooperation with individual countries, with NATO, with the 
United Nations, and other multinational organizations. All NATO 
countries contribute to the global war on terrorism. Indeed, as 
we have discussed at this committee, Afghanistan represents an 
historic first out-of-area operation for the alliance as a 
whole.
    We are also working with the United Nations in Iraq. We 
have said from the very beginning, our President has said, the 
United Nations has a vital role to play in the reconstruction 
of that country, and the criminal bombing of the U.N. 
headquarters in Baghdad only further shows the importance of 
galvanizing international support for Iraq's reconstruction.
    As the President announced to the Nation on Sunday and 
Senator Levin talked about yesterday in his meetings in New 
York, the United States is seeking a new U.N. Security Council 
resolution to build on those we already have in 1483 and 1500. 
That resolution would try to accomplish three things: First, it 
would invite the Iraqi Governing Council to submit a plan and a 
timetable for them--not anybody else, but for them--to write a 
constitution, develop political institutions, conduct free 
elections leading to the Iraqi people's resumption of 
sovereignty over their own country.
    Second, as Senator Levin mentioned, it would authorize a 
United Nations Multinational Force under a U.S. commander; and 
third, afford the United Nations a more comprehensive and 
active role in the transition back to Iraqi sovereignty.
    We are also working, as members of this committee know, for 
successful donors conferences both for Afghanistan and for 
Iraq, so that we can galvanize the financial support not just 
of other countries and other multilateral institutions, but 
also the international financial institutions.
    Mr. Chairman, in my statement I have tried to describe how 
the State Department and the Defense Department and the 
combatant commanders work together to try to develop these 
needs, and so I hope that people will take a look at that. I 
will not go through all of that, but it is a very important 
area of cooperation between the military services, the DOD, and 
the State Department.
    I would say one other thing about the work of the 
Department, that we have two other dimensions that are key and 
fully integrated with what we do with our defense and military 
colleagues. Those are to work with allies and partners to help 
them solve regional conflicts; and working with partners to 
address the internal security problems that can lead to 
terrorism and other trans-national threats.
    Mr. Chairman, in your letter you asked me to highlight what 
we were doing to get other countries to be involved in Iraq, 
Afghanistan, and Liberia. If I could, sir, ask that the charts 
that we have, which I think we distributed to each one of you, 
be part of the record. I will not go through every single one, 
but I think that they show graphically what it is that we are 
trying to accomplish with this coalition.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Forty-nine nations publicly declared their support to 
become part of the Coalition for the Immediate Disarmament of 
Iraq. Forty-five countries provided access, basing, overflight 
rights; and 24 countries contributed military assets in one 
form or another to operations in Iraq. Additional countries 
have joined the stabilization effort. As you have noted and 
Deputy Secretary Wolfowitz has noted, a total of 29 countries 
have now deployed approximately 23,000 troops for stability and 
humanitarian operations, and you can see in the next two 
columns our plans for the future.
    We followed a clear strategy and that is we have tried to 
take the needs presented to us by the combatant commanders and 
the Coalition Provisional Authority and tried to go out and get 
other countries to help us meet those needs.
    If I could do the same, sir, for Afghanistan: the 
international community is again working together in 
Afghanistan, with 70 countries joining the coalition in 
Operation Enduring Freedom. Thirty-four countries have 
contributed forces to Operation Enduring Freedom and to ISAF. 
In a milestone for NATO, NATO as an organization has recently 
taken over the lead role in ISAF after supporting NATO members 
Germany and The Netherlands in their cooperation in the force.
    Fifteen NATO countries make up ISAF, contributing some 
5,800 troops on the ground. You can see the main contributors 
to this force include Canada with 900 soldiers, France with 
500, and the United Kingdom (U.K.) with 400 soldiers. So I 
think this idea that we are working with other countries is 
also extremely important.
    Finally, a slide on countries contributing troops in 
Afghanistan. You will see the total down at the far right, 
5,830. That has been a very important job that the Department 
has done, I believe, in support of our military operations.
    In my statement, Mr. Chairman, I have talked about the 
importance of the Afghan National Army, the importance of 
provisional reconstruction teams, where our officers and 
military officers work together in Afghanistan, and we are 
proud of that and that is part of my written statement as well.
    Mr. Chairman, you had the very important visit to Liberia 
and I know you also visited our embassy there and our people 
there. They were very pleased and proud that you had a chance 
to visit them as well. They also are doing an important job in 
Liberia.
    Chairman Warner. Could I just interrupt and say that yes, I 
did have that privilege. Ambassador Blaney told me a very 
interesting story. He said in the height of the struggle he had 
his simple Marine detachment, 8 or 10, himself, and maybe 1 or 
2 others, and the embassy was being bombarded, the embassy was 
being riddled with bullets. Today the Ambassador lives in one 
room on the third floor with a bathroom adjoining, and that is 
all, his office and everything else, and there are .50 caliber 
machine guns hanging out of the windows protecting the embassy.
    This is a great credit to the foreign service. The 
President sent him a message: You can bring down the flag; it 
is your call. He decided, together with his Marine contingent, 
to let the flag stay. As a result and with the intervention of 
our forces, the main threats have been quelled and we see the 
Economic Community of West African States (ECOWAS), the ECOWAS 
Military Mission in Liberia (ECOMIL), and eventually the United 
Nations bringing about stability in that region.
    Thank you for mentioning Ambassador Blaney. Great credit is 
owed to him and his team.
    Secretary Grossman. Thank you very much, Mr. Chairman, and 
of course they will be very happy to hear that. Of course you 
said that not only here, but also when you were there.
    I think it also goes to the point that Deputy Secretary 
Wolfowitz made and that the President has made so well, which 
is that if we are to win this global war on terrorism it is 
going to take all of the aspects of our Nation's power--
diplomatic power, intelligence power, military power--working 
together.
    Mr. Chairman, you have essentially taken my section on 
Liberia. We are working very hard to support the West African 
peacekeeping troops there. On August 1, the U.N. Security 
Council passed Resolution 1497. The West Africans have, as you 
have seen, stepped up to this challenge and, led by Nigeria, 
over 3,000 troops from Ghana, Mali, Senegal, Togo, Gambia, 
Guinea-Bissau and Benin are deploying to the region with U.S. 
assistance and will likely be submitted--subsumed, I am sorry, 
into the U.N. mission.
    We are looking to try to get that U.N. mission up and 
running by the 1st of October. To date, Mr. Chairman, we have 
committed over $15 million to this effort and we are in the 
process of identifying additional resources to ensure that the 
ECOWAS force is able to fulfill its mission until the U.N. 
Peacekeeping Operation (UNPKO) is in place.
    Chairman Warner. That is needed and it is needed urgently. 
I think the correct decision was made by our administration to 
help the Africans solve their own problem.
    Secretary Grossman. Thank you, sir.
    I will let General Myers talk a little bit about Bosnia and 
Kosovo, as you have, but it is very important that we went 
there and did a job. Our troops are reducing in number, but we 
still have important work there to do.
    One final point about resources, and I join Deputy 
Secretary Wolfowitz in asking for your early and positive 
consideration of the President's request when it comes 
formally. I would also welcome your support for the State 
Department foreign operations budget request, which has passed 
the House and is awaiting floor action in the Senate.
    Mr. Chairman, I can only conclude, as Deputy Secretary 
Wolfowitz did, that the world is a dangerous place. The 
President made it clear that all of us will do what it takes to 
make it safer and better by working to be rid of terrorists and 
tyrants who threaten the United States, their neighbors, and 
their own people. By fostering democracy and the rule of law, 
building coalitions with allies and friends, and pursuing 
regional stability and funding military aid programs and 
training, we are actively pursuing the President's national 
security strategy and, together with our colleagues at the 
Department of Defense and the Joint Chiefs of Staff, we are 
committed to these goals and will continue to work unceasingly 
to attain them.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Secretary Grossman follows:]

                Prepared Statement by Hon. Marc Grossman

    Mr. Chairman and other members of the committee, thank you for your 
invitation to appear today.
    The State Department is committed to supporting, in every way, 
America's men and women in uniform. I thank you for your support of the 
46,000 men and women of the State Department who defend our country 
every day in 258 diplomatic posts around the world.
    After the defeat of the Taliban in Afghanistan, State Department 
people volunteered to staff our reopened Embassy in Kabul, where they 
endured, and still do endure, hard living conditions and danger.
    Thirty-three State employees joined General Garner in Iraq in 
April. Forty-seven of my colleagues are there now with Ambassador 
Bremer, and 22 more are scheduled to go out in the next few weeks. 
Altogether, 282 have volunteered to go since July. That so many people 
have gone or volunteered to go to Iraq is a tribute to the 
professionalism and patriotism of State Department employees, civil, 
and foreign service.

                             * * * * * * *

    Last September, the President signed the National Security Strategy 
of the United States. This document is the basis for the conduct of 
U.S. foreign policy as well as military policy. It says that the 
primary aim of America's security strategy is to make the world not 
just safer, but better.
    In order to bring about political and economic freedom, peaceful 
relations with other states, and respect for human dignity, the 
President has designated a number of tasks.
    As Secretary Powell highlighted in his speech at George Washington 
University last Friday, these include strengthening alliances to defeat 
global terrorism, building cooperative partnerships with the other 
major powers, including Europe, Japan, Russia, China, and India, 
working with other nations to defuse regional conflicts, and preventing 
our enemies from threatening us, our allies, and our friends, with 
weapons of mass destruction.
    America is not alone in its desire for a better and safer world, 
and so at the President's direction we seek partners and allies because 
it enables us to better achieve our national objectives.
    You asked in your letter about cooperation with individual 
countries, with NATO, the U.N. and other multinational organizations.
    All NATO countries contribute to the global war against terrorism. 
Indeed, Afghanistan represents an historic first out-of-area operation 
for the Alliance as a whole.
    We work with the United Nations on Iraq. The U.N. has a vital role 
to play in the reconstruction of that country, and the criminal bombing 
of the U.N. headquarters in Baghdad only further shows the importance 
of galvanizing international support for Iraq's reconstruction.
    As the President announced to the Nation Sunday, we seek a new U.N. 
Security Council (UNSC) resolution on Iraq to build on UNSC resolutions 
1441, 1483, and 1500.
    This resolution should:
    1) invite the Iraqi Governing Council to submit a plan and a 
timetable for them to write a constitution, develop political 
institutions, and conduct free elections, leading to the Iraqi peoples' 
resumption of sovereignty over their own country.
    2) authorize a United Nations multinational force under a U.S. 
commander.
    3) afford the United Nations a more comprehensive and active role 
in the transition back to Iraqi sovereignty.
    We are also working with friends and partners around the world for 
a successful Iraq donors' conference in Madrid in October. This 
conference should further mobilize international efforts to help the 
Iraqi people reconstruct their country and rebuild their lives.
    In addition to using structures like NATO and the U.N., we have 
reached out to our friends and allies, including many new partners, in 
order to attain the goals that are crucial to our national security and 
that of other nations in the world.
    We are in constant coordination with the Combatant Commands to find 
out what is needed, and then we approach our friends to try to meet 
those needs.
    We have sought troop contributions and for basing and staging 
rights, material support, overflight permission, and refueling.
    The task of working with foreign governments intensifies with the 
termination of major combat, as both Afghanistan and Iraq have shown. 
In both these places we continue to call on our friends and allies to 
support stabilization and reconstruction. Many countries which were not 
in a position to offer combat troops have offered humanitarian and 
reconstruction relief.
    As the President highlighted Sunday night, we do not underestimate 
the challenges: terrorists and Saddam loyalists have done great harm in 
Iraq; in Afghanistan, al Qaeda and Taliban fighters seek to regroup and 
have attacked Coalition and Allied Forces and NGO workers and others 
trying to stop the essential work of reconstruction.
    Our work at the State Department has two other dimensions that are 
key: we are working with allies and partners to help them to solve 
regional conflicts; and working with partners to address the internal 
security problems that can lead to terrorism and other transnational 
threats.

                             * * * * * * *

    As you requested in your letter, I would like now to highlight some 
of the activities that I have just mentioned, in particular, Iraq, 
Afghanistan, and Liberia.
    Iraq: Forty-nine nations publicly declared their support for our 
policy by joining the Coalition for the Immediate Disarmament of Iraq. 
A number of other countries quietly cooperated with and supported the 
military operation in various ways. In total, there were 45 countries 
that provided access, basing, and/or over-flight rights, and 24 
countries that contributed military assets in one form or another for 
operations in Iraq.
    Additional countries have joined the stabilization effort. A total 
of 29 countries have now deployed approximately 23,000 troops for 
stability and humanitarian operations in Iraq; three more countries are 
in the process of deploying additional troops. We are in discussion 
with approximately 10 other countries concerning additional potential 
contributions.
    We have followed a clear strategy: we have taken the needs of the 
U.S. military and the Coalition Provisional Authority as we seek to 
help the Iraqi people build a democratic and secure Iraq and have then 
sought assets other countries might be able to provide to meet those 
needs. These contributions have not only been support for U.S. efforts. 
Other countries, such as Spain, Italy, and Ukraine have taken key roles 
in providing brigade headquarters in the U.K. and Polish divisions. 
Other countries have offered to take on support functions such as 
engineering that contribute to reconstruction. We continue to talk to a 
range of foreign governments about the possibilities for further 
contributions.
    Afghanistan: In the wake of September 11, the international 
community worked with us in the fight against al Qaeda and the Taliban 
regime. Over 70 countries joined our coalition and over 34 countries 
have contributed forces to Operation Enduring Freedom (OEF) and to the 
International Stabilization Force for Afghanistan. In an historic 
milestone for the North Atlantic Alliance, NATO as an organization has 
recently taken over the lead role in ISAF after supporting NATO members 
Germany and the Netherlands in their co-leadership of the force.
    Currently, 15 NATO countries make up ISAF, providing some 5,800 
troops on the ground. The main contributors to this force include 
Canada with almost 900 soldiers, France with more than 500, and the 
U.K. with approximately 400 troops.
    It is crucial for Afghanistan's long-term security and prosperity 
that Afghan citizens themselves be prepared to take responsibility for 
maintaining peace and order in their own country. This will require a 
national army that is multi-ethnic, subordinate to civil authority, 
subject to rule of law and international norms of human rights. The 
Afghan National Army (ANA) Train and Equip Program, initiated for this 
purpose, will establish a central corps of sufficient size and military 
capability (10,000+ soldiers) to provide security for the June 2004 
elections and eventually relieve the International Security and 
Assistance Force and OEF elements of security duties. With over two 
dozen countries contributing to the establishment of the ANA we have 
made significant progress toward our goal of a Central Corps by June 
2004.
    One crucial project is the establishment of Provincial 
Reconstruction Teams (PRT). The U.S. has already set up three of these, 
in Gardez, Bamiyan, and Kunduz. The U.K. has recently opened a PRT in 
Mazar-e-Sharif, and New Zealand will relieve U.S. forces in Bamiyan 
later this year. The mission of the PRTs is to provide additional 
stability to provincial areas, allowing for increased reconstruction 
and assisting the expansion of central authority and linkage to local 
governments. Each team includes State Department and Agency for 
International Development (AID) officers working side by side with 
military personnel.
    Against these efforts we face al Qaeda and Taliban fighters 
determined to regroup and to attack Coalition and Allied Forces, NGO 
workers and the international community. Recent attacks on the critical 
Kandahar-Kabul highway and killing of international workers show us the 
threat continues.
    Liberia: The Liberian civil war has generated unrest and misery 
throughout West Africa. Hundreds of thousands of people are displaced 
internally and in neighboring countries. Participants in the Liberian 
conflict have destabilized Liberia's neighbors, and gross violations of 
human rights have occurred. With the departure of Charles Taylor and 
the decision by the parties to sign the Accra peace agreement, there is 
an historic opportunity to restore peace to Liberia and to the region.
    On August 1, the U.N. Security Council passed Resolution 1497, 
authorizing deployment to Liberia of a Multinational Force (MNF) under 
Chapter VII of the U.N. Charter and a follow-on U.N. PKO. The West 
Africans have stepped up to the challenge, using their regional 
Economic Community of West African States, providing the MNF that will 
help restore order and separate the parties pending the arrival of U.N. 
peacekeepers. Led by Nigeria, over 3,000 troops from Ghana, Mali, 
Senegal, Togo, Gambia, Guinea-Bissau, and Benin are deploying to the 
region with U.S. assistance and will likely be subsumed into the U.N. 
mission.
    Because of this positive action by ECOWAS, and since the U.N. is 
planning to take over responsibilities from ECOWAS by October 1, there 
has been a decreased need for the U.S. to send troops. An Amphibious 
Readiness Group comprised of 3 ships and more than 4,000 service 
members is standing by off Monrovia to respond to emergencies, but our 
work has been primarily in logistics support and diplomatic 
coordination. We have assisted with the deployment and sustainment of 
the West African troops, and expect to continue to do so until the 
transition to the U.N. PKO is complete.
    To date, the U.S. has committed over $15 million for this effort. 
We are in the process of identifying additional resources to ensure the 
ECOWAS force is able to fulfill its mission until the U.N. PKO is in 
place.
    Bosnia/Kosovo: The U.S. remains committed to ensuring peace and 
stability in the Balkans and remains an active participant in the NATO-
led operations in Bosnia and Kosovo. Through intense diplomatic 
activity and coordination with our allies, we have been able 
substantially to reduce the number of U.S. troops in the region as the 
security situation in the region improves. In January 2001, the U.S. 
provided 9,600 of the roughly 56,000 troops in the Balkans. Today, the 
United States contributes 4,050 troops to those same missions--1,800 
U.S. troops in Bosnia and 2,250 U.S. troops in Kosovo. The total size 
of the forces will drop below 30,000 by the end of the year. In recent 
years, the U.S. has generally tried to keep our forces in the Balkans 
at approximately 15 percent of the overall, although, originally, we 
provided one-third of the forces in Bosnia. We continue to work within 
NATO to restructure and reduce the forces, lowering our contributions 
in line with the overall reductions of the Alliance. At present, the 
French, German, and Italian contribution to Kosovo Force (KFOR) surpass 
that of the U.S. In Bosnia, where the U.S. commands the Stabilization 
Force (SFOR), we are among the largest contributor of troops.
    There are many other areas in which we work to support the 
President's vision in the National Security Strategy--North Korea, 
Colombia, the Philippines, Georgia--I would be glad to discuss these 
with you if you wish during the hearing.
    Resources:
    As the President indicated in his recent address, $87 billion will 
be needed to accomplish administration goals in Iraq and address other 
complex contingencies. We welcome the opportunity to work with you to 
make that pledge a reality. We also welcome your support for our 
Foreign Operations budget request, which has passed the House and is 
awaiting floor action in the Senate.

                             * * * * * * *

    The world is a dangerous place. The President has made it clear 
that we will do what it takes to make it safer and better, by working 
to rid it of terrorists and tyrants who threaten the United States, 
their neighbors, and their own people. By fostering democracy and rule 
of law, by building coalitions with allies and friends, and by pursuing 
regional stability through funding military aid programs and training, 
the State Department actively pursues the President's goals of peace 
and security. Together with the Department of Defense and our military 
colleagues, we are committed to these goals and will continue to work 
unceasingly to attain them.

    Chairman Warner. Thank you, Mr. Secretary.
    General Myers.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
CHIEFS OF STAFF, ACCOMPANIED BY: MAJOR GEN. JAMES MATTIS, USMC, 
                COMMANDER, FIRST MARINE DIVISION

    General Myers. Chairman Warner and Senator Levin: Thank you 
for the opportunity to address the committee, and thank you, 
Mr. Chairman, for agreeing to put my written statement into the 
record.
    I would like to first thank you for your continuing and, 
for that matter, tremendous support of our men and women in 
uniform. It is very important given the situation that we are 
in today.
    When I came before you in July with General Pace, I made 
some points that are still true today. The first one of those 
is that we are totally committed to winning this war on 
terrorism, and the stakes could not be higher. Defeat means the 
destruction of our way of life that we forged over two and a 
quarter centuries. Victory will restore the sense of security 
that was shattered on September 11, 2001.
    I also said that I am positive we are making great progress 
in the war on terrorism in Afghanistan, in Iraq, and elsewhere 
around the world. I have visited Iraq and Afghanistan recently, 
as some of you have, and every time I talk to a commander or, 
perhaps more importantly, to the captains and the corporals, 
they were all very confident about being able to accomplish the 
mission and the task they were given and about ultimate 
victory.
    The third point I made back in July that is still true 
obviously is that our service men and women are doing a 
fantastic job. This is their moment in history to ensure that 
peace and freedom triumph over tyranny and terror.
    Let me focus briefly on some of the accomplishments of the 
last few months. The coalition division led by the Polish 
military and consisting of more than 8,000 troops from 17 
countries is now in place in Iraq and they are well under way 
in establishing their presence in that country. As Ambassador 
Grossman and Secretary Wolfowitz have said, 29 countries have 
troops deployed to Iraq. Many of them have very recently had to 
struggle for their own freedom and they all understand fully 
what is at stake.
    It is vitally important that we have a broad coalition in 
Iraq. Why? Because it is in the interest of the world community 
for Iraq, now liberated from a brutal dictatorship, to emerge 
as a legitimate member of the world community.
    Also when I last spoke to you, I mentioned the large number 
of Iraqi police that have been trained. I think in July we were 
saying 31,000. Those numbers have since grown. There are now 
more than 40,000 Iraqi police and thousands more Iraqis 
recruited for duty with the new Iraqi army, the Civil Defense 
Corps, the Facilities Protection Service, and the Iraqi Border 
Guard. So I think the total number today is over 55,000 that 
are on duty; and there are more in training. The numbers 
continue to grow and will grow.
    These numbers highlight that the Iraqi people are eager to 
play a leading role in their own peaceful future. Iraqi police, 
among others, are already making significant contributions to 
preventing attacks and some of these Iraqis have given their 
lives in the service of their new free Iraq.
    The recent acts of terrorism, such as the bombing of the 
U.N. headquarters and the mosque in al-Najaf, show a couple of 
things: first, that Iraq is still a dangerous place. They also 
show the desperation of the adversaries that we face. We are 
actively engaged in rooting out this threat, with more and more 
Iraqis coming forward with information and a willingness to 
help us.
    I am equally positive about our progress in Afghanistan.
    Remnants of the Taliban have made desperate attempts to 
regain control over sections of the country, but continued 
pressure from the coalition operations is thwarting their 
efforts. I believe that we are fully capable of meeting today's 
commitments while preparing for future threats. We are working 
hard to improve our warfighting capability, including focusing 
on transformation initiatives, reevaluating, as Secretary 
Wolfowitz said, the mix of capabilities that we have in our 
Active and our Reserve Forces, refining our deployment and 
mobilization processes, and many more activities.
    Before I close, I would like to reiterate the importance, 
as Ambassador Grossman said, of the cooperative effort in this 
war on terrorism. General Abizaid and General Sanchez have said 
recently that the forces we are fighting in Iraq could not 
defeat a single company of our infantry. I believe they are 
right. But this is not just a military fight alone. It requires 
close cooperation between the Department of Defense and other 
government agencies, between U.S. departments and agencies, and 
those agencies of our allies and our friends, between the 
coalition that is in Iraq right now, and the people of Iraq and 
Afghanistan, who want to be free of violence and repression.
    I think we need to take a moment and pause and just think 
about what this is all about. We are a Nation at war. We have 
been a Nation at war for almost 2 years. The stakes could not 
be higher. Certainly in my 38 years of service the stakes have 
never been higher. You may have to go back to the Civil War to 
find a time when the values that we hold dear have been 
threatened like they have been threatened today. Osama bin 
Laden said some years ago that what he wanted to do was reduce 
the United States to a former shadow of itself, and by 
implication the rest of the free world.
    So what is it going to take to win this war? It is going to 
take patience. Every time I have come in front of this 
committee, every time anybody senior in this administration has 
talked about it, we have talked about the patience required. 
Why? It is a different enemy. It is a difficult enemy. It is 
not just military might, as we just talked about. It is hard 
work. It is hard slogging. We have made tremendous progress and 
we are winning.
    To continue to win, in my mind we need three things. First 
is patience. The second is commitment. I can speak for the 
Armed Forces, I cannot speak for others. I have tremendous 
admiration for the foreign service and other government 
agencies that have been alongside us in this from the start. 
But I can tell you about our Armed Forces. We have never been 
more focused or more committed to winning this war. Failure is 
not an option. We have to win.
    Other countries understand that. I just hosted my 
counterpart from Macedonia last week. Here is a country that a 
year ago, 2 years ago for sure, you could say was on the brink 
of chaos and of failure of their political system. But they 
have come out of that. They also understand the value of 
freedom, and that is why they have troops in Afghanistan and 
why they have troops in Iraq.
    Are they a lot of troops? No. In Iraq they have I think 28 
individuals, special forces. But they are not a large country 
and they are not a large armed force, and they have an internal 
problem they are trying to work. But they understand the value 
of freedom and they are with us. As Secretary Grossman showed 
you on his charts over there, there are many others that are 
with us as well.
    Besides patience and commitment, the third and most 
important point is we have to have the will to win. This is a 
battle of wills. Boil it down to what it essentially is, it is 
a battle of wills. The terrorists think and have said they are 
going to win. They are absolutely wrong about that. They will 
not win. They cannot win. We cannot and will not let them win. 
They are not going to win as long as we have the continuing 
will of the American people and, for that matter, freedom-
loving people everywhere.
    If you need inspiration for patience and for commitment and 
for will, you can look many places. But, being a military 
person, I can tell you you need look no further than the men 
and women of our Armed Forces. In the last 2 years they have 
made tremendous sacrifices--personal sacrifices, family 
sacrifices, employer sacrifices for those Reserve component 
individuals that have been called to duty.
    One final thought. Those that have been killed in action, 
wounded in action, and their families have sacrificed, of 
course, more than all the rest, and they are truly America's 
heroes. They have to be considered America's heroes because 
they understand what this is all about. They have been out 
there and they have sacrificed.
    Some of you I know have visited wounded servicemen around 
the country. You have seen them up here at Walter Reed and 
Bethesda Medical Center, and you know the inspiration we gain 
from them and their devotion to duty and their understanding of 
the mission. They have it and they understand.
    So with that, I thank you for the opportunity to be here 
today. We thank you for the support we have gotten from 
Congress. All this would not have been possible if we had not 
had your support, and we look forward to your questions.
    [The prepared statement of General Myers follows:]
           Prepared Statement by Gen. Richard B. Myers, USAF
    It is an honor to report to this committee on the state of our 
Armed Forces, our current military commitments, and ongoing operations 
around the world, as our Nation enters its third year of the war on 
terrorism.
    I would like to start by thanking you for your great support of our 
men and women in uniform. What they are doing is vitally important. The 
stakes could not be higher: defeat means the destruction of the way of 
life Americans have enjoyed over two and a quarter centuries; and 
victory will restore the sense of security that was shattered on 11 
September 2001.
    We are winning the war on terrorism, but it will be a long fight, 
and requires our patience, our full commitment, and most importantly 
our will to win. Every day, U.S. service men and women, along with 
other U.S. agencies and our Coalition Partners, are making great 
progress disrupting terror networks, eliminating safe havens, seizing 
financial assets, and hunting down terrorists worldwide.
    I have visited our troops in Iraq, Afghanistan, and elsewhere in 
the region, as have many Members of Congress. I am convinced that our 
service men and women's sense of purpose is clear, their resolve is 
steadfast, and their morale is excellent. They have shown their 
commitment and will to win. We should all be very proud of their 
bravery and dedication to duty.

                            WAR ON TERRORISM

    Here at home, our service men and women are also working hard to 
protect our own shores from future attacks. Two weeks ago, I had the 
opportunity to observe a bio-terrorism consequence management exercise, 
Operation Determined Promise 03, in Clark County, Nevada. U.S. military 
Active, Reserve, and Guard Forces along with U.S. Federal, State, and 
local officials did a magnificent job coordinating efforts to respond 
to a simulated terrorist attack.
    We must be able to provide adequate defense within our own borders, 
and standing up U.S. Northern Command last year fully integrated our 
Armed Forces into the homeland defense role. However, when possible, 
the better military option is to take the fight to the enemy.
Afghanistan
    In Afghanistan, we currently have nearly 10,000 U.S. troops and 
8,000 Coalition Forces conducting security and stability operations in 
Afghanistan. Together with our Coalition Partners, we are training the 
Afghan National Army (ANA) and police in Kabul and the provinces, 
contributing to election preparations, building schools and clinics, 
and providing a secure environment to support the emerging private 
sector.
    Most of Afghanistan is stable and secure, but pockets of resistance 
still remain, mostly in the South and East. The threat is primarily 
from the Taliban, in loose coordination with al Qaeda and Hezb-e Islami 
Gulbuddin. The ANA is key to increasing stability and security in 
Afghanistan. ANA training is going very well. Ten battalions totaling 
4,600 soldiers have been trained so far. The ANA is already patrolling 
the borders side by side with U.S., Afghani Militia, and Coalition 
Forces. Last week they were part of the forces that fought and 
successfully defeated a large number of Taliban forces.
    We are in the process of expanding the number of Provincial 
Reconstruction Teams (PRTs) in Afghanistan from four to eight, to 
provide coverage for more of the country. PRTs are improving roads, 
bridges, wells, clinics, and schools, and having a very positive effect 
on the lives of Afghani citizens in the outlying regions of 
Afghanistan. I believe that with the Coalition's support, Afghanistan 
is on a steady road to peace, stability, and prosperity.
Iraq
    In Iraq today, we have approximately 129,000 U.S. Forces and more 
than 22,000 Coalition Forces. Over 40 nations are providing various 
levels of support to the coalition in Iraq, and 29 of those are 
providing military forces. The goal in Iraq is to restore freedom, 
peace, and prosperity to the Iraqi people through the combined efforts 
of the U.S. Government, the Iraqi Governing Council, and the 
international community. The CPA has developed a four-pronged 
reconstruction strategy for Iraq consisting of increasing security, 
restoring essential services, creating economic growth, and helping 
establish a democratically elected government.
    The threat in Iraq is from former regime loyalists and Ba'athists 
as well as foreign jihadists and other terrorist groups. U.S. and 
Coalition Military Forces are on the offensive against these threats. 
Every day, more Iraqi citizens are reporting suspected regime 
loyalists, and the locations of arms caches to Coalition Forces. To 
date, 42 of the 55 ``most wanted'' and approximately 100 of the top 235 
wanted Iraqis have been captured or killed, and we are making good 
progress eliminating other terrorist elements. Terrorists are 
continuing to target humanitarian facilities, police stations, and 
other civilian targets such as oil, water, and electric infrastructure, 
slowing our efforts to repair damage caused by the war and by the 
neglect of the former regime.
    In spite of these attacks, we are making progress restoring 
essential services in Iraq. U.S. Central Command (CENTCOM) and the CPA 
are working with leading industry, agency, and international experts to 
assess and fix the short- and long-term requirements for Iraqi 
essential services.
    There has been discussion about the need for additional troops in 
Iraq. I fully support CENTCOM's assessment that the answer is not more 
U.S. Forces in Iraq, but more focused intelligence, assigning more 
Iraqis to critical, more visible security roles, and getting the 
international community more involved--and CENTCOM is doing just that.
    To improve security conditions in Iraq, we are training the Iraqi 
police force, a Civil Defense Corps, a National Defense Force, a 
Facilities Protective Service, and a Border Guard Service. There are 
currently over 50,000 trained Iraqis under arms working side-by-side 
with U.S. and Coalition Forces, and more coming onboard every day. As 
in Afghanistan, this will improve security in Iraq by allowing Iraqis 
to protect their own country. Working closely with U.S. Forces, Iraqi 
police are making significant contributions to preventing attacks, and 
some of these Iraqis have given their lives in the service of the new 
Iraq.

                      WEAPONS OF MASS DESTRUCTION

    The Iraqi Survey Group (ISG) continues to make progress in 
collecting new information on Iraq's WMD programs. Today, over 1,300 
personnel are actively engaged supporting the ISG's strategy pursuing 
individuals with knowledge of Iraq's WMD programs and exploiting 
selected facilities. As Iraqis become more convinced that the former 
regime will never return, and more certain of the world's commitment to 
the reconstruction of Iraq, it is only a matter of time before we 
locate the remnants of all of Saddam's weapons programs.

                                 KOREA

    We currently have over 37,000 personnel assigned to South Korea. 
North Korea's weapons of mass destruction, missile programs, and 
weapons proliferation constitute a substantial threat to the peace and 
security of the peninsula, the region, and the world. While a 
diplomatic solution to the North Korean threat is preferable, our 
military forces remain ready for any contingency if called upon.

                        OTHER GLOBAL OPERATIONS

    In pursuing our global efforts against those who pose a continuing 
and imminent threat to the United States and our allies, we continue to 
work closely with many other governments. Approximately 4,500 U.S. 
personnel under command of Joint Task Force-Liberia (JTF-Liberia) are 
deployed to the West African region to assist the ECOWAS Mission in 
Liberia. We are helping ECOMIL forces stabilize the environment, 
allowing humanitarian assistance for the people of Liberia and 
facilitating the transition to an U.N.-led peacekeeping operation, 
currently scheduled for 1 October 2003. JTF-Liberia consists of the IWO 
JIMA Amphibious Ready Group, the 26th Marine Expeditionary Unit, the 
398th Air Expeditionary Group, and other supporting elements.
    We have made good progress in the Philippines, where we have 
approximately 250 personnel working closely with the Armed Forces of 
the Philippines to enhance their counter-terrorist capabilities.
    The nearly 1,500 U.S. Forces in Bosnia-Herzegovina supporting 
Operation Joint Forge, and the 2,000 Forces in Kosovo supporting 
Operation Joint Guardian, not only promote peace and stability in the 
region, but also enhance our ability to conduct counterterrorism 
operations in the Balkans.
    U.S. Southern Command has over 2,000 personnel deployed to 
Guantanamo Bay, Cuba, and over 2,400 personnel deployed throughout 
Central and South America conducting counter-narcotics and 
counterterrorism operations. The U.S. has a strong national security 
interest in a secure, democratic, and economically viable Western 
Hemisphere.
    Helping the Colombian Government become free from the grip of 
terrorist and narcotics trafficking groups is critical to securing the 
stability of the entire region. After my recent trip to South America, 
I believe that we are helping the Colombians achieve some real 
successes. The U.S. military's training and equipping of the Colombian 
Military is significantly contributing to their efforts to defeat 
terrorism and narcotics trafficking.
    U.S. Forces are engaged throughout the world conducting bilateral 
and multilateral exercises with many countries to foster military to 
military relations that enhance U.S. national security objectives.

                  IMPACT OF U.S. MILITARY COMMITMENTS

    We are a Nation at war. Our military forces are actively engaged to 
meet our national security interests by combating terrorism, providing 
peace and stability in many troubled regions around the world, and 
conducting military exercises with many different countries. U.S. 
military ground forces are currently experiencing a high tempo of 
operations. Selected high demand units resident in both the Active and 
Reserve Force are also heavily committed.
    We must reexamine which military capabilities best reside with our 
Reserve and Guard components and which belong in the Active-Duty Force. 
Our goal is to minimize future demands on high demand units in the 
Reserve Force, such as civil-support teams, military police, and 
intelligence teams. We also need to ensure we have enough of a given 
specialty, regardless of whether it is in the active or Reserve 
component.
    We are also reviewing our overseas basing requirements to ensure 
that they meet the needs of today's worldwide commitments, support the 
war on terror, and posture U.S. Forces to meet any future threats to 
our national security. For the most part, our current overseas presence 
and basing is representative of a Cold War strategy that evolved over 
the course of 50 years. In places like South Korea, the aging and 
failing infrastructure exacts a greater toll on readiness and quality 
of life of our forces each year. In other regions such as Europe, our 
broad array of installations may no longer provide us the flexibility 
it once did. Focused investments in military construction are needed 
now to overcome these challenges and enhance our overseas posture in 
meeting future military commitments.
    Maintaining a high level of readiness for our forces, along with a 
decent quality of life, is key to meeting future threats to our 
national security. Predictability in the lives of our active and 
Reserve service men and women and their families is an essential 
quality of life issue we are addressing. To improve predictability, an 
Operation Iraqi Freedom force rotation policy was developed and 
communicated to the force. Competitive pay and benefits programs are 
also important to maintaining a high quality of life for our troops.
    One of the reasons for our many successes to date in the war on 
terrorism is the unprecedented level of cooperation between our joint 
military forces and other Federal agencies. Another reason for our 
success is the continued support of our many allies--more then 70 
countries since 11 September 2001. In order to maintain our momentum 
and defeat future threats, we must continue to improve on this level of 
cooperation.
    Most importantly, our military success in the global war on 
terrorism depends on our service men and women. They bravely fight to 
protect our freedoms. I want to thank this committee for your continued 
strong support providing our Nation's best with the resources and 
benefits they need and deserve. Our collective will, commitment, and 
patience will defeat global terrorism and ensure our ultimate victory.

    Chairman Warner. General, that message is not just for the 
Senate or the American people. It goes worldwide. Your troops, 
wherever they are, under your command and your subordinate 
commanders, whether it is Iraq, Afghanistan, Liberia, or the 
Far East, they are very proud of the leadership that you 
display today and have displayed. Thank you.
    General Myers. Thank you, Mr. Chairman.
    Chairman Warner. I will be very brief, colleagues, in three 
quick questions, because you have been generous in your time 
for me. Then each Senator will proceed for about 7\1/2\ 
minutes.
    First I want to reflect on this issue of the United 
Nations. I personally support it, even though I do not fully 
understand precisely what is expected and what can be achieved. 
Secretary Grossman, these charts are impressive. There is a 
factual record of participation in Iraq and Afghanistan. Can 
you tell us what you, as a professional of long standing in 
this Department, would hope that the U.N. can bring which is 
not presently being done. Please dwell on the issue which 
concerns me, that is, while we would welcome enlarged U.N. 
participation, we cannot afford to lose the momentum that 
Ambassador Bremer and others now have under way, whether it is 
in dealing with electricity or water or the like. In my 
opinion, there is a direct correlation to that and the 
casualties we are taking and the attitude of the people.
    So what is it that you would hope, in a very short 
response, that the U.N. will bring which is not present today?
    Secretary Grossman. Yes, sir, thank you very much. I will 
answer your question three ways. First, if we are successful in 
getting a U.N. Security Council resolution along the lines that 
we have proposed, I think three things will happen: first, that 
there are countries, for their constitutional reasons, for 
their legal reasons, for other reasons, that do not wish yet to 
send troops to help the Coalition effort in Iraq, and if we get 
a resolution that authorizes a multinational force under 
unified command more countries--perhaps Turkey, India, and 
Pakistan--will feel that they can send their troops in a way 
that they cannot today.
    Second, Mr. Chairman, the United Nations brings to the 
political effort skills that we would like to have as part of 
the effort. The President talked about a vital role for the 
United Nations, and of course the great U.N. Special 
Representative Serge DiMello died in a building trying to bring 
that vital effort to life. So the United Nations can help us in 
elections, in helping constitution writing, in bringing a 
census, for example. All of those things are in the resolution, 
listed as the kinds of things that could help us and help the 
Coalition in Iraq.
    I want to be clear, to your last point, that the resolution 
specifically talks about the United Nations working with 
Ambassador Bremer and with the Coalition. We think actually 
that if a resolution was to pass quickly and more troops were 
to come in a focused U.N. effort, that we would actually 
increase momentum rather than decrease it.
    Finally, one more point, and that is the philosophy here. 
This U.N. resolution is not about transferring authority from 
the United States to the United Nations. It is about getting as 
much authority as possible, as quickly as possible, to the 
Iraqi people. I think as we go through the debate over the next 
week or so on this resolution that is an important point to 
keep in mind, sir.
    Chairman Warner. Do you wish to add to that, Secretary 
Wolfowitz? What is it that the U.N. will bring that we do not 
presently have? He has said that the resolution could give 
various nations the basis on which to bring troops and I hope 
contribute financially to this. Do you have a supplementary 
comment?
    Secretary Wolfowitz. Absolutely all three of those things: 
help on the troops front, help on the political front, and help 
on the economic front. I think it is important to stress that, 
with respect particularly to the political front, that we got 
enormous help from the U.N. and by Sergio DiMello personally. 
It is not only a tragedy, it is an enormous loss to our efforts 
in Iraq that he was killed. He played a crucial role with 
Ambassador Bremer in standing up the Iraqi Governing Council, 
and it was not just advice and counsel, it was active work.
    We have no desire to own this problem or to control it. Our 
only desire is what will get things fixed most rapidly, and you 
have to look at these pragmatically case by case. More 
resources are great, but too many hands on the steering wheel, 
especially in the military area, is not great. But I think we 
have reached a very good understanding with the Secretary 
General.
    Chairman Warner. You are prepared to make a sharing of the 
responsibility and the authority and the direction on that 
side; do I understand that?
    Secretary Wolfowitz. It is completely pragmatic and 
whatever works best, we will do.
    Chairman Warner. Fine.
    Now, General, we talk about the unified command. A few days 
ago when Secretary Wolfowitz and General Abizaid were here that 
question was put to General Abizaid and he specifically said 
that he felt U.N. officers could be integrated. Although there 
is a unified command, they could be integrated into the 
framework in some manner.
    Can you expand on what the U.N. can bring to the current 
command and control to maintain a unified command, but at the 
same time they feel they have a share of the responsibility, 
the accountability, and the direction?
    General Myers. Certainly, Chairman Warner. We have looked 
at this many different ways. First, let me just say that it 
will not be a problem to maintain this unified command. As I 
think was said earlier, generally under U.N. operations the 
countries with the preponderance of force have the leadership 
roles, and that will continue to be the United States, at least 
for the foreseeable future.
    But in our Combined Joint Task Force 7 in Baghdad that some 
of you have seen with General Sanchez, he has a headquarters 
now that is populated with people from the U.K. and those 
countries that make up the U.K. division, and people from 
Poland and those countries that make up the Polish division. If 
there were other divisions that came in with the help of this 
resolution, the U.N. resolution, those countries would also 
have roles on that joint task force, where they participate 
then with General Sanchez and General Abizaid, for that matter, 
in their support of the Coalition Provisional Authority. This 
really should not be an issue.
    Chairman Warner. Fine, thank you.
    General Mattis, I wonder if I might invite you to come up 
for purposes of questioning. We thank you for your service and 
your leadership in Iraq. Those of us that visited had the 
opportunity to be briefed by you right on the field where your 
troops are operating.
    It was in that very spot, that very seat, that the former 
Chief of Staff of the Army was asked a question by this 
committee about troop levels. His response provoked a good deal 
of controversy. That controversy is legitimate. It continues to 
this day. It is a question that has to be reviewed from time to 
time by this committee.
    I think you are in a position to give first-hand 
impressions and your own personal, professional, and military 
opinion about force levels now in Iraq and what you as a former 
commander think about the force level and what is needed for 
the future?
    General Mattis. Mr. Chairman, I speak as a division 
commander in the south central area and I would prefer to speak 
just in that area because I am not really familiar with some of 
the other areas. But it was my decision and my decision alone 
to send home 15,000 of my 23,000 troops back at the end of May. 
We had come out of Baghdad. I did not think I needed a heavy 
footprint down south after sizing up the situation.
    I have had 3 months to live with that decision and I think 
if at any point I needed more troops I could have asked for 
them. But I have not needed them. The enemy over there, once we 
get the intelligence on them, and 95 percent of that comes from 
the Iraqi people to us, once we get it they are remarkably easy 
to destroy. It is mostly a fight for intelligence. They are a 
dangerous enemy, but it is nothing that a Marine platoon cannot 
handle.
    So to bring in more troops and have a more oppressive 
footprint, the number of supply convoys it would have added--my 
way of thinking was if we needed more people on our side we 
could enlist more Iraqis, and we continued to do that all the 
way through. With 95 percent of our intelligence coming from 
them, sir, it has worked pretty well.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Secretary Grossman, you have outlined some of the 
advantages of going back to the U.N., getting a key additional 
mandate from the U.N., and I surely agree with what you have 
indicated. We have known for months that a number of countries, 
such as Pakistan, Turkey, and India, would not consider sending 
troops unless they had a clear U.N. mandate urging them to do 
so.
    Why have we delayed for months going to the U.N.? During 
this period we have seen a huge amount of violence. We have 
seen the jihadists pour into Iraq, responding to an argument 
that this is some kind of a western effort to dominate a Muslim 
country. The way to give the lie to that propaganda is for the 
U.N. to give the mandate which we are now apparently seeking, 
very belatedly, tragically belatedly.
    But why the delay here? Why not months ago respond to the 
statements of those countries, such as Pakistan and Turkey and 
India, who could give us large numbers of troops relatively, 
that they need that new U.N. mandate?
    Secretary Grossman. Senator Levin, I would say a couple of 
things. First, I do not think we ought to underestimate the 
achievement of 23,000 troops from 29 other countries. Although 
I think all of us would have liked to have had more troops 
earlier from a Pakistan, from a Turkey, from an India, I think 
we have done extremely well in getting the 29 nations and the 
23,000 troops that we have.
    The second point, as this committee knows, there is always 
a disagreement about what constitutes a mandate. If you had 
asked me the day after the Security Council passed Resolution 
1483, I would have said and I believe that Resolution 1483 is a 
sufficient mandate for countries to participate.
    Senator Levin. But key countries told us it was not a 
sufficient mandate.
    Secretary Grossman. I understand, sir. But I am just 
giving--you asked me my perspective and that is that 1483 was a 
sufficient mandate. It turned out not to be true for a number 
of countries and so the President gave the Secretary the 
opportunity, with the full support of our colleagues, to go 
forward and get another Security Council resolution, and that 
is exactly what we are trying to do.
    Senator Levin. Thank you.
    General Myers, could you tell us about what we now have 
read, that the Guard and Reserve units serving in Iraq are 
going to have their tours on active duty extended so that they 
will serve a full year in Iraq, which is on top of the time 
required for mobilization and training and demobilization? This 
comes as a real disappointment, I know, to them, their 
families, and their employers, who were told that the total 
activation would be a year on active duty.
    What is going on in this area?
    General Myers. Senator, as we have talked about before, in 
terms of the United States Army, a lot of their support, a lot 
of the combat support, combat service support, well over the 
majority of it, is in the Reserve component. As long as we have 
the active duty Army engaged as we do around the world and, to 
address your question particularly, in Iraq, then the Reserves 
are going to have to play a role.
    It is a fact of life that we need the combat support, 
combat service support that these Reserve components provide. 
We are looking for work-arounds to do exactly as you said and I 
think as all the Joint Chiefs and the leadership in the 
Department believe, and that is we have to put predictability 
in the lives of our Reserve component and, for that matter, 
active component.
    But we also have to realize we are a Nation at war and we 
have to do what it takes in this case to win. So that is what 
is happening. We need that combat support, combat service 
support to be with our Active Forces as long as they are in 
Iraq, and they will be extended to meet our policy goal of up 
to 12 months in Iraq and, given their mobilization and 
demobilization time frames on top of that, they will serve over 
1 year.
    Senator Levin. Thank you.
    Secretary Wolfowitz, we have been asked now for a 
significant commitment for reconstruction. What specific 
commitments have we asked of other nations for the 
reconstruction effort financially?
    Secretary Wolfowitz. I believe that so far we have on the 
order of--correct me--some $2 billion, I think, that has been 
pledged by a variety of countries. That is still the product of 
just an initial effort. Secretary Powell is going to be going 
to a donors conference in October--where is it, Marc?
    Secretary Grossman. Madrid.
    Secretary Wolfowitz.--in Madrid, looking for more. 
Obviously, in the context of what the President is talking 
about asking Congress for, we are going to be making a maximum 
effort to get other countries to contribute.
    You raised the issue, Senator, about, I think your phrase 
was, giving up control or giving up ownership.
    Senator Levin. I did not say ``giving up''; I said 
``sharing''.
    Secretary Wolfowitz. Fine, sharing.
    Senator Levin. A significant word.
    Secretary Wolfowitz. I think the more other countries are 
prepared to contribute, the more they are absolutely entitled 
to share in control over how resources are used. At the same 
time--we have seen this in Afghanistan, for example--if the 
system of sharing control gets too complicated, a lot of things 
that need to move quickly take too long. The road construction 
project in Afghanistan is an example.
    In Iraq today we have been wrestling with how to stand up 
the Iraqi Civil Defense Force more quickly. There are very 
legitimate concerns on the CPA side. There are obviously huge 
military equities on the CENTCOM side. Because of the way we 
are organized, we can resolve those differences and those 
issues in a quick and efficient manner and, given the stakes on 
the security side, that is the kind of sharing of control I 
think we would want to be careful about.
    But when countries are giving money they are certainly 
entitled to a say in how that money is spent.
    Senator Levin. Thank you.
    General, last week we read a report that there was an 
internal joint staff document on Operation Iraqi Freedom, 
strategic lessons learned, and it reportedly shows that 
President Bush approved the overall war strategy in August of 
last year, 8 months before the war was launched, but that 
planners were not given enough time to adequately plan phase 
four, which is the reconstruction phase.
    Will you make that document available to this committee?
    General Myers. A couple points there, Senator Levin. One is 
that the work is not finished. There were several levels of 
lessons learned that we tried to capture for this effort. The 
first one, which is scheduled to be briefed to you by Admiral 
Giambastiani I think next week, is the operational level 
lessons learned, what happened in theater from General Franks' 
level down.
    We also wanted to capture, if you will, the strategic 
lessons learned, what we learned in the Joint Staff, on the 
Office of the Secretary of Defense (OSD) staff, in our inter-
agency coordination. That work, the piece, the classified 
briefing that was leaked to one of the newspapers here in town, 
reflected work that is not yet complete. We are probably about 
halfway through that work. I am sure when we finish that work 
it will get to the Secretary of Defense and he will make that 
available to the committee.
    Senator Levin. Will it be shared with us before it gets to 
the Secretary of Defense or will it be shared with us 
afterward? Either way, will we get a copy of that document so 
that we know what the views are of the Joint Staff unvarnished 
by the civilian leadership?
    General Myers. It is not a question of unvarnished. It is a 
question of having the facts straight, and that is why this 
whole effort has been a joint, as you would imagine, inside the 
building, Department of Defense effort. It is the OSD civilian 
staff, the Joint Staff, and, for that matter, the combatant 
commands will add to this as well. For it to be useful, I 
think, you need to have everybody's perspective in there.
    By the way, and let me just tag on for a second, what a lot 
of people probably do not understand and why--and you do, I 
know; this committee does. You know why we have the finest 
Armed Forces in the world, and there are lots of reasons for 
it. One of the reasons is that we criticize ourselves harder 
than anybody else. We only have one standard in the U.S. 
military and that is perfection. Whether it is a flight 
debriefing that I used to participate in or any other 
debriefings of any exercises, the only standard we have is how 
could we have done this perfectly.
    Some of what you see reflected in these reports, of course, 
is being very critical of ourself. It does not mean we were not 
good or that we could have gotten an A on the paper, but if A-
plus was possible then we did not achieve a good paper. That is 
how we critique ourselves.
    Senator Levin. Thank you.
    Chairman Warner. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I want to say before the questioning that I believe that we 
carried out this operation for good reason, that the United 
States of America, the world, and the people of Iraq are better 
off for having been liberated, and that history will show that 
when the mass graves continue to be uncovered and the 
brutalities of the Saddam Hussein regime are more fully 
revealed, that it was a wise and humane decision on the part of 
the United States.
    However, I think it is important for us to remember my 
hero, President Reagan's, old adage: Facts are stubborn things. 
The facts as I see them, Mr. Chairman, are clearly that we 
underestimated the size of the challenge that we would face 
after the ``military operations'' were completed, the Baathist 
resistance, the former military people melting into the 
population, et cetera.
    The decay of the infrastructure is truly staggering. You 
have to see the second largest city in Iraq, which is a total 
and complete slum, to appreciate the depth and expense 
involved.
    Ambassador Bremer was correct when he said, I believe, it 
will require tens of billions of dollars. That was not 
anticipated before we went in.
    Extending the Guard and reservists, which, quoting The 
Washington Post story this morning, ``Some officials have 
expressed concern that this could break the Guard and Reserve 
system.'' That is another fact that we did not take into 
consideration.
    No one believed that we would have to go to the United 
Nations in the degree that we have today.
    Let me point out, Ambassador Grossman, that we like to have 
full facts. There are 29 nations that are contributing 23,000 
troops. There are 28 nations that are contributing 9,000 and 
one nation that is contributing 14,000. That gives a little bit 
different perspective of the 29-nation coalition.
    We have made great progress in the north and in the south, 
but there remain significant problems. The British made a tough 
decision in the last few days to increase the size of their 
commitment, not to call up Guard and Reserve, but to increase 
the size of their commitment in the same area that the General 
was talking about.
    The Marines have decided to extend their commitment in 
Najaf rather than give it to the multinational Polish division, 
which has neither the charter nor the capability to do the job 
that our marines can do.
    By the way, facts: The Pentagon had planned that there 
would be some 60,000 troops in Iraq today as a result of the 
progress that was foreseen.
    So if I may quote The Weekly Standard: ``What we are 
witnessing today is neither prudent multilateralism nor the 
normal gradual process of turning power over to Iraqis that we 
all expected to occur over time. On both the international and 
Iraqi fronts, the administration's actions are being driven by 
the realization that there are too few American troops in 
Iraq.''
    I think that that is an accurate statement. When we have to 
extend Guard and reservists on active duty, when we have to ask 
for international forces, when we have to do the things that we 
are doing, it is clear to me that we need additional troops and 
we need certain specialties--intelligence, civil affairs, 
Special Forces, marines--not just more tanks. That opinion is 
shared by a large body of opinion, not just my own.
    It has been mentioned a couple of times, Secretary 
Wolfowitz, that there may be more casualties if we send in 
additional American troops. The General just referred to supply 
convoys that would be open to attack. Is that an accurate 
depiction of what you said?
    Secretary Wolfowitz. Depending on what you send them for, I 
think that is right, Senator.
    Senator McCain. So we are going to ask for international 
troops to come in, in all due respect, General, who will also 
need supply convoys, and will tell them they will take the 
casualties, Americans will not take the casualties. I do not 
get the logic there.
    Secretary Wolfowitz. Senator, the kind of thing, if I may--
--
    Senator McCain. Go ahead, please.
    Secretary Wolfowitz. The thing I meant is, a vivid example, 
we had three Americans killed and one very badly wounded when 
someone threw a bomb or a hand grenade out of the top floor of 
a hospital they were guarding. We are training Iraqis to guard 
hospitals. We are not talking about bringing in international 
troops to do that, either. I mean, there are a lot of 
dangerous----
    Senator McCain. What are we asking the international troops 
to do?
    Secretary Wolfowitz. The truth is on the whole, with I 
would say the exceptions of the British in Basra, the 
international troops are going into areas that are relatively 
stable. The delay in Najaf is not a permanent one, or is it an 
expression of lack of confidence in the troops that are coming 
in there, which I believe are Spanish in that particular part 
of the Polish division, but rather that they are brand new 
troops and they came in in the middle of a particularly 
delicate situation, so we extended the overlap period.
    But General Mattis can speak to it better than I, but there 
is a lot of confidence that the Polish division can handle that 
region, precisely because it is not as dangerous as other parts 
of the country.
    Senator McCain. People I talk to say it is extremely 
dangerous.
    Secretary Grossman, when do you expect these international 
troops? When would you expect the first contingent of 
international troops to arrive in Iraq?
    Secretary Grossman. Senator, it depends on how quickly we 
pass this U.N. Security Council resolution, and our objective 
is to----
    Senator McCain. That is true. One month, 2 months, 6 
months, 2 years, 5 years?
    Secretary Grossman. Secretary Powell is going on Saturday 
to the meeting of the Permanent Five foreign ministers. We hope 
that that will make clear what people think about the 
resolution we have proposed. I think, as Secretary Powell has 
said over the past few days, we want to get this done some time 
before the United Nations General Assembly, which is the 23rd 
and 24th of September. So if that is done----
    Senator McCain. I would repeat: Do you have any idea as to 
when we could expect the first international troops to arrive 
in Iraq?
    Secretary Grossman. No, sir.
    Senator McCain. You have no idea. Thank you.
    Secretary Grossman. Sir, I only have no idea because it 
would depend upon the Security Council resolution. I can only 
say to you, sir, we are trying to get it passed----
    Senator McCain. So we cannot count on an immediate infusion 
of international forces into Iraq; is that correct?
    Secretary Grossman. I think what we can--I think I cannot 
tell you, of the three or four countries that are waiting for a 
Security Council resolution, precisely what day that they will 
come.
    Senator McCain. Thank you. I am not asking for precisely 
what day. I am asking a matter of--could you tell me years?
    Secretary Grossman. If the Security Council resolution 
passes, sir, in the next few weeks, I cannot imagine that it 
would be years.
    Senator McCain. That precision is not really satisfying.
    General Myers, finally, could I ask you a question.
    General Myers. Can I comment on that question?
    Senator McCain. You can in the context of the answer to 
this question. You personally traveled to Texas to lobby the 
President on the need for additional international forces in 
Iraq. According to the Post report, you did so after visiting 
Iraq and hearing directly from General Abizaid that he urgently 
needed additional military forces from other nations.
    Is not your support for the deployment of forces an 
acknowledgment we need more boots on the ground in Iraq?
    General Myers. No, Senator, it is not. I think I will stand 
by General Mattis's comments----
    Senator McCain. Let me just point out before we rely on the 
General too much, I have never heard of a commander in the 
field who requested additional help. I do not know of an 
occasion. So to put a Marine General who is in charge of a 
specific area of Iraq to discuss these issues, which are made 
by our civilian policymakers, I think is not helpful to this 
hearing.
    Go ahead.
    General Myers. Some facts. First of all, The Washington 
Post article was not factual in tone or content. I did not go 
to Crawford, Texas, to lobby the President for anything. I went 
as part of the Secretary of Defense's delegation to talk about 
a variety of national security issues. Of the 4\1/2\ hours or 4 
hours we spent with the President, that might have taken 15 
seconds to cover that piece. So the article is not correct.
    I do believe we need to internationalize the effort. It is 
extremely important to do so. Why? I stated it in my opening 
remarks: This is an international problem. International 
terrorism is an international problem, and every time an Iraqi 
turns around they just cannot see a U.S. service member, 
because they do not want foreigners in their country and 
particularly there is some allergy from time to time against 
the U.S. So we need to internationalize it.
    At the same time that we are saying we do not need more 
troops, what is happening? We have 55,000 Iraqis under arms. As 
Secretary Wolfowitz said, the largest part of this coalition 
right now besides us are the Iraqis, and more of those are 
going to come on every day. I am not going to swear to this 
number, but roughly in the summer of 2005 we will have at least 
184,000 Iraqis under arms to do this mission, 184,000.
    So that is part of the answer, and this is something the 
Iraqis have to take responsibility for themselves. We cannot do 
it for them. We could put every sailor, soldier, airman, 
marine, and coast guardsman we have in Iraq and it would not 
make this problem better. In fact, it could work just to the 
opposite. The more Americans in Iraq, the less Iraqis might 
feel prompted to come forward and furnish us that intelligence, 
which is what we need so badly to deal with the threat.
    I talk to General Abizaid daily, several times a day. He 
talks to the Secretary daily or more frequently at times. This 
is not an issue of Secretary Rumsfeld, Secretary Wolfowitz, or 
any of the leadership in the Department of Defense saying, 
General, you cannot have more troops, or any pressure in that 
way. If they want more troops, they will get more troops. We 
are a Nation at war. We have the capacity, we have the 
capability.
    I would just finally say, on the Reserve component piece, 
if we are a Nation at war, if the stakes are very high, then we 
are doing exactly as we want to do, as we are designed. We are 
using our Reserves.
    By the way, they perform magnificently. We have to worry 
about the danger of what harm we might do long-term to our 
Reserve structure because it is absolutely essential to the way 
we do our work in this country. Having said that----
    Senator McCain. Mr. Chairman, I am very interested that the 
reason why we need international troops is because it is an 
international problem, not because we need more military 
assistance there.
    General Myers, do you intend to ask, to recommend to the 
President, that we increase the size of our military forces in 
light of having to extend Guard and Reserve personnel?
    General Myers. What we are going to recommend, Senator 
McCain, is that we look at this mix, and we are only extending 
the Reserve component because that is where the capability 
exists today. The question we are asking ourselves is--and some 
of this may be reflected in the 2005 budget you will see in 
January, do we have the right mix? We have so much of this 
capability we need today, so many of our military police, so 
many of our civil affairs. I think every battalion except one 
is in--I may have it mixed up; it may be brigades--is in the 
Reserve component. So those are the things we will take to the 
President. I think we are a ways off from saying that we need 
more troops.
    Senator McCain. Thank you.
    Mr. Chairman, my time has expired. I do agree with General 
Myers that the stakes could not be higher. My question is, if 
the stakes are as high as General Myers maintains and I am 
totally in agreement of, whether we are doing everything 
necessary.
    I thank you, Mr. Chairman. I thank the witnesses.
    Chairman Warner. Thank you very much.
    Secretary Grossman, had you finished your observation on 
this very important colloquy?
    Secretary Grossman. Concerning the timing of the United 
Nations?
    Chairman Warner. If you have, we will move on to the next 
question.
    General Myers. I was going to answer in the context and if 
I may have just 30 seconds.
    Chairman Warner. All right.
    General Myers. In the discussions that we are having--and I 
say we; it is everybody at this table, the State Department, 
DOD--with our friends and allies, decisions made to commit 
troops to Iraq will be made by sovereign nations, so you can 
never predict their processes or how quickly. But I would 
anticipate that by the end of the year we ought to have more 
contributors to this.
    Chairman Warner. Thank you.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, Mr. Chairman, and I 
would hope that General Myers and the others that represent the 
Armed Forces would again let our service men and women know how 
much we appreciate their courageous work and the skill in which 
they are trying to deal with an extremely complex situation.
    There is obvious diversity on this committee, as we just 
heard from Senator McCain. I believe this was the wrong war at 
the wrong time. It was a go-it-alone policy. We had a policy in 
order to win the war, but it is quite clear we did not have a 
policy to protect our troops after the war is over. All during 
this period of time, we have a deterioration of our situation 
in Afghanistan, we have North Korea with all of its dangers in 
terms of nuclear weapons, we have the development of Iran in 
terms of its nuclear power, we have an absolute deterioration 
in terms of the Middle East, with violence spiraling out of 
control. We are asked now to provide $87 billion more in order 
to try to deal with the problems in Iraq and also in 
Afghanistan.
    Now, General Myers, no one questions whether our troops 
possess the patience and the commitment and the will to win. We 
all assume that. The only question is whether the 
administration has a policy to stabilize Iraq. That is the 
issue. Minimizing the burden on our troops and delivering on 
the promise of democracy, that is the issue that is before the 
committee, not about the will, the patriotism, the 
determination of the troops. We know that and you know it, and 
the parents in my State know it as well, as more than seven 
young men have lost their lives. So we know about that.
    Now, in the address to the Nation on Sunday I had hoped to 
hear acknowledgment from the President about our failures in 
Iraq, the war on terrorism, and the administration's concrete 
plans for setting the course right with our allies and through 
the United Nations. The administration has made a U-turn in its 
policy, but it does not know which direction it is going in, I 
do not believe.
    The President has asked us for $87 billion next year for 
our occupation of Iraq, essentially a blank check. The American 
people deserve to know the answers to the following questions: 
As Senator McCain has pointed out, what is the number of 
additional troops needed to prevent the sabotage impeding the 
U.S. reconstruction effort? What is the estimate of the 
duration of the U.S. military occupation and the likely levels 
of U.S. and foreign troop strength that will be required in the 
occupation? What is the estimate of the total cost of the 
occupation, the reconstruction, including the likely amount of 
international contributions? What is the schedule for restoring 
electricity and water and basic services to the Iraqi people? 
What is the schedule for the deployment of the Iraqi police and 
the Iraqi armed forces, and when will we know we have 
succeeded? When will we know we have succeeded and no longer 
need to support Iraq financially and militarily? American 
families want to know that. American families want to know, 
what is the long-term schedule for the withdrawal of foreign 
and American forces? They want to know that as well.
    I believe we need to have the answers to those questions 
before we provide additional funding, at least in the areas of 
reconstruction. We are going to support the service men and 
women, but when you are asking for the tens of billions of 
dollars in reconstruction we are entitled to the answers to 
those questions.
    Now, Mr. Wolfowitz, it is clear, as I mentioned, that the 
Bush administration was not ready for what took place after the 
Iraqi regime collapsed. As I said, we won the war, which we 
knew we would, but we did not have an adequate plan to win the 
peace.
    Today we learned that before our war in Iraq even started 
intelligence experts had warned the administration to expect 
major armed resistance to our occupation. These experts in our 
government warned that the post-war period would be more 
problematic than the war itself. You and other officials in the 
administration responsible for this war were warned. Yet you 
put tens of thousands of American troops in harm's way without 
adequate planning.
    I am going to be interested in how that could have happened 
and who is accountable. But is it not unforgivable that we 
forgot the most important planning of all, the safety of our 
troops? What planning was done to provide for the safety of our 
troops, which is so inadequate at the present time?
    I am not interested in your answer about how we prepared 
for food, how we prepared for massive refugee movements. I have 
heard all of that before. But I want to know, given the warning 
that the Defense Department was given in terms of the 
protection for troops, what was the planning? How do you 
possibly explain the inadequacy of that planning, and who is 
going to pay the price for the inadequacy of that planning?
    Secretary Wolfowitz. Senator, it would take I think some 20 
sessions to brief all the plans that exist that are being 
executed today, and you are interested, I guess, in plans for 
agriculture, plans for health. Plans for security alone----
    Senator Kennedy. What about the troops? That is what I am 
most interested in.
    Secretary Wolfowitz. Let me get to that. The plans for 
security alone are absolutely crucial here, and we have gone 
from no Iraqis on our side when Baghdad fell to 55,000 out on 
the streets today, out guarding facilities, out getting wounded 
and killed, and we are growing that number rapidly.
    You say we did not plan for when the war was over. The 
problem is that the war is not over. The problem is that the 
Baathist regime----
    Senator Kennedy. You mean in spite of the President's 
statement out on that aircraft carrier, when he made his 
statement, you are saying now the war is not----
    Secretary Wolfowitz. Go back and read the statement, 
Senator; you will see----
    Senator Kennedy. I listened to it. I heard the statement. I 
saw that banner that was there.
    Secretary Wolfowitz. He said it was the end of major combat 
operations, which indeed it was.
    Senator Kennedy. Okay, now you distinguish between the end 
of major combat and the end of the war. That is very 
interesting for service men and women that are out there, very 
interesting.
    Secretary Wolfowitz. Senator, they know that they are 
fighting. They know that they are fighting terrorists and they 
know that they are fighting the Baathist allies of those 
terrorists, and they know that victory in this fight is crucial 
to winning the war on terrorism.
    Senator McCain said, and I absolutely agree with him and 
the President agrees with him, that this battle in Iraq today 
is the central battle in the war on terror. These people 
fight--as General Mattis told me earlier, during the major 
combat phase it was those fanatic Baathists and the foreign 
terrorists who were our main opposition. They are our main 
opposition today.
    But they are losing. They are on the losing end of history 
here because, unlike other wars in the past where people talk 
about resistance, this resistance does not enjoy the support of 
the Iraqi people. That is a fundamental point. They are 
universally detested in the Shia south, which represents I 
believe some 60 percent of the population. They are almost 
equally detested in the north, which is a mixture--let me 
emphasize this--of not just Turks and Kurds, but Sunni Arabs.
    The chief of police that we have found, who has done a 
fantastic job in Baghdad, is a Sunni Arab. He hates the 
Baathists. He spent a year in prison because he actually 
denounced Saddam Hussein. I asked him: Were you crazy to 
denounce Saddam Hussein? He said: I only said it to my best 
friend.
    This is a regime that terrorized everybody, and there are 
still some thousands of them, not hundreds of thousands, but 
thousands are enough to cause a problem out there, threatening 
people, killing people, warning people not to cooperate with 
us.
    But every time we get intelligence--and we are getting more 
and more intelligence--as I believe the general said, every 
time we get intelligence, all it takes is a platoon to go out 
there and clean them up. We are making real progress in that 
regard.
    Getting Uday and Qusay was not only in itself a huge step 
forward, but it has encouraged a lot of other Iraqis to come 
forward with more and better information. We are on the winning 
side here. We have--I do not know how to measure the numbers. I 
would make a guess--I better not make guesses; you will tell me 
later I guessed wrong.
    We do know that there are some thousands of Fedayeen 
Saddam. Those were the absolute killers. We do know that there 
were some thousands of the Special Security Organization. That 
is like the old Nazi version of the Gestapo. We know that there 
were some tens of thousands of members of the Special 
Republican Guards. That is again like the Nazi version of the 
SS.
    These people are killers, and apparently they have decided 
to go on killing. We will capture them and kill them. We have 
been doing it in large numbers. At the end of World War II, 
when we had had 4 years to plan for the aftermath, we found 
that we had to keep going after more and more Nazis, and by the 
end of 1945 I read there were some 80,000 under detention.
    We are not looking to have 80,000 former Baathists. We 
believe the number is smaller, and we can deal with it in a 
smaller way. But let us be clear to the American people. The 
overwhelming majority of Iraqis in the south are with us. The 
overwhelming majority of Iraqis in the north are with us. We 
believe that most of the Iraqis in the so-called Sunni 
heartland certainly do not want Saddam Hussein back and to some 
extent are being terrorized by his elements that are left over.
    So we have the winning assets on our side, and the most 
important winning assets are the Iraqi people and the 
willingness of Iraqis to go out and guard posts where it is 
dangerous and fight and die and keep that regime from coming 
back and to wipe it out.
    Senator Kennedy. Mr. Wolfowitz, my time is up, but it is 
apparent to me that we were unprepared, not only unprepared in 
Iraq, but in terms of giving the adequate protection for 
American troops.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Secretary Wolfowitz. If I can just say, we were prepared 
for many things, some of which did not happen, some of which 
did not happen because we were prepared to prevent them. There 
was an enormous amount of preparation and there is a stunning 
list of successes that our military and their civilian 
counterparts have accomplished. Let us not--confidence is part 
of winning. We need to project confidence and we have every 
reason to project confidence because we have done a fantastic 
job. We have liberated a country from a horrible dictator. We 
are cleaning up the remnants of that regime. We have the people 
with us. We will get the electricity fixed.
    General Myers. Senator, Chairman Warner, the safety of the 
troops issue, as you might imagine, is something that I think 
about and worry about quite a bit. My view is we did plan 
adequately for the safety and security of our forces, given 
that they had a lot of work to do after major combat operations 
were over. One of the biggest things you can do for troops 
engaged in this conflict is to ensure they have the proper 
rules of engagement. Now, the rules of engagement that we used 
on March 19 when we went across the line from Kuwait to Iraq 
are the same rules of engagement that they use today.
    The other things you can do to ensure their safety are 
making sure they are properly led, trained, and equipped. We 
have done our best in that area. That does not mean there are 
not shortfalls in some equipment. But I can tell you, thanks to 
you and our supplemental in 2003 and our budgets these last few 
years, there are not many and we are able to fill the holes 
very quickly when they occur.
    I think we have done the planning, Senator Kennedy, for our 
troops. I could not sit here if I did not believe we have done 
everything we can do, everything that General Franks wanted us 
to do, everything that General Abizaid wanted us to do. We have 
a very collaborative system at work where we talk very frankly, 
because we are dealing with our most precious treasure, and 
that is the blood of our sons and daughters. We do not want to 
lose one more than we have to lose.
    So I think we have considered safety.
    Senator Kennedy. My time is up, Mr. Chairman, but there 
have been statements by Secretary Wolfowitz in the past that 
said, contrary to our expectations, no Iraqi army units came 
over to our side, the Iraqi police turned out to require a 
massive overhaul, and that the plans that were based on the 
assumptions that Iraqi police and soldiers previously loyal to 
Saddam Hussein would be responsible for the safety of our 
troops. It just does not make any sense.
    Someone ought to be accountable for it. Someone ought to be 
accountable.
    Chairman Warner. Senator, we will get to that. I urge that 
we concentrate as a Nation now on reducing these casualties and 
turning this situation over to the Iraqi people. I think we are 
making progress.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me first of all respond to a couple of statements that 
have been made by two of the Senators up here. Senator Levin 
talked about how the go-it-alone chickens have come home to 
roost. The senior Senator from Massachusetts stated similarly 
that we were going it alone.
    Let me just give another perspective on that, because 
during this time I became very impatient because I felt we were 
getting beyond the point where something had to be done. I 
would suggest to all of those who might entertain the idea that 
the President was going it alone, listen to what he had said. 
On September 12 he addressed the U.N. He listed the decade of 
U.N. resolutions that Iraq had defied. He said, ``All the world 
now faces a test in the United Nations, a difficult and 
defining moment: Are Security Council resolutions to be honored 
and enforced or cast aside without consequences? Will the 
United Nations serve the purpose of its founding or will it be 
irrelevant?''
    When he said: ``The United States President offers to work 
with other nations''--he was begging them, begging these other 
nations and the United Nations--``to meet our common 
challenge.'' He said: ``The purpose of the United States should 
not be doubted. The Security Council resolutions will be 
enforced, the just demands of peace and security will be met, 
or action will be unavoidable.''
    Two months later on November 8, he again approached the 
U.N. Security Council, and they by a vote of 15 to 0 adopted a 
resolution giving him one more chance. By December 8, you have 
to do something. I was one of them who was writing the 
President, Mr. Chairman, and saying: ``You have waited too 
long; this is going to have to be done. People are being 
murdered every day, people are being raped every day, people 
are being tortured to death every day.'' Finally he had to do 
it. But he did everything within his power to get the United 
Nations to go along with him.
    First of all, let me just comment on some things that have 
not been said. You listen to the media and there are a lot of 
people in the media who do not want this to be successful. They 
would like to think the President is not doing a good job. They 
do not agree with him philosophically. They do not like anybody 
sitting at the table before us.
    So they talk about the terrorists and the killing and the 
things like that that are going on. What they fail to say is 
that great strides have been made over there since the major 
hostilities stopped. Every hospital and clinic in Baghdad is 
now open. Schools are being reopened with textbooks, school 
supplies, and eager Iraqi students, eager to learn, never 
having had the opportunity. Today there is more electricity in 
Iraq than there was before the liberation. The water systems 
are operating at 70 percent. The Iraqis are participating in 
rebuilding water canals. Baghdad has its first ever city-wide 
garbage collection.
    Now, you could argue that the condition of the 
infrastructure and the treatment of the people in Iraq is 
better today than it was before the liberation. Having said 
that, I do see some things that I think are significant. First 
of all, we need to talk about the troop morale. I say to my 
very good friend, the senior Senator from Massachusetts, if you 
are really concerned about what you brought up on troop 
security or troop protection, I suggest you make a trip to 
Iraq, which I understand he has not done and I have. You talk 
to the troops and they say the protection is good; they are 
doing everything they can.
    The troop morale is high. The message that I get from the 
troops who come up to me and seek me out is: ``Tell the people 
back home that that handful of troops that complained about the 
cause and about the President and about the treatment, that 
they are wrong, that that is just maybe 5 or 6 people out of 
140,000.'' That is the message that I get.
    General Myers, you said they have the will to win. Those 
kids have the will to win. I have never seen anything like it.
    I do have a concern, though, and it is one that I have 
voiced many times. I take your word for it if you say--and I 
think a good argument can be made, and you have made that 
argument--that we do not need more American troops on the 
ground, that our footprint is big enough, and it might have a 
detrimental effect if we have more of us and not enough of the 
other countries involved. That may be true.
    But what I want to get to is the question that was brought 
up by the Senator from Michigan, and that is the condition of 
our Guard and Reserve. I have been talking about this for a 
long time. It is true that we can maintain the current level 
and maybe not go any higher, but to do this we have to continue 
to overwork, in my opinion, the Guard and Reserve.
    I have spent a lot of time talking to them. They are 
dedicated. They are doing great work. But when this new policy 
was announced, I had an occasion to talk to a few people on the 
fact that these deployments will be 12 months and I understand 
now in addition to that there will be a training period.
    So I would like to ask each one of you in the remainder of 
the time that I have to, number one, tell me if you disagree 
with the fact that we are going to have to do something about 
Guard and Reserve in order to keep the force end strength that 
we have right now. I thought when I chaired the Readiness 
Subcommittee of this committee during the 1990s that we cut 
back too far, going from 18 down to 10 divisions, going from 38 
fighter wings to 20, going from the ships roughly at 600 to 
300. I thought that was too much.
    But I think right now we realize in order to meet the 
contingencies that might be out there that we have not met yet 
and to sustain the force that we have for a period of time, 
that we are going to have to do something to increase 
participation, to give some relief to Guard and Reserves. Now, 
I understand there are three ways of doing this that at least I 
am aware of.
    I think it was the Senator from West Virginia that ordered 
a Congressional Budget Office (CBO) study that just came into 
my possession this morning, dated September 3. One of the ideas 
was to increase the number of our divisions from 10 to 12. They 
said the size of a sustainable occupation force could be 
increased. In looking at their idea of increasing by two 
divisions, they said: ``Recruiting, training, and equipping two 
additional divisions would entail up-front costs of as much as 
$18 billion to $19 billion and would take 5 years to 
accomplish.'' So I am taking that off the table to meet the 
current serious problems.
    I see three ways that this can be done. I would like to get 
comments from you. Maybe there is a fourth way I have not 
thought of. First would be, as you pointed out, Secretary 
Wolfowitz, to train foreign troops. I understand now the Iraqi 
troops are getting up to 55,000. That is a good number and I 
appreciate hearing that.
    Secretary Wolfowitz. That includes police, just to be 
clear.
    Senator Inhofe. Yes, I understand that.
    Second would be to move some of the military functions to 
civilians. I would like to quantify how many openings that 
might create in order to allow us to give some relief to the 
Guard and Reserve.
    Then lastly, in the same CBO report that was ordered by the 
Senator from West Virginia, it said: ``CBO also examined 
several other policy choices, including ending U.S. 
participation in peacekeeping operations in Bosnia, Kosovo, and 
the Sinai Peninsula, and withdrawing marines from Okinawa.'' 
That being the case, that could open up for about 12,000 to 
13,000, approximately one more division.
    So from those three sources I would like to hear from 
anyone that would like to respond and, if not here, then do so 
for the record, what other choices there are and about how many 
troops this could release to give relief to our Guard and 
Reserve. Let us start with General Myers.
    General Myers. Senator Inhofe, the peak Reserve component 
mobilized for the operation in Iraq, the total we had mobilized 
during the operation in Iraq was 223,000 reservists. Today we 
have 173,000 reservists that are mobilized. As I have already 
said, the way it is, the facts are that we have a lot of our 
combat support, combat service support in the Reserve 
component.
    As to the CBO study, I would not quarrel with the study. I 
think the study that was done--and I am not the expert on the 
financial piece of it. But in terms of what the Army could 
sustain steady-state anywhere in the world, not necessarily 
Iraq, it is probably okay. But what you have to realize about 
the CBO study is that it was using basically the peacetime 
parameters for operations tempo and personnel tempo. I think we 
have to ask the question, given the situation we are in right 
now, are those the right parameters to use? I would say no, 
they are not, that we are a Nation at war and that we expect 
more, at least temporarily, from our Reserve components.
    Senator Inhofe. Let me just ask this to shorten this a 
little bit: Are you saying that our operations tempo for our 
Guard and Reserve is at an acceptable level today?
    General Myers. I am not saying that. What I am saying is, 
because I understand the sacrifices they are making and it is 
something that--I have a Guard and Reserve adviser at the two-
star level that reports directly to me on the Joint Staff and 
to the Joint Chiefs of Staff. My main task to them is: Tell us 
how we can put predictability in their lives and reduce the 
commitment of our Reserve component, because I think that is 
very important; and tell me if you see any signs that 
recruiting or retention of this very competent force is 
slipping in any way.
    To date, we have not seen that. But I am not comfortable in 
that because there is always tomorrow and we are going to work 
them very hard.
    Senator Inhofe. I would like to give some others an 
opportunity to respond to that. I would only say that this has 
sustained for a long period of time. I am prejudiced by the 
fact that I have talked to them, the Guard and Reserve members, 
the ones who are losing their jobs, the ones who have had more 
deployments than they can handle.
    Any other comments on this?
    Secretary Wolfowitz. I guess I would just say two things. 
One, and I would be happy to submit more detail for the record, 
but I think that it is the broader version of the examination 
of the global footprint that you mentioned. I think there is 
some great relief for the overall strain on personnel that can 
be achieved in that regard.
    Specifically with respect to your question about 
conversion, there are some 300,000-plus positions that have 
been talked about as potentially being done by civilians. The 
Services have very specifically identified 47,000. So far it 
has been approached with a peacetime mentality. I do not mean 
that critically, but just as electricity in Iraq has to be 
approached on a wartime basis, I think we need to look at the 
issue you are raising on a wartime basis.
    Senator Inhofe. I appreciate that. I know I have gone over 
my time. But if I can get responses for the record, assuming we 
keep the same footprint in Iraq, and I think you have given a 
very persuasive argument to do that, the rest of the world is 
not standing still. There are other contingencies out there 
that we would have to respond to.
    So I have always been a stickler that end strength--we may 
have enough for that particular contingency, but we need to 
expand our end strength. I would like to have your comments.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    While some Services could have temporary gaps in certain 
active component capabilities, such as force protection, civil 
affairs, and intelligence/surveillance/reconnaissance, 
additional legislated end strength increases are not needed. 
The law provides the Secretary of Defense with the authority to 
approve active end strength above the authorized levels to meet 
those requirements during a declared national emergency.
    This empowerment, however, is the least palatable of our 
alternatives. For example, we are redistributing our skill mix 
to optimize force capabilities within existing end strength. 
Over 320,000 military manpower spaces have been identified as 
performing duties in specialties or situations that can 
potentially be performed by other kinds of personnel. The 
Department expects thousands of military positions to be made 
available through these military to civilian conversions. Those 
converted positions would then be reinvested to relieve 
burdened units and specialties.
    We are also working to rebalance the active and Reserve 
components. We are taking skills that are now found almost 
exclusively in the Reserve component and moving them into the 
Active Force, so that we are not completely reliant on the 
Guard and Reserve for those needed skills. And in both the 
active and Reserve components, we are moving forces out of low 
demand specialties into high-demand capabilities.
    Further, we are transforming our global force posture, 
increasing our worldwide capabilities while significantly 
reducing the number of forces permanently assigned in foreign 
countries. This will reduce the stress on the force by reducing 
the number of troops and dependents that are constantly being 
rotated in and out of foreign bases and facilities.
    Given the flexibilities the law accords to the Secretary, 
currently authorized end strengths do not need to be increased.

    Chairman Warner. Thank you, Senator.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, General Myers, Secretary Grossman.
    I did not believe that we should be an invader of a country 
that could not lift a plane in the war. I did not believe that 
Iraq or Saddam Hussein constituted an imminent threat to the 
security of this country. This is a war we should not have 
fought. It is a war to carry out the preemptive strike 
doctrine. That is what it really began with.
    So now we are in Iraq, we are having real problems that we 
did not foresee, and we are trying to wrap the Iraq problems 
around the September 11 disaster that hit this country. We are 
trying to view everything now in the context of the war on 
terrorism which began under the preemptive strike doctrine. 
That is why we are in Iraq.
    I was opposed to it. I thought we could achieve everything 
we were seeking to achieve just by using a little more 
patience, a word, General, that you have used. Hans Blix said 
that it would take months, but that the job could be done. I 
think with a little more patience we would have achieved much 
of what we have since achieved with tremendous costs in blood 
and in treasure.
    The U.N. inspectors were doing their job. They were finding 
weapons. They were destroying weapons. I think if we had 
exercised that patience for a while longer we would have 
achieved our objective of disarming Hussein.
    No weapons of mass destruction have been found as of this 
date. There may be at some point. There is no question that 
Saddam once had weapons of mass destruction. But I say it was a 
war we should not have fought, and I say again that it was a 
part of the preemptive strike doctrine.
    I have not forgotten January 19, 2001, when Karl Rove 
before the members of the National Republican Committee stated 
that: ``We could make this war on terrorism or homeland 
security, in essence, we could make that the strategic center 
of our election effort.'' I still see that statement that was 
made and I see much of what has been done in leading us into 
this war was in the context of that statement.
    Mr. Chairman, Congress is willing to do what is needed to 
protect our troops from the dangers of post-war Iraq. I will 
support whatever funds are needed for the safety of our troops. 
That does not mean that we should be willing to accept every 
spending proposal that can be wrapped in the United States 
flag.
    I am increasingly uncomfortable with this administration's 
posturing and pontificating on its promises in Iraq. The 
administration has adopted a strategy that to date has 
alienated many of our allies and called into question America's 
motivation for its drive to war. Now the President plans to ask 
Congress to provide $87 billion for Iraq. This funding will be 
in addition to the $104.3 billion that Congress has already 
provided to the Pentagon for Iraq, Afghanistan, and the 
response to September 11, and I for one will not simply rubber-
stamp this request.
    Congress has serious questions, the American people have 
serious questions, and we ought to have answers. I have 
questions about how these funds will be used. I have very 
serious questions about deploying our National Guard to Iraq 
for 12 months at a stretch, keeping those troops from 
performing important homeland security missions. In addition, 
the policy of reconstruction has never been debated, it has 
never been thoroughly considered, and yet the administration 
wants Congress once again to hand over billions of dollars with 
little oversight or discussion. Congress is not an ATM.
    We have to be able to explain this new, enormous bill to 
the American people. The first responsible step for dealing 
with this request is to hold hearings on this huge Iraq 
spending bill.
    When the President spoke on May 1, he said: ``Our coalition 
will stay until our work is done. Then we will leave and we 
will leave behind a free Iraq.'' Mr. Secretary, many Americans, 
no doubt many Iraqis, took this to mean that our troops would 
not have an endless mission in the region. But in recent days 
some of the President's senior advisers have begun to talk 
about a ``generational commitment'' to transform the Middle 
East into a region of peace and democracy. One cannot help but 
wonder if this means that generations of soldiers will serve in 
this volatile part of the world or if generations of Americans 
will be paying untold billions of dollars in new foreign aid.
    So what does it mean to say that the administration wants 
to make a ``generational commitment'' to democratizing the 
Middle East? Does this mean a permanent military presence of 
tens of thousands of troops in the Middle East, just as we 
maintained in Western Europe during the Cold War? Does this 
generational commitment bind us to seeking regime change in 
more Middle Eastern countries?
    The President also spoke about Iraq being the ``central 
front'' of fighting terrorism. If we really want to solve the 
problem, should not our central front be ending the violence 
between Israel and the Palestinians? How did Iraq suddenly 
become more important than peace in the Middle East? Is this 
not putting the cart before the horse?
    Specifically, General Myers, you stated that there will be 
184,000 Iraqis under arms by the summer of 2005. My question: 
How much will it cost the American taxpayer to build a new 
Iraqi army, a new Iraqi police force, a new Iraqi border guard 
agency, and all of those other types of institutions?
    I might give a follow-on question: If you can foresee 
184,000 Iraqis under arms 2 years from now, how many American 
troops will be there in Iraq at that time? If you can answer 
those two questions, General Myers.
    General Myers. On the last part first, how many American 
troops, I think whatever happens in Iraq is going to be event-
driven and so we are going to have to see how we come along in 
a security way, how we come along politically with Iraqi 
governance, and how the economy comes along, and that will 
dictate to a large extent how many U.S. forces are in Iraq.
    As General Abizaid looks forward, as I think he told 
members of this committee when he was over here briefing the 
full Senate up in Senate Room 407, he is willing to look out 
until March of next year, but beyond that, given the number of 
variables involved, he is not willing to estimate the number of 
troops. I think you can draw the conclusion, though, that if 
the estimated--and it is an estimate--of 184,000 Iraqi police 
and infrastructure protection services and civil defense corps 
and new Iraqi army, if it comes, if the planning comes true and 
we have 184,000 on board, that there would be, obviously, a 
lesser need for U.S. troops.
    But for the exact numbers, General Abizaid is the one I 
would rely on to give us those numbers, and he says: ``I am 
going to go to next March and that is as far as I want to 
predict right now.''
    In terms of the cost of building this force, clearly there 
have been a lot of U.S. resources that have been used in the 
formation of the over 55,000 Iraqis that we have in some kind 
of uniform, armed and trained to support freedom and democracy 
in Iraq. I would have to get for you for the record the exact 
amount of how much we figure this is going to be a U.S. burden 
and how much is going to be shared by the rest of the 
international community.
    I think Secretary Grossman has talked to that to some 
degree, that we expect to have donor conferences and so forth 
that are hopefully going to help with this financial burden. 
This is an international situation, an international crisis of 
terrorism, and I would expect the international community to 
step forward and help with funding this.
    [The information referred to follows:]

    [Deleted.]

    Senator Byrd. That does not answer my question, of course. 
Surely there must be some estimates in the Defense Department, 
in the State Department, of how much it will cost the American 
taxpayer to build this new Iraqi army. How much are we spending 
now? How much are we paying now to the Iraqis? How much will it 
cost to build this new Iraqi police force? How much will it 
cost to formulate the new Iraqi border guard agency?
    We must have some estimates floating around downtown. Do 
you not have any of those estimates with you, Secretary 
Wolfowitz?
    Secretary Wolfowitz. Senator, we have estimates and I can 
get you more detail for the record. My basic recollection is 
the total estimate of Iraqi reconstruction--and 
``reconstruction'' is a loose usage of the English language 
since in most cases we are talking about a country that was 
fundamentally neglected, rather than just reconstructing 
something that was destroyed in a war. Roughly $5 billion goes 
to the combination of security institutions. When we are 
talking about what is basically an internal security problem, 
you need not only police and security forces, you need courts 
and you need prisons. That complex of things I believe runs on 
the order of an estimate of $5 billion over some period of 
time, not necessarily 1 year.
    We can give you the detail on which that estimate is based, 
and it is only an estimate at the end of the day.
    But if I could also refer to your question about a 
generational commitment, the fact is--and this is the statement 
from General Abizaid that I quoted from some length in my 
testimony--that we are engaged in a global war on terrorism. As 
he said, it is a phenomenon without borders, and the heart of 
the problem is in the Middle East and we have to deal with the 
heart of the problem in the Middle East.
    You are absolutely right that dealing with the Arab-Israeli 
conflict is a major part of dealing with it. But you cannot, as 
General Abizaid would say, look at it through a soda straw. 
That is part of the problem. Iraq has now become part of the 
solution in my view.
    It is striking to me that the grandson of the Ayatollah 
Khomeini, that tyrant who took Iran back to the dark ages, his 
grandson is now in Najaf in American-liberated Iraq talking 
about the liberation of Iraq as an inspiration for the Iranian 
people.
    [The information referred to follows:]

    The Department of Defense Fiscal Year 2004 Emergency Supplemental 
Request for Operation Iraqi Freedom (OIF), Operation Enduring Freedom 
(OEF), and Operation Noble Eagle (ONE) was submitted September 17. The 
security portion of the Coalition Provisional Authority (CPA) Fiscal 
Year 2004 Supplemental Request to Rehabilitate and Reconstruct Iraq 
dated September 17, 2003, provides the detailed estimate of the cost of 
Iraqi security forces requested by the committee (TAB).
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Byrd. Mr. Chairman, this is eating up my little bit 
of time.
    Secretary Wolfowitz. I am sorry, Senator.
    Senator Byrd. Let me ask you a question that perhaps you 
can answer. With $20 billion being requested for the 
reconstruction costs in Iraq, how much of that money will be 
awarded to companies such as Halliburton with ties to the 
administration that do not have to compete for government 
contracts? Who will be in charge of approving these 
reconstruction contracts?
    Secretary Wolfowitz. This is obviously--let me make a 
point. I think this is the first time I know of when we have 
talked about a supplemental before we came to Congress with a 
specific proposal. We want to consult with you, Senator, and 
with your colleagues about details. But I am quite certain the 
basic principle has to be competitive bidding and, as I think 
Senator Levin raised the issue earlier, if we want foreigners 
involved in this process, then we also have to consider how 
those processes are open fairly to everybody.
    We did some things before the war that had to be done in 
secret and on a classified basis. We are obviously out of that 
era and the most open, transparent bidding process is 
presumably the goal. At the same time, in particular areas like 
electricity we also have to make sure that we do things 
rapidly, because getting electricity up and fixed quickly is 
part of creating the conditions in which our troops can draw 
down and our troops can be safer.
    Chairman Warner. Thank you, Senator Byrd, very much.
    Senator Byrd. Thank you. Obviously there are going to be a 
lot of questions. This is the first time that we have had an 
opportunity to have a hearing on a supplemental. This is the 
Armed Services Committee. We have always had this rush, rush, 
rush when these appropriations requests come to Congress. I 
hope we will have hearings in this case. The American people 
are entitled to it.
    Chairman Warner. Thank you, Senator Byrd. I think this 
hearing will be a foundation for the follow-on work by the 
Appropriations Committee, where you are the senior member of 
the Democrats.
    Yes, General, you wish to make a comment?
    General Myers. Chairman Warner, I would like to make just 
one response to Senator Byrd. Of the $87 billion, $66 billion 
is essentially for U.S. forces. We spend today in Iraq about $4 
billion a month. We spend in Afghanistan and the rest of the 
war on terrorism about a billion dollars a month. So the 
majority of the supplemental goes to U.S. forces.
    As Secretary Wolfowitz said, of the $21 billion that has 
been characterized for Iraq reconstruction, Afghan 
reconstruction, and so forth, about $5.5 billion is for the 
security forces that you asked me about earlier. I would only 
end by saying that we think you get great payoff for those 
dollars. I think it is going to turn out in the end a lot 
cheaper to have the Iraqis defending their country and 
providing security in their country than it is for us to have 
our forces deployed there to do it.
    Chairman Warner. Thank you, General Myers.
    Senator Roberts.
    Senator Roberts. Mr. Chairman, I do not mean to be 
obstreperous, but my colleague to my left has a watch and has 
timed people as we have gone through this, which means he will 
probably kick me at 7\1/2\ minutes. But I note that those on 
the other side of the aisle have averaged about 12, 13, 14, in 
this particular case 20 minutes. I thought this was 7\1/2\ 
minutes apiece. I am not trying to find fault with the 
chairman, but I think that we all ought to try to do a little 
better in regards to the timing and the witnesses.
    I want to start off by saying this: ``Sir Winston Churchill 
said upon hearing about the attack on Pearl Harbor, `Silly 
people,' that was the description many gave in discounting the 
force of the United States. Some said how they were soft, 
others they would never be united, that they would never come 
to grips, they would never stand bloodletting, that their 
system of government and democracy would paralyze the war 
effort.'' Let me repeat that: ``that their system of government 
and democracy would paralyze the war effort.''
    Sir Winston said: ``Some said that now we will see the 
weakness of this numerous but remote, wealthy and talkative 
people. But I had studied the American Civil War, fought out to 
the last desperate inch. American blood flowed in my veins. I 
thought of a remark made to me years before: The United States 
is like a gigantic boiler. Once the fire of freedom is lighted 
under it, there is no limit to the power it can generate. It is 
a matter of resolve.''
    Mr. Chairman, I think we have a leaky boiler.
    My question is, to the Secretary or to any of the panel: Do 
you have the sense that the Iraqis, be they former regime 
members or ordinary citizens, are watching closely what we do 
and say here today in Washington in regard to their future, not 
to mention some rather harsh criticism, and the future of our 
efforts there? Could the Baathists and the foreign jihadists 
and the Fedayeen and the common criminals and the Sunni 
extremists gain currency with Arab nations and their leadership 
from the idea that we have a lack of resolve and a reduced 
commitment to us or our allies? What are the stakes?
    Secretary Wolfowitz. The stakes are enormous, and they do 
have a lot of access to what goes on here. I think it is very 
important that we be able to--we are a democracy. That is our 
strength as well as produces this lively debate.
    I do think it is important, as I said earlier, that we be 
able to project confidence, and there is an enormous amount of 
success to project confidence about. We succeeded in the major 
combat phase of this war with a speed that astonished everyone, 
I would say including ourselves, with casualties that were 
miraculously low. We avoided the catastrophe of an oil well 
disaster that would have had an environmental impact for 
decades. We avoided a humanitarian crisis and the hundreds of 
thousands of people that we planned on feeding and providing 
tents for, did not need it. We avoided a huge refugee crisis. 
We avoided Turkey and Iran intervening in Iraq. We avoided the 
kind of thing the intelligence community warned us about at 
great length, of a possible major city fight in Baghdad or some 
other city.
    The list goes on of the things that we have succeeded in 
doing, and the young men and women out there today doing this 
job are just magnificent and they bring American ingenuity and 
American courage----
    Senator Roberts. Mr. Secretary----
    Secretary Wolfowitz. We should be confident.
    Senator Roberts.--I appreciate that, and I apologize for 
interrupting you. But I want to know what the government 
leaders of Kuwait, Qatar, Jordan, Egypt, Saudi Arabia, and 
others, who time and time again when I have met with them as 
member of a congressional delegation, as has the chairman, as 
with others, they question our resolve. They question our 
resolve, and that is the thing I am trying to get at.
    I want to also announce as the Chairman of the Intelligence 
Committee that staff is now carefully scrutinizing past 
testimony regarding post-combat predictions and also analysis, 
not so much to affix any 20-20 hindsight blame, but to assess 
how the intelligence community can achieve the analytical 
product and the warnings that will enable us to meet the 
necessity of conducting and winning what I consider to be an 
anti-guerrilla warfare operation.
    Now, we can involve the U.N., that paragon of virtue in 
regards to action from a military standpoint. They do fine 
things from a humanitarian standpoint, I understand that. We 
can get more international troops. I know that we have 1,400 
marines in Karbala who are doing everything from repairing 
bridges to fixing schools to providing security, and they will 
be replaced by 450 Bulgarians. I am not trying to perjure the 
effort of Bulgarians, but it seems to me that you have to have 
troops that can actually do the job rather than just saying we 
need international troops.
    We can certainly recruit and train more Iraqi police and 
military and defense corps. But we have to have better 
intelligence to enable us to detect and deter and, yes, 
preempt--yes, preempt--all these growing hostilities.
    Could you tell me whether the $5.6 billion that is going to 
be allotted to the intelligence community, and we intend to 
find out in the intelligence community, is this a matter of 
policy, is it a matter of resources, or is it a matter of 
ability? How can we do this better? Because all this relies on 
better intelligence.
    Secretary Wolfowitz. Senator, I could not agree more on the 
importance of intelligence. General Abizaid would say--I do not 
know if he would rank them exactly, but his two top priorities 
are intelligence and more Iraqis, and to some extent more 
Iraqis means more intelligence. We need better intelligence on 
the terrorists and the Baathists who are fighting us. We are 
looking at how we can improve our methods today. I think we 
have made great strides in the last couple of months, but we 
need to go further and faster.
    I would encourage you to look at that. I must say our 
experience since the beginning of the Afghan war is that 
General Franks and now General Abizaid are stitched together 
very tightly with their intelligence counterparts. There is 
terrific communication there. They have had terrific support 
and in my experience they have put enormous planning effort 
into everything the intelligence people have warned them about.
    Senator Roberts. Let me just say in terms of the warning 
that it was alleged earlier in terms of the policymakers by the 
intelligence community that we knew that this was going to be a 
lot tougher. That story starts out and says, ``Although general 
in nature,'' and we are quoting one congressional aide, one 
congressional source, a senior administration official, one 
administration official. There is a paragraph here, ``There is 
not universal agreement about the clarity of prewar 
intelligence that was forwarded by the CIA and its counterpart 
agencies at the Pentagon and the State Department. Some 
administration official said the intelligence was murkier than 
others now depict it.''
    You cannot get the whole jigsaw puzzle. You cannot connect 
all the dots. Different things happen. It seems to me--my time 
has expired.
    Chairman Warner. Thank you very much. I think it is 
important, colleague--I respect your views, but Senator Byrd 
does have a key role with regard to this $87 billion, and I had 
visited with him prior to the hearing. All of us do, but he has 
a heavy responsibility and his support will be needed.
    Senator Roberts. If I might, Mr. Chairman, it is not that 
so much as the average of 12 minutes on the other side and 
about 7\1/2\ on this side, why I raised the issue. I am not 
trying to perjure or point fingers at anybody else.
    Chairman Warner. I do intend to run a fair hearing. I 
believe Senator McCain had an extra minute or 2. But anyway, we 
shall move on.
    Senator Roberts. I understand that. I think we all have 
heavy burdens. I am Chairman of the Emerging Threats and 
Capabilities Subcommittee and the Chairman of the Intelligence 
Committee and I would like to wax on for about another 10 or 15 
minutes. I have a lot on my mind. But I have yielded back my 
time like the chairman has indicated. Thank you.
    Chairman Warner. I note that I am the freshman member of 
your Intelligence Committee and you lash at me very fairly.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    General Myers, it is your opinion as a uniformed military 
officer in consultation with your commanders that there is no 
military requirement for additional troops in Iraq?
    General Myers. Senator Reed, that is correct, and it is in 
consultation. I rely on General Abizaid and he relies on 
General Sanchez and he relies on his division commanders on the 
ground and their subordinates as they try to come up with the 
troops they need.
    Senator Reed. So the request for international troops is to 
achieve a very important and laudable political objective 
exclusively?
    General Myers. I would not say exclusively. They are going 
to be doing real work, and I do not think we want to denigrate 
the work that they are going to do.
    Senator Reed. General, if I may, we get into this minuet 
about, well, it is not just political; they will do real work. 
If that real work has to be done, then that implies to me that 
there is a requirement for troops to do that work. Now, whether 
they are international troops or U.S. troops, there is still 
that requirement.
    Now you just said there is no requirement, that if we do 
not get these international troops then it will be okay 
militarily.
    General Myers. Maybe I misunderstood your question. The 
troops I thought we were talking about in the first part of 
that were U.S. troops.
    Senator Reed. I said troops.
    General Myers. Okay, then I answered incorrectly. We are 
looking for a third multinational division, for the reasons 
that we have already discussed earlier at length, and I will 
not go into those, but to include sharing the burden of the 
effort in Iraq. It will help us in the long term.
    Senator Reed. But let me be clear, General, because we have 
talked around this issue. Your view is there is a military 
requirement for additional troops. Your hope is that they are 
international troops, but there is a requirement for additional 
troops?
    General Myers. That is not correct. The number of troops 
that we have had, that we will keep in Iraq, is going to stay 
at approximately about the same level. Today we have around 
152,000. If we get a third multinational division--this will go 
up and down. It goes up and down with deployments and so forth. 
It went up a little bit over the forecast when General Mattis 
and folks decided to leave a couple of Marine battalions there. 
But generally speaking, the number of troops is going to stay 
about level. The composition of the troops will change.
    Senator Reed. So that if we do not get international troops 
we will still maintain roughly 130,000-plus American forces?
    General Myers. If the situation in that time frame when 
those international troops would come in, if the situation 
demands it, yes, is the answer.
    Senator Reed. I read, as we all do, that we have 
inadequately guarded ammo dumps. I receive messages from our 
Rhode Island National Guardsmen about what they perceive as 
inadequate air cover over their convoys, and we had casualties 
on convoy about 2 weeks ago. You hear about oil pipelines being 
blown up today which would suggest to me that additional forces 
in country could be used effectively.
    General Myers. I agree with that point, and some of those 
forces--it is a matter of priority for General Sanchez and his 
folks where he puts his protective forces and the air cover and 
so forth. It is also true on infrastructure protection that 
that is ideally suited for Iraqis themselves. Who better to 
protect their pipelines and their power lines than the Iraqis 
themselves?
    Senator Reed. I agree in principle, but it seems that 
yesterday, reported today, there was just another major 
pipeline in the north blown up, presumably guarded or not 
guarded by Iraqis or someone else.
    Let me ask another question, which is, if we assume that 
the level of forces is in your view adequate, the composition 
of forces today, is it appropriate to this mission? We have 
combat brigades in there, but very few Military Police (MP) 
brigades.
    General Myers. That is something that the United States 
Army is looking very closely at and I think as you look at the 
force rotation that has been planned, for instance, the First 
Cavalry Division goes in. One of the things that I think you 
know you will see with it is an enhanced separate brigade from 
the Army National Guard. The reason is to give them more 
infantry, because they do not want to be based in their M-1 
tanks because that is not the mission at this point. What they 
want to have are a lot of infantry that can go out and do the 
missions that they need to do.
    So the Army is looking very hard at that and trying to 
structure their divisions. MPs are always going to be in big 
need.
    Senator Reed. General Myers, at the end of the year that 
you have extended the National Guard troops--and I have two MP 
companies and an MP headquarters battalion in there--when they 
come back to Rhode Island, where are you going to get MPs to 
replace them? They are not in the Active Force structure and 
they have already been used in the National Guard.
    General Myers. Right. I am very well aware of that issue 
because, at Fort Meyer, we have had from time to time Reserve 
component military police, normally National Guard, that do 
that mission. I talk about their deployment schedules and so 
forth. That is one of those areas, when we talk about Reserve-
active mix, it is not just the mix; it is do we have enough of 
things like military police, civil affairs, in our Armed Forces 
to carry on the missions that we think we might have in the 
future. I think for some of those career fields we probably 
will come to the conclusion we do not.
    Senator Reed. Thank you.
    Mr. Secretary, my recollection is hostilities began, actual 
offensive operations, on or about March 19; is that correct to 
your recollection?
    Secretary Wolfowitz. My recollection is March 20.
    Senator Reed. March 20. Those passports you have indicated, 
the first date was March 24.
    Secretary Wolfowitz. Right.
    Senator Reed. Do you have any evidence of significant 
terrorist presence in Baghdad before those dates, since the 
Secretary maintained he had bulletproof evidence of a terrorist 
link in Baghdad prior to initiation of hostilities?
    Secretary Wolfowitz. Yes, we do. There are some things that 
are publicly known from before. There are the things that 
Director Tenet described in his unclassified letter to this 
committee back in October, I believe. There is the well-known 
fact that for some 10 years the one bomber from the 1993 World 
Trade Center that was still at large was harbored in Iraq.
    There is the evidence that Secretary Powell discussed----
    Senator Reed. These are al Qaeda elements?
    Secretary Wolfowitz. Who did the 1993 World Trade Center 
bombing is, to use the intelligence community's word, a murky 
question. But it was masterminded by the nephew of the same man 
who masterminded September 11, and they went after the same 
target.
    Senator Reed. But you have, subsequent to our operations in 
Iraq, no further evidence other than that which was revealed?
    Secretary Wolfowitz. If you let me finish, Secretary Powell 
talked in his presentation to the U.N. Security Council at some 
length about a senior al Qaeda--or some people say he is not 
quite al Qaeda; he is affiliated; he is clearly in the same 
world--named Abu Musaba Zarkawi, with connections both to the 
poison lab that was operating in northern Iraq and to some 
plots that were broken up in London and Paris and in Italy.
    I am not familiar with everything we have learned since we 
got to Baghdad, but I can say this, that what we have learned 
only deepens the conclusions that were there on an unclassified 
basis before.
    Senator Reed. So you would disagree with the opinion of----
    Secretary Wolfowitz. In fact, one last thing if I might. 
The group that Zarkawi is associated with, Ansar al-Islam, was 
established in Iraq in 2001 and it is I think in the judgment 
of the military and the intelligence people the single most 
serious terrorist threat we face today.
    Senator Reed. They were aided and abetted by the Saddam 
Hussein regime?
    Secretary Wolfowitz. These people went to very great 
lengths to bury and hide the links that they had with one 
another. So you have to recognize we probably see only the tip 
of the iceberg. But we certainly see links.
    Senator Reed. So you would disagree with the statement by 
Vincent Canastrato, the former Director of Counterterrorism 
Operations and Analysis of the CIA, who said: ``There was no 
substantive intelligence information linking Saddam to 
international terrorism before the war. Now we have created the 
conditions that have made Iraq the place to come to attack 
Americans.''
    Secretary Wolfowitz. I think Director Tenet's statement 
last year disagrees with it. I think Secretary Powell's 
statement to the U.N. disagrees with it. I think the 
Palestinian terrorists that we have captured in Iraq disagrees 
with it. I think the money that Saddam offered for Palestinian 
homicide bombers disagrees with it.
    I do not know the statement you are quoting, but it does 
not stand with what I have been told from the intelligence 
world.
    Senator Reed. Mr. Chairman, if I may for a moment. My 
colleagues had an opportunity to opine and I would like to do 
it, too.
    This was a war of choice and we will debate the wisdom of 
that choice for generations. But I think it is obvious now that 
the choice we made is more expensive than we thought, more 
time-consuming, more dangerous, and more difficult. I think 
also that we have put ourselves in the position where we have 
everything to lose and, it becomes increasingly apparent, very 
little to gain.
    Certainly this operation has not transformed the Middle 
East peace process. It has not allowed us to effectively 
suppress and lethally preempt Osama bin Laden and al Qaeda. I 
think, despite General Myers, who I respect immensely, the 
notion that these apocalyptic terrorists are going to give up 
their jihad whether we prevail in Iraq is I think naive. I 
think we have made a questionable strategic choice. We have 
everything to lose, and I certainly will support all efforts to 
win. We have no choice. But I think we have put ourselves in a 
position where we have made a choice where we have everything 
to lose and very little to gain.
    Thank you.
    Chairman Warner. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman, and I have a 
statement I would like to have submitted for the record if I 
might.
    Chairman Warner. Without objection. I wonder if you would 
indulge the chair. Senator Levin and I are of the view that 
this hearing will continue until such time as each Senator has 
had an opportunity to address questions to our witnesses, and 
at the conclusion of that we do not intend to have a second 
round. Thank you very much.
    [The prepared statement of Senator Allard follows:]
               Prepared Statement by Senator Wayne Allard
    Thank you, Mr. Chairman, for holding this important hearing. I also 
thank our witnesses today for coming to testify before the Senate. 
Certainly, the eyes of our constituents are focused on Capitol Hill 
after the President's address to the Nation this weekend.
    At the beginning of Operation Iraqi Freedom, there were those who 
believed our military would not score a decisive victory against the 
Iraqis. The focus at the start of hostilities was on preventing and 
defending our soldiers, sailors, and airmen against any threat of 
biological or chemical munitions that Saddam and his ilk might use. Our 
well-equipped armed services proved in Operation Iraqi Freedom to be 
second to none, and victory was assured not only through our 
technological advantage, but also through the excellence of the men and 
women that compose the United States military.
    Now we have a new challenge, and once again we are faced with 
detractors who would call President Bush's Sunday night address a 
capitulation to the United Nations the same body that chose to shirk 
its responsibility and not enforce its own resolutions. Reconstruction 
is not a simple task. It would be short-sighted for anyone to conclude 
that cooperation with other nations was not needed or wanted by the 
United States. Rebuilding and stability operations have indeed come 
with a large price tag in human and financial capital; but it will be 
much easier with more cooperation from our allies and the U.N. The 
administration is in the process of making such cooperation a reality. 
It is unfortunate that some who unfairly accuse the administration of 
just now recognizing the value of international cooperation, when in 
fact, it was evident from the beginning that such cooperation was one 
of this administration's top goals.
    I look forward to hearing your testimony on the situation in Iraq, 
and also welcome any new information on the war on terror.

    Senator Allard. Thank you, Mr. Chairman.
    I have heard members on this committee refer to September 
11 as a disaster, and September 11 was an attack on the 
mainland of America. It has been my view that if we had ignored 
what happened on September 11, terrorists would have become 
even--we would have been facing even greater attacks, larger 
attacks, and they would have been more brazen and on a daily 
basis.
    I thank God that we have had a strong leader in the 
presidency. I want to compliment many of you for your support 
in working to resolve this problem. It is not easy. I agree 
with General Myers that this is a problem that the American 
people have to show patience for, they have to remain 
committed, and they have to show a will to win.
    It is something we simply cannot back away from. I think 
that our fighting men and women are doing a tremendous job and 
I think that we need to pause and reflect on the good decisions 
of the people that have gone before us in getting them prepared 
to face the unforeseen issues and problems that we are facing 
today. I am just thankful that we are in a position to be able 
to face them.
    I just want to talk a little bit about the budget. I know 
it has been brought up by my colleagues, too, and since I serve 
on the Budget Committee I think there is a point or two that 
needs to be made, because I think there are statements that are 
being made that are misleading. The assumption that this is an 
unforeseen expense is wrong. If you look at the budget that we 
passed in this body for 2004, we assumed that there would be a 
supplemental that would be requested along the lines of the $87 
billion the President just requested this past weekend.
    We put $79 billion in there for a supplemental, including a 
factor for inflation. So we are somewhere around an $80.5 
billion supplemental in that request for the budget. So this 
argument that all of a sudden we are adding $87 billion to the 
deficit is simply not right.
    Now, there is $5 billion that we will probably have to make 
up. We have $1.8 trillion and it seems to me that we can find 
$5 billion in there to make that up in a $1.8 trillion budget. 
So the Budget Committee, particularly the chairman of the 
Budget Committee--and I can say we passed our budget this year, 
which is more than we can say for last year. We did not pass a 
budget last year. We passed a budget for this year in this 
Congress for 2004, and the figures that we were looking at for 
the budget were based on some plans that we were looking at, 
and we were trying to figure out what those unforeseen 
contingencies were.
    So there has been a lot of planning. There has been a lot 
of thought. But the fact is that we are dealing with 
terrorists, and the factor that they count on is surprise and 
doing what is unexpected.
    When I look at what has been presented to this Congress and 
where we are in the budget, I am amazed that we are as close to 
the figures as we are, and we are still pretty much on a 
deficit estimate of $480 billion for fiscal year 2004 because 
we have already factored that in in the budget.
    While I am talking about the request and what-not and 
money, I do have a question on the armored Humvees and body 
armor for our troops. The question is, and it was in the 
President's new supplemental request, how long will it take to 
get these much-needed vehicles and protective devices to the 
soldiers in the theater? Maybe, General Myers, that is a 
question for you.
    General Myers. Senator Allard, I am going to look through 
here. I have that information. I know we have a little over 600 
that are on their way to theater today and exactly when the 
first ones get there, if you will just give me a second I may 
have it in all these papers here, because it is something that 
we are absolutely looking for.
    They will all get over this year, and 301 of the 654 that 
are being shipped right now have arrived in Kuwait and are 
being processed for distribution. The remaining 353 of the 654 
that are going to get there this year are being prepared for 
shipment to Kuwait. In addition, the Army is looking at the 
other armored Humvees that it has to see if they can be taken 
from other deployments and other events, including extended 
maintenance, and if we can push them toward Iraq as well.
    Senator Allard. I thank you for that response.
    In August I just finished some town meetings in Colorado. I 
had 20 or so of them. One of the issues that had been brought 
up was about the protective devices for soldiers in the 
theater. I am glad to hear that you have heard that call, heard 
the need, that there is a need there and are responding.
    General Myers. Absolutely.
    Senator Allard. So I appreciate that. The Washington Post 
today had an article outlining the fact that our intelligence 
agencies had provided a fairly accurate description of post-war 
resistance in Iraq. What more can you tell us about the 
intelligence reports, Mr. Secretary, in this open session?
    Secretary Wolfowitz. It is hard to do much in open session, 
but I would say one of the quotes I saw was intelligence 
reports told at some length about possibilities for 
unpleasantness. That is certainly true. In fact, you can make a 
very long list of things that we were concerned about that did 
not happen or things that we were concerned about that we 
prevented, and there were some things that were not predicted 
or that certainly were not predicted loudly.
    But what I can say--I said it earlier--every single thing 
that the intelligence community raised as a serious problem was 
addressed seriously by General Franks and by the Secretary and 
by the President himself. I was a little puzzled a few minutes 
ago when it was said that these are expenses that were 
unforeseen and an extent of deployment that was unforeseen. No 
one tried to predict the future. No one said we would know 
anything other than this could be very bloody, it could be very 
long, by implication it could be very expensive.
    Even a much simpler thing like Bosnia was predicted to be 
only a year and here it is 8 years later and we are still 
there. But we are there in much smaller numbers and we are 
dealing with that. Bosnia does not go to the heart of our 
interests. As you said, this is about the war on terrorism. The 
attack on the World Trade Center was certainly unforeseen and 
the expenses are staggering.
    I believe the fact that foreign terrorists are coming to 
fight us in Iraq during the war and today, the fact that there 
are al Qaeda groups that are Iraqi and have been working 
against us now and were working against us before, and the fact 
that they have at least tacit and maybe explicit allies in the 
criminal gangs that ran the old regime--they know what is at 
stake here and I think we need to understand what is at stake 
here. The troops certainly do, and we need to project 
confidence--because it is absolutely warranted--that we are 
going to win. We have much more on our side, much more going 
for us. But what we have at stake is enormous.
    Senator Allard. Mr. Secretary, thank you.
    Mr. Chairman, my time has expired here. But, I have 
received a number of plans on my desk and I have been attending 
briefings about your plans for Iraq and Afghanistan and dealing 
with terrorism since September 11. I do not understand why 
anybody can complain that somehow this administration and each 
of you have not done your best to try to plan for unforeseen 
circumstances from the terrorists that we are facing.
    I wish, like everybody else, that this would go away, but 
the fact is it is not going to go away, and I think terrorism 
is going to be with us for a while and we need to be prepared 
for that. We have been preparing for it in the budget. The 
dollars are there as best we possibly can, and in many cases we 
have already swallowed the poison pill in the fact that we have 
already accounted for that in the budget we passed for 2004.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    General Myers, in a recent interview you mentioned an 
analysis DOD has been conducting into worldwide force 
commitments and stated that in some areas, such as the Balkans, 
the Europeans should be assuming a greater share of the burden. 
However, some of our allies have been reducing their 
commitments in order to provide additional troops to ongoing 
operations in Iraq.
    I have three questions on this. What is your assessment of 
how likely it is that other forces will take on additional 
global responsibilities outside of Iraq when we are also 
pressing them to increase commitments in that theater as well? 
I would like to ask Mr. Grossman; if you have any thoughts on 
this, for they would be welcome as well.
    General Myers, in your best military judgment what are the 
risks associated with declining international presence in 
Bosnia and how does the United States plan to address these 
risks? General Myers, did you examine the level of forces 
committed to Operation Noble Eagle and can you give your 
assessment of the military value and effectiveness of that 
mission?
    General Myers. You bet, Senator Akaka. I can take all three 
of those questions and try to run down them here quickly.
    We have gotten what I think is very good response in terms 
of support in other parts of the world besides Iraq. We talked 
a little bit about this earlier, but in Afghanistan in 
particular. The fact that NATO is leading the International 
Security Assistance Force around Kabul is truly an amazing and 
astonishing fact. That they are enthusiastic about that 
mission, that they plan for it long-term, that they are looking 
to taking the mission, examining taking that mission outside of 
Kabul to some of the provinces, is also amazing.
    In our recent operation over there where we successfully 
engaged Taliban fighters, relatively large numbers of Taliban 
fighters, with the help of the governor of Kandahar Pushtun and 
his militia that is under him, with the Afghan National Army, 
with U.S. forces, it is interesting to note that some of the 
blocking positions were by special forces from Lithuania, 
Romania, and France.
    I think the understanding of what needs to happen in 
Afghanistan and in other parts of the world is going to get 
good international cooperation. So that is the answer, at least 
to the first part of that question.
    Regarding the Balkans, clearly in Bosnia and for that 
matter for the most part in Kosovo, the military mission is 
essentially complete, if you will, and what we are waiting for 
is the civil implementation to take hold--the right number of 
police force, the judicial system to be fully stood up, prisons 
manned, and so forth, and the local governance to be stood up, 
and the political accommodations particularly--in both places 
the political accommodations on the various factions, so they 
agree to get along.
    So I think there is a security risk there. Nobody wants to 
go back to the Bosnia or the Balkans that we had 8 years ago, 
or more recently in Kosovo during Operation Allied Force and 
before that, where we interrupted the genocide that was going 
on by the Serbian forces. But a lot of that world has changed.
    If you look at Macedonia, as I mentioned earlier, there is 
a country that was almost in chaos and now is trying very hard 
to make itself ready for NATO membership. Albania and Serbia 
have made overtures that they too would like to be part of the 
process that eventually gets them the NATO membership. So that 
whole region it seems to me is becoming more stable and more 
secure and we ought to really look at what contribution forces 
make there.
    In relation to Operation Noble Eagle, yes, we reviewed 
that. We have talked about this in terms of the Department of 
Defense, in terms of the military contribution to the war on 
terrorism as it being both offense and defense. Part of the 
defense is Operation Noble Eagle. That is the operation here at 
home and for that matter in Hawaii and Alaska, which is part of 
the homeland and not to be forgotten even though it is quite a 
ways offshore in your case, Senator, to protect our people.
    It is not only Operation Noble Eagle, but it is the 
standing up of U.S. Northern Command (NORTHCOM) and the way 
they work with the Federal, State, and local governments to 
bring the resources of the Department of Defense to bear when 
it is appropriate that we do so. We have a substantial part of 
our Reserve Forces that are called up that I mentioned earlier, 
173,000. They are not all in Iraq, they are not all in 
Afghanistan. A large number of them are here for Operation 
Noble Eagle. So that is a big part of our commitment as well. 
But that is essential to our country's defense.
    Senator Akaka. Mr. Grossman, would you offer any thoughts 
on that first question on additional global responsibilities 
outside of Iraq?
    Secretary Grossman. Yes, sir. Thank you very much. Let me 
first of all associate myself completely with what General 
Myers said, especially about the area of the Balkans.
    No one would want to return to the Balkans that we had 8 or 
10 years ago, and I think in fact that the commitment of the 
United States and our allies has been a great success there.
    I generally do not travel anywhere now without a chart that 
shows the declining U.S. strength, both in Bosnia and Kosovo, 
and with the chairman's permission, I think we ought to include 
this as part of the record.
    Chairman Warner. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Grossman. It shows that we went there with a 
plan, we have reduced our forces over time, but we have still 
created something very important, I believe.
    Finally, I also believe that, with General Myers, we ought 
to take a look at what more people can do outside of the U.S. 
forces, especially in the Balkans, Bosnia, and Kosovo. One very 
important point, and that is as we move forward there, there 
are still some jobs to do in the Balkans. I want to make sure 
that on the record is our continuing commitment to apprehending 
some of the war criminals out there, especially Mr. Mladic and 
Mr. Karadic.
    Senator Akaka. On March 20 of this year, Secretary Rumsfeld 
issued a memo outlining his plan for the development of an 
overseas basing strategy to support current and future U.S. 
defense requirements. According to the memo, the Joint Chiefs 
of Staff in conjunction with the Under Secretary of Defense for 
Policy would develop a comprehensive and integrated presence 
and basing strategy looking out 10 years based on input 
received from the combatant commanders in cooperation with the 
military departments.
    The report was due to Secretary Rumsfeld by July 1, 2003. 
General Myers, what is the current status of the overseas 
basing strategy and have you submitted your overall 
recommendations to the Secretary as stated in the March 20 
memo?
    General Myers. This was a process in which we also involved 
the combatant commanders in Europe, in the Pacific, in SOUTCOM, 
in CENTCOM, to look at how we are postured, as you said, 
Senator Akaka, around the world. The reason we think this is 
important is that in many respects our posture around the world 
has been through the Cold War--Korea is a terrific example. 
Many of the camps, posts, and stations are exactly where they 
were when the armistice was signed. They were not designed to 
be that way. It just happened to be where they are.
    Where we stand is that that work is ongoing. The combatant 
commanders have brought in recommendations. We have been 
working with the Under Secretary of Defense for Policy and 
folks on the Joint Staff have been working with the Secretary 
of Defense to go through each of those to try to put our best 
thinking on that problem, to say what are we going to need for 
the future.
    There have been no decisions or conclusions drawn. It is a 
work in progress, if you will. Clearly it is going to involve 
more than just the Department of Defense. This is going to have 
to be a U.S. Government effort in the end because there are 
going to be a lot of political-military questions that will be 
raised and have to be answered.
    Senator Akaka. Thank you very much for your responses.
    Mr. Chairman, my time has expired.
    Chairman Warner. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I would first just like to reiterate comments made by 
Senator Allard. I too serve on the Budget Committee and the 
memorandum for the chief budget staff person says that: ``Our 
CBO budget deficit estimate already assumes that we will have a 
significant supplemental for this year and assumes a $79 
billion supplemental.'' So this idea that it is driving up our 
budget deficit unexpectedly is really, to the extent that it 
really is about $80, with interest $87, $5 or $7 billion more 
than we assumed, but fundamentally this Budget Committee and 
our Congress assumed that we would have this challenge to meet, 
and I think everybody is going to be ready to meet it. I am 
convinced of that.
    I just want to note that I believe most Americans 
understand that we are at war. We have not forgotten September 
11, and we are committed. Over three-fourths of the members of 
this body and the House voted to support the effort in Iraq. We 
are not going to waffle now. We are not going to quit.
    At this hearing, Mr. Chairman, I think it is wonderful, and 
we need to focus on what we can do to help us be more 
successful. But this is not a hearing to talk about abandoning 
a policy that we overwhelmingly adopted in the Congress of the 
United States, the President took to the American people, and 
the President and the Defense Department have so brilliantly 
led.
    I would just note that I think the war has gone in many 
ways exceedingly well. We had all these concerns, and I did not 
dismiss them out of hand, that we would have house to house 
fighting, thousands and thousands of American casualties. I did 
not dismiss humanitarian disasters out of hand that did not 
occur. I did not dismiss all kinds of humanitarian problems 
that could have occurred. We did not have ethnic bloodbaths, as 
some suggested.
    So I think in terms of the hostilities themselves it went 
brilliantly. I think the civilian Defense Department 
leadership, Secretaries Rumsfeld and Wolfowitz, worked with 
General Tommy Franks to develop a brilliant, innovative plan 
for decisive and swift victory in this war. Not only did they 
allow him to be bold and innovative and courageous, they 
encouraged it, and as a partnership together we had great 
success.
    I think we need to remember that the greatest heroes are 
our soldiers who fought this battle. It was tough duty and it 
was risky. Many of them are alive today because of bulletproof 
vests and the kind of armor that we had, and we need more and 
better of it. It was a tough battle, but they moved with 
courage and decisiveness in the finest traditions of the 
American military.
    They are not prepared to cut and run either, because I have 
been there and I have talked to them, with Alabama units that, 
apart from any bias from any high officials, they told me that 
they thought we were making progress.
    I know that we have some challenges and I just want to get 
to those and ask about them and provide some suggestions. First 
I would like to share a few things about what is happening 
there. I met with an engineering unit from Alabama in the north 
in Mosul. They restored four schools that were devastated. The 
article by Tom Gordon of The Birmingham News, who was embedded 
with them, or September 6 talks about it.
    One of the things Tom Gordon wrote about was Riban Abdul 
Wab, a 15 year old. He spoke English. He was their chief 
interpreter as they rebuilt the school and went out and helped 
them buy supplies at better prices. It said this in his 
article: ``Alpha Company is working to get the youth to America 
to finish high school and college. If their efforts succeed, 
his home for part of his stay will be with Sergeant Virgil 
Simpson in Booneville, Mississippi, a member of that unit.'' 
That is the kind of thing that is occurring.
    It goes on to note: ``In the aftermath of the ceremony, 
groups of beret-wearing girls held hands with soldiers, while 
more boisterous boys high-fived the soldiers.''
    I saw one American soldier on the streets of Baghdad 
talking to half a dozen Iraqi citizens on more than one 
occasion. I met with the Alabama MPs and had dinner with them. 
We talked about what was really going on. They go to the police 
precinct with Iraqi policemen that have been brought on board, 
and they patrol the streets of Baghdad together. One said: ``We 
have bonded together.'' Intelligence is increasing, they told 
me. No high-ranking officials were there. It was their 
statement to me about what they perceived to be occurring.
    I asked: Do you think you could leave today and the Iraqi 
police could succeed? They said they did not think so. They 
thought that we needed to stay there for some longer period of 
time.
    General Myers and Secretary Wolfowitz, I think you are 
exactly correct, that we need to strengthen the local police 
forces. As a former prosecutor myself, I know a society cannot 
function where there is disorder. A lot of this disorder is 
pure criminal theft, pure robbers, burglars, and thieves.
    So I guess I was very encouraged to see, General Myers, 
that you have a goal of 184,000, because to me we do not need 
more troops there; we need more intelligence, we need a 
stronger local police, a stronger local army, and we need to 
start getting our troops out, not putting more in.
    You have a goal of 184,000. Does this supplemental give you 
enough money to do that? I think you need every dollar you are 
entitled to for that project.
    General Myers. Senator Sessions, my understanding is the 
supplemental does do that through fiscal year 2004. It has, as 
I said, I think about $5.5 billion that goes specifically to 
training those forces.
    Senator Sessions. I would just say, I visited their 
training camp and met with their trainers and met with the 
chief of the Baghdad police force, who I saw later had been the 
subject of an assassination attempt. But he was personally 
leading police officers on nightly raids, had been wounded, 
shot in the leg, the week before I got there, and was back to 
work before he should have been according to the doctors, 
leading this unit. If we have that kind of support, we will be 
successful.
    A patrolling soldier who cannot speak the language, Mr. 
Chairman, is just not going to be as effective as an Iraqi 
police officer in getting the intelligence and leading raids.
    Secretary Wolfowitz, I also have a strong belief that 
electricity is a big problem. I understand that because of 
neglect by Saddam Hussein's government the demand is 30 percent 
greater than generating capacity. Will this supplemental allow 
you to spend such sums as you need to immediately take steps to 
restore electricity? I think, with an increased police 
department and an increased electricity and continuous supply 
of electricity, I believe that will help us be able to reduce 
our forces.
    Secretary Wolfowitz. Yes, it does. Actually, electricity is 
the largest single item in that part of the supplemental, and 
we are approaching the whole electricity issue with the sense 
of urgency that it requires. We had a very good plan, the 
Agency for International Development (AID) did as part of the 
CPA, to build up electricity in a sensible, methodical way. But 
when you realize how it affects the overall security 
environment, that you are spending $4 billion a month on forces 
to deal with that security environment and Americans are 
getting killed and wounded in that environment, electricity has 
to be approached with an urgency that you would not normally do 
if you were just looking at efficiency.
    We are doing that already with the resources that are 
available, but this money that is in the supplemental will 
allow us to finish the job and I believe do it rapidly.
    Senator Sessions. I would just note in conclusion, Mr. 
Chairman, that the cost of an Iraqi police officer is about 
$100 a month. We can probably have 30 just on a salary basis, 
perhaps 30 Iraqis hired. Each one of them therefore would have 
a stake in the new government and would also be able to feed 
their family. So the goal of transforming this to Iraqi 
leadership is just the right thing, and I am glad to see 
Secretary Rumsfeld speaking out on that, and you too, General 
Myers. This is the right direction to go.
    General Myers. Thank you, Senator.
    Chairman Warner. Thank you, Senator. Our staff, Senator, 
has just handed me a memorandum with a breakdown of the $20.3 
billion. You asked about the electricity or energy. Energy 
infrastructure, $8.1 billion, is the largest piece. You 
mentioned public security; $5.1 billion. At 100 bucks that will 
buy a lot of policemen.
    Thank you.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    General Myers, I respect enormously what you outlined in 
terms of the requirements for victory. I want to assure you 
that the will to win does not differ from one side of this 
aisle to the other. To my recollection, all my colleagues have 
accepted the President and Ambassador Bremer and others' 
description of what constitutes the elements of victory so that 
we can get our troops out after winning that lasting victory 
that will endure and make it worth the enormous sacrifices that 
have been made.
    In terms of commitment, I think everything the President, 
the Secretary of Defense, and the Joint Chiefs have requested 
has been approved by the Senate and by Congress, with 
overwhelming bipartisan support. If there is any message to 
come out of today's events, it ought to be that, as the news 
media reported I think accurately earlier today, this latest 
request will be approved with overwhelming support. I will 
certainly support whatever the President demonstrates is 
necessary to achieve this victory.
    But with regard to patience, sir, the sense of urgency that 
I bring toward my assessment of the situation actually came 
from my time in Iraq about 6 weeks ago now. General Sanchez 
briefed us there, as did Ambassador Bremer and others, and they 
all basically said the same thing, that the next 60 to 90 days 
would be crucial to show progress toward achieving the 
conditions necessary for bringing this to a successful 
conclusion as quickly as possible.
    They said, furthermore, ``Time is not on our side and the 
failure to show progress sufficiently would be likely to have 
very serious consequences.''
    So what were those elements of victory as they outlined? 
One is getting Saddam Hussein and his two sons permanently 
eliminated from the country and preferably the planet, which 
you have achieved two-thirds of, and that is just one short of 
perfection and hopefully it will be realized very soon.
    The second was to install a successor Iraqi government as 
soon as possible. Now, when we met with Ambassador Bremer 6 
weeks ago my recollection was that he said the goal was to have 
that government established and elected by the Iraqi people 
within 6 months, by the end of the year. Now it is being said 
that it will be practically a year from now. So in terms of 
patience, again, if that is the precursor to our being able to 
extract our troops successfully, then we are talking about an 
extension there for reasons that I must say I do not 
understand.
    The third was domestic law and order, and I cannot assess 
the overall circumstances in the country. What I do know is 
that U.S. casualties were evidently up 35 percent in August 
compared to the month before. That was information gleaned by 
going into a Top Secret briefing last week and looking at a 
sheet marked ``Top Secret'' and seeing the information that had 
been reported the day before in The Washington Post, which I 
guess means I am better off reading the newspapers than I am 
going to those briefings.
    But if that information is not made available or intended 
to be made available, it is very hard for someone like myself, 
much less the American people, to make a realistic evaluation.
    I would urge that the facts be allowed to speak for 
themselves, whether they are good facts or not. No one expects 
this to go easily, but I think we have a right in Congress and, 
more importantly, the American people have a right to know what 
the real situation is.
    The fourth condition for victory was social and economic 
rehabilitation, which is still under way. That is again an area 
where I guess there are differing reports. One of my colleagues 
said earlier that they are talking about improvements in basic 
services, but that is contrary to what I have been told in 
other settings. The Wall Street Journal says today continued 
sabotage against oil pipelines and power stations has plagued 
Iraq. The U.S. Army Corps of Engineers recently did a 
helicopter survey of Iraq's high voltage distribution wires. 
Over about 700 miles they found 623 destroyed towers, up from 
fewer than 20 just after the war. Obviously, that is due to 
acts of sabotage and retaliation. But it is still of concern 
when it means that American troops have to be stationed there 
longer, and I believe their figure now of 140,000 or 138,000 
contrasts to what was expected at one point in the planning 
process of it being only about 60,000 U.S. troops needed at 
this stage.
    So those, and I know you feel more responsibility for them 
than anyone else--are the lives of our constituents' sons and 
daughters, and they are over there with their lives on the line 
and we want to figure out how to get them back as quickly as 
possible after achieving that success.
    So I hope there is no misunderstanding about the shared 
resolve. I think we would be derelict in our responsibilities 
if we did not try to explore what needs to happen and how it is 
going and what, if anything, needs to be done to make it more 
successful as soon as possible.
    Along those lines, I would just say that ``The Today Show'' 
this morning--I try to watch the television and read the 
papers--they reported that the intent of the administration is 
to provide combat pay for soldiers in Iraq, but not in other 
places such as Afghanistan or other, I would call them, combat 
areas. Is that information correct or not?
    Secretary Wolfowitz. The supplemental assumes both Iraq and 
Afghanistan, Senator.
    Senator Dayton. Those two, combat in those two areas?
    Secretary Wolfowitz. Yes.
    Senator Dayton. Thank you.
    Maybe this goes better to you, Mr. Secretary. Regarding the 
President's assertion the other night that it was a terrorist 
attack against the U.N. headquarters, has that been 
definitively established?
    Secretary Wolfowitz. It is obviously terrorism and suicide 
terrorism. It is deliberately killing innocent civilians. I do 
not think the President meant to say that we know where it came 
from precisely. There is some belief that it was Baathists, 
some belief it could be terrorists. They could be working 
together.
    I know more evidence actually in the case of Najaf than in 
the case of the U.N. bombing, but the Federal Bureau of 
Investigations (FBI) is working on both of these.
    Senator Dayton. So when the President said the other night, 
``Terrorists in Iraq have attacked representatives of the 
civilized world and opposing them must be the cause of the 
civilized world,`` he is referring to terrorists who could be 
foreign terrorists or who could be Iraqi remnants of Saddam 
Hussein's army or whatever else.
    Just one last question because my time is up here. With 
regard to Afghanistan, I note the reconstruction budget for 
Iraq is expected to cost $20 to $30 billion of expenditures 
next year. The supplemental request for Afghanistan, however, 
is $1.2 billion, I think, combined, $800 million additional and 
a quarter million from unspent funds previously. That is a 
fraction, 5 percent, less than that, of what is being 
undertaken for Iraq, and Afghanistan by many accounts is in far 
worse, more backward condition, and we are 2 years into that 
after winning that military victory and we do not even have a 
road completed from Kabul to Kandahar.
    It seems that we have underfunded that effort, and the 
international community bears that responsibility, but is it 
your assessment, sir, that we are going to approach sufficient 
effort there to show some positive results?
    Secretary Wolfowitz. Actually you put your finger on 
something that is a problem and is a concern, and it is 
operations. The road network in Afghanistan is not in our view 
being stood up fast enough, and it is an international 
community responsibility, which means it tends to get diffused 
and there is a lack of what the military would call unity of 
command, to put it charitably.
    We are in this proposal putting some money into it so that 
we can push that effort along faster. It is a bit like the 
electricity in Iraq. When you think of it as a purely economic 
development project, time is not that critical. But your point 
does not contradict the Chairman's point about patience. We 
need a sense of urgency about those things that can be fixed 
that will relieve the strain on our troops and make them safer, 
and roads in Afghanistan are one of those things, electricity 
in Iraq is another.
    The disparity you point out is an interesting one and I 
think a lot of it stems from the fact that the one country is 
just much more advanced than the other, so the requirements 
become bigger.
    Senator Dayton. If it is lack of capacity it is one thing. 
If it is lack of putting full force behind this basic 
reconnecting of the country, I think we are missing a terribly 
important opportunity.
    Secretary Wolfowitz. I would agree with you on that. In 
fact, looking at the two numbers side by side the other night, 
we said let us take another look at whether we have the balance 
right.
    Senator Dayton. Thank you.
    Thank you, Mr. Chairman.
    General Myers. Chairman Warner, can I, just 30 seconds?
    Chairman Warner. 30 seconds.
    General Myers. If you do not mind. On the point of the 
bipartisan support, clearly it is the reason we have been 
successful to date and we appreciate that, and I have made that 
I think very clear in my opening remarks. It is really apparent 
at the troop level and they know that, and I think that is why 
we are successful.
    On patience, I was referring not specifically to Iraq, but 
the broader war on terrorism. There are some things, as 
Secretary Wolfowitz said, we ought to have a terrible sense of 
urgency about because it does help our security. I do not 
disagree with what Ambassador Bremer and others have said about 
the urgency of getting the infrastructure stood up and in 
governance and so forth. That is exactly right on track.
    The last point: If there is ever anything in a briefing 
that--if you do not think we are being forthcoming, then we 
have failed, because we have made a very large effort to try to 
bring everything we have. Just like the embedded reporters; we 
knew there would be the good, the bad, and the ugly, but that 
is what the American people expect, that is what you deserve on 
this committee.
    I do not have the specifics on that case. If you can show 
it to me I would be happy to track it down.
    Senator Dayton. I will, thank you. I also would point out 
again, reading in the paper this morning about extending the 
tour of duty for reservists and guardsmen and women. Those are 
folks back home we hear from. We appreciate also, being a 
member of this committee, getting that information directly.
    General Myers. You bet.
    Senator Dayton. Thank you, sir.
    Chairman Warner. Thank you, Senator.
    Secretary Grossman. I just wanted to, if I could, just get 
one sentence in, Senator. That is, Deputy Secretary Wolfowitz 
is exactly right about the challenges to building a whole road 
network. But I think it would be fair to say on behalf of all 
of us that the people who are involved in the sector that we 
have from Kabul to Kandahar have done a magnificent job. It 
will be done by the 31st of December. They have been attacked 
here the last few days and they have really kept at this.
    So while I completely agree with what Paul says, the people 
who are out there on our side doing what we promised to do, I 
think they deserve a lot of credit, sir.
    Secretary Wolfowitz. Thank you for the amendment.
    Chairman Warner. Senator Talent, thank you for being 
patient. I think it is important that witnesses be given the 
opportunity to fully respond to these important questions, and 
that has run us over occasionally. But I appreciate your 
patience.
    Senator Talent. Thank you, Mr. Chairman. I appreciate the 
hearing.
    We have all been called on--I guess I was a little 
surprised by this--to give our opinion of the strategic 
imperative according to which we went to war. I will do it 
briefly, speaking for myself. Two years ago this Thursday we 
were attacked, and I do not think you win wars by staying on 
the defensive. You take the fight to the enemy and the enemy's 
friends. You use your power and the power of your allies 
decisively to remove your enemies and to create more friends, 
and you do that diplomatically as well, as we have tried to do 
it in the Mideast peace process.
    That is the context in which I see this engagement in Iraq. 
I think it is not only fully justified, it is necessary. We are 
going to win. We are winning. The only thing that concerns me 
is that you do not win wars if quitting becomes an option every 
time things get tough. Things are tough. I do not know if they 
are tougher than everybody expected.
    There are uncertainties in war. There is a spectrum of 
potential responses and difficulties. Some things in this war 
have been easier than I thought they were going to be and some 
things have been probably on the far side of the bell curve of 
difficulty. But you just keep going, and I have full confidence 
in this country, and I know what is going to happen if we 
persevere and I think the world is going to be a better place 
when we are done.
    Now, I have two comments. Actually, one is a comment that I 
would like you all to comment on and then one is a question. As 
I understand it, the tactical goal or the immediate goal in 
Iraq was to remove Saddam because he was a threat to us and to 
the peace, and then also create in Iraq, with the cooperation 
of the Iraqi people, a stable ally in the war against 
terrorism. Number one, is that a proper way or a thumbnail way 
of summing up the goal?
    The second part of this is I am going to give you my sense 
of where we are and then you tell me the extent to which I may 
be wrong. This again is a layperson's way of describing this. 
But if that is the goal, in the north and the southern part of 
the country we have made substantial progress towards achieving 
that goal, stabilizing it, standing up local governments, the 
whole thing. In the central part of the country what we need to 
do is get the lights turned on and continue creating an 
indigenous police force so that they can do the day to day 
guard the banks kind of thing, so that our guys can go and beat 
the tar out of the terrorists like they are doing in 
Afghanistan. That is a difficult thing and we are persevering 
in it, and that is in the central part of the country.
    Is that overall an accurate description--I grant you, it is 
not detailed--of what our goal is and how far we are in 
progress towards achieving it?
    Secretary Wolfowitz. I think it is an excellent, succinct 
description: to remove Saddam, to create a stable ally. Of 
course, the terrorists and the Saddamists want to keep us from 
having a stable ally. Most of the Iraqi people I think are 
ready to be a stable ally. I think it is correct what you 
described as the main problems that we face are in the center 
of the country.
    But a slight qualifier: We want to get the lights on in the 
whole country.
    Senator Talent. Right.
    Secretary Wolfowitz. We do not want to presume to take for 
granted the success we have had in the north and the south, 
because we cannot afford to lose there and we need to keep the 
goodwill of the people. But the people who are really out there 
killing Americans are located principally in what they call the 
Baathist triangle, between Baghdad and Tikrit and Bakuba. We 
are making real progress. We have a lot of Iraqis in that Sunni 
area who are on our side. It is not a Sunni versus Shia issue. 
It is the old regime and their terrorist allies against the 
whole country.
    Senator Talent. I would certainly not expect, if this is as 
important a goal to us in winning the war as I think it is, the 
enemy to just sit there and let us accomplish it. In fact, it 
is in a sense an affirmation of how important it is that they 
are pushing the chips on the table, if you will, and going in.
    Secretary Wolfowitz. If you read the al Qaeda Web sites, 
they very clearly get it. They view democracy as a real threat 
and democracy in Iraq as a particularly big threat.
    Senator Talent. I thought--this is a digression, but we 
have all digressed today. Prime Minister Blair said that about 
as well as it could be said in his speech to Congress, that for 
them, and for us therefore, it has to be a battle on a larger 
plane about what the world should look like, what this emerging 
post-Cold War international order should look like.
    The enemy does not want it to look like what it will be if 
we and our allies are able to exercise influence over it. That 
is just what it comes down to.
    Now, to switch gears, and then this is my last question and 
comment. For you, Mr. Secretary, and you, General Myers. This 
is an issue I have shared with you all in other hearings and 
shared privately with you. It does not deal with whether we 
ought to put more troops in now in Iraq or in the future or 
not. It is whether our overall end strength, particularly for 
the Army, is adequate for this war and our other military 
responsibilities.
    We have 485,000 troops in the active Army, 350,000 National 
Guard, a little over 200 in the Reserves. We now have about 
133,000 in Iraq and several tens of thousands in theater, and 
they are going to be there for a while, and we hope to be able 
to get them down, but we still have to make this commitment. 
Then we have the rest of the war to fight.
    I would like the two of you to share with me how the 
developments of the last 6 months or so have affected your view 
on whether the end number for the Army is adequate or whether 
it should be greater, if not necessarily structurally in more 
divisions, but just maybe rounding out some of the forces we 
now have, maybe more MPs, more civil affairs people.
    Have you had time to stop and think about what the 
configuration and the size of the Army ought to be in light of 
what we are experiencing in theater now as well as our other 
responsibilities?
    Secretary Wolfowitz. I will do that, but if I could also 
just pick up on something you said early on. We were attacked 2 
years ago by people who have made it clear that they will go 
anywhere in the world where they can to defeat us and fight us, 
and that fight is now in Iraq, though the people we are 
fighting are part of a worldwide problem. It is a worldwide 
problem that is centered in the Middle East.
    If people say this was not the right war, that we should 
have left Saddam Hussein in power, we should have left his 
killing machines running, we should have left his weapons of 
mass destruction programs running, we should have left him free 
to finance terrorism, then I think they need to say, what was 
the other course? I am not clear what it is at all. To simply 
have waited many more months, with our troops sweltering in 
Saudi Arabia and Saudi Arabia buckling possibly under the 
strain of supporting politically that kind of American 
presence, I dread to think what that would have been like.
    On the simpler questions, but very important ones: The size 
of the Armed Forces, I think it is just way too early to make a 
very expensive decision to increase the size of the Armed 
Forces to deal with what we expect is not going to be a long-
term issue. Do I know that? I do not know that. In 6 months, a 
year from now, depending on the situation in Iraq, we may have 
to come to different conclusions. But we think, as I said, that 
the problem there is finite and we are making progress against 
it.
    If that is the case, then you actually think about a 
situation later where many of our requirements are reduced. We 
have spent billions of dollars and enormous numbers of people 
deployed to Saudi Arabia and the Gulf countries and Turkey over 
the last 12 years to contain Saddam. We do not need to do that 
any more. Those air forces have gone home. The bases--we just 
took the last person out of Prince Sultan Air Base in Saudi 
Arabia. That is not only a cost saving and a reduced personnel 
saving, it is a huge reduced strain on the Saudis, who are much 
freer now to go after terrorists.
    So things change and I would say in that respect, if we are 
going to build up our forces and bring in a new capability 3 to 
5 years from now that by then we will not need at all, it would 
be a mistake.
    But on the specific strains you mentioned, I think it is 
absolutely clear that we have to re-look at the mix and that we 
cannot put all of certain elements in the Reserves, and 
particularly in limited numbers, so that people keep getting 
called back over and over again. We are looking at that set of 
issues. We are looking at it with some real urgency. Those I 
think there are near-term fixes for, I am hopeful.
    Senator Talent. But you view this as a practical question 
on which your mind is open.
    Secretary Wolfowitz. Absolutely.
    Senator Talent. I do not want the Department to think of 
the issue of end strength as linked to the transformation 
issue, so that if you increase end strength it is a confession 
transformation has failed. You can be transforming with end 
strength going up or down depending on what the missions are 
and the rest of it. You are assuring me that that is----
    Secretary Wolfowitz. Absolutely right, absolutely. You have 
to look at things from the point of view of the strategic 
context we are in and we are a Nation at war, as has been said 
over and over again. But it is not a war like World War II.
    Let me also say, because it is worth saying, that there is 
no doctrinal view of how many troops we should have in Iraq. If 
the commanders want more, I cannot say that they will get 
whatever they ask for, but I am pretty sure they will get what 
they ask for. I recall in fact when we were in Afghanistan and 
I was one of those people who wondered whether General Franks 
was asking for enough troops and we had, General Myers will 
remember, a fairly heated discussion among the three of us, and 
he convinced me that maybe he would need more later, but he 
sure did not want to ask for them now because he did not want 
to go down the road that the Soviets went down. He was right, 
and General Abizaid is adamant for much the same reasons, that 
he does not want to flood Iraq with American troops, and I 
think he is right.
    But we have an enormous sense of urgency about getting 
Iraqis out on the front lines.
    Senator Talent. I am done, Mr. Chairman. Maybe General 
Myers wants to comment, or not.
    General Myers. Just a couple of comments. Just to piggyback 
on what Secretary Wolfowitz said, in terms of the mix, it is a 
mix between Guard and active. It is also, as we have talked 
about, total numbers. For our new security environment, do we 
have enough civil affairs for what we foresee in the future, 
enough MPs, or do we have the wrong kind of forces perhaps in 
the Guard and Reserve, that we could change the kind of forces 
we need.
    That is something that is being evaluated right now, and 
you may see some of those results possibly in the fiscal year 
2005 budget, because we need to make those changes, I think, if 
we are going to make some and agree to that, we need to make 
them fairly quickly.
    The second part is that we continually run war games, for 
lack of a better term, to determine--and this is not just the 
Joint Staff; we bring in the combatant commanders, the folks 
from the Secretary's staff as well--to decide if we can fulfill 
our military commitments around the world. We have consistently 
found that, yes, we can. Where it means there is more risk, how 
long is that risk, what kind of risk is it? We try to capture 
that.
    We are in the process of doing that right now. This heavy 
commitment that we have in Iraq--Iraq is in our new defense 
strategy, is a ``win decisively.'' We are involved in a win-
decisive campaign and we have to have enough forces left for us 
to fully defeat the efforts of any resistance, and in other 
lesser contingencies and so forth, and homeland defense and so 
forth. We look at that regularly to make sure we can fulfill 
our commitments.
    Secretary Wolfowitz. By the way, the Services estimate we 
could get some 10,000 uniformed people into military jobs if we 
had, just in this coming fiscal year alone, the authority we 
are asking for from Congress.
    Chairman Warner. Thank you very much, Senator.
    I recognize that our time has not been firm, but I want 
very much to give each of these witnesses a full opportunity to 
respond, Senator Talent. The responses to your question did run 
over, but I think those responses are very important for the 
record.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony. I come to you as a 
friend, as we have discussed many times, not only in front of 
this committee but in front of the Senate Foreign Relations 
Committee, these matters. I bring to you items for your 
consideration from 17 million Floridians, of which as we were 
home, with 25 town hall meetings, I have had an opportunity to 
hear from, and I want you to hear from them.
    I believe that our Florida National Guard is the most 
professional in the country. They are well-equipped, they are 
well-trained. They are now stretched to the breaking point. 
Over half of our Florida National Guard have been activated. We 
are now in the middle of something known as hurricane season. 
You can recall the time, 1992, Hurricane Andrew. Not only did 
it call out the Florida Guard, but we had to bring Guard from 
all over the country into Florida.
    Now, the flip side of this is that we should not be handing 
a commander unacceptable or avoidable risk with a rotation plan 
that leaves gaps in his required mission areas. So as you 
devise this rotation policy and the plan, it should appear 
fair. That is what I want to talk about, because Florida's 
National Guard stepped up and we stepped up immediately. It was 
back in December that so many of our units were activated, and 
I directly participated in those. I would go to them and speak 
to them as they were activated and sent off, mostly for their 
initial staging at Fort Stewart.
    The families of those that are now still fighting have 
waited patiently, but that patience is beginning to break, and 
of course I am hearing a good bit about it. The Guard 
leadership is now being overwhelmed by the calls from the 
families for the soldiers to come home.
    The Army's rotation policy announcement yesterday 
establishes a 12-month boots-on-the-ground rotation policy for 
Iraq unless the combatant commander determines that the unit is 
no longer needed. Now, it was, interestingly, and this is one 
of the little quirks that I wanted to bring to your attention, 
reported to me and has been confirmed this morning that the 
Army has withdrawn its alert notification to the brigades in 
the Arkansas National Guard. It was reported to me this morning 
and I have not confirmed, the same thing, that it has withdrawn 
its alert notification to the brigade in North Carolina. They 
had been alerted on the 25th of July. Had they been quickly 
mobilized, as were the Florida battalions last December, they 
would probably be very nearly ready to relieve the units in 
Iraq now.
    Florida's 9 infantry companies have been attached, 
detached, and re-attached no more than 40 times to different 
units in the theater, some of which have already been 
redeployed. Soldiers of Company C, the Second Battalion, 124th 
Infantry, may be eligible to wear up to five different combat 
patches, given what units they fought with over the months. 
Although the 12 months in theater may be the right policy for 
you all to determine for units on their way to Iraq, I believe 
that it is a stretch for the units that are there now and that 
have already been through major combat.
    I do not have to tell you--but I am going to because I am 
reflecting my folks--livelihoods and civilian careers are 
inherently at risk for deployed Guard and Reserve. Despite the 
protections that we have put into the law for them, the 
conditions are never exactly the same when they get home after 
extended deployments. The longer they are gone, the higher the 
risk for them back home.
    But at the same time, I know that the Florida National 
Guard is as patriotic, as equipped, as trained, and as ready to 
serve as anyone, and they stepped up instantly, with only a 5-
day notice on deployment activation. Normally the policy is 30 
days. I am reflecting some of their frustration.
    So, Mr. Secretary, can you paint for us a picture of the 
decision process to review and approve the recommendations of 
the Services relative to rotation policies and plans, and how 
you also will ensure the near- and longer-term rotation plans 
will meet the military requirements, not only in Iraq and 
Afghanistan?
    General, then if you would comment on the challenges of an 
Iraq-Afghanistan rotation policy, begging a broader question of 
the adequacy of the Armed Forces as currently sized and 
structured.
    Secretary Wolfowitz. Senator, you have asked a lot of 
questions, which need some work. I have been digging--I ran 
into a Tennessee Air National Guard unit that had a history not 
unlike what you describe about the Florida Army National Guard.
    Senator Bill Nelson. I flew into Baghdad with Texas and 
Tennessee Guard units on the C-130s, and of course they were 
considerably concerned about when they were going to get home, 
too. They were concerned, by the way, that sometimes they were 
flying those C-130s absolutely empty.
    Secretary Wolfowitz. Well, and they are concerned I think 
about--they are incredibly willing to serve. I did not 
encounter an attitude of complaining at all, remarkably. But 
there is a question of fairness which I think is underlying 
your question. There is a burden, but is it distributed fairly, 
is it shared equally. I will try to get back to you with 
answers on the decisionmaking process. I will also try to get 
back to you with answers on whether--the specific question you 
raised, the 12-month policy should apply across the board or 
whether for those already there it should be different.
    [The information referred to follows:]

    In order to support United States Central Command (CENTCOM) 
requirements, the Army recommended that units deployed to Iraq remain 
in theater for up to 12 months before returning to their home base. 
This includes the majority of Operation Iraqi Freedom Rotation #1 (OIF 
1) units that deployed in 2003 and fought in major combat operations 
and also applies to units currently deploying to Iraq for OIF 2. If a 
unit's capability is no longer required, CENTCOM may release them to 
redeploy before they reach 12 months in theater.

    Secretary Wolfowitz. To get to the larger question, and I 
will ask General Myers to help me on this, I think what you 
describe may be extreme in the case of the Florida National 
Guard, but it is unfortunately reflective of the stresses 
throughout the Reserve and National Guard system. That is why 
we are on an urgent basis addressing this question of active-
Reserve mix. It is also why--I guess I will say it for the 
third or fourth time now, and I am sorry to do it, but--we 
really believe that a lot of these things that guardsmen are 
doing could be done today by active duty personnel who are tied 
up doing administrative and information technology and other 
kinds of tasks that are just very obviously good candidates for 
civilians.
    As we look at how to reduce the dependence on the Guard and 
Reserve for some of these functions and moving them into the 
Active Force, the only way we are going to be able to do it is 
if we can shift some of that, those functions, from the Active 
Force into the civilian workforce. It can be done. The numbers 
start at 10,000 up to 50,000 as possibly in the first fiscal 
year, and at some point you could get into, I think, six 
figures. So again, I appeal for help on that.
    General Myers, do you want to add anything?
    General Myers. The only thing I would add, Senator Nelson, 
is that I personally host a Guard and Reserve conference every 
year just so we can talk about issues like that. I am not sure 
if those issues emerged from this conference just concluded in 
the last month or so. But they are important points, because 
predictability in the lives of all our Armed Forces is very 
important. If it is more important to any component, it is 
probably in the Reserve component because they have in many 
cases employers that they have to make arrangements with as 
well.
    So we understand that. The Secretary understands that. 
Secretary Rumsfeld understands that. We need to look into this 
issue of fairness, and we will look at all the units and we 
will see how they are being done. We have taken a look--and why 
we established the rotation policy we did was to find some, if 
you will, goals for rotation that will enable us to not just do 
Iraq and Afghanistan, but also the other things that we are 
committed to do around the world.
    Part of that and part of the rotation policy is based on 
the fact that in Iraq we want to bring on as quickly as 
possible Iraqis taking care of their own security, and we have 
talked a little bit about that. So that is a piece of it, of 
course.
    We would like to make this as multinational around the 
world as we can. In Afghanistan we have already talked about 
the numbers there, but there is huge international 
participation in Afghanistan, which is extremely important to 
us; Iraq as well, other places around the world where we need 
support.
    Part of it is wrapped up in the global force presence 
policy and where we have forces stationed in the world today. 
Perhaps you could free some of those up to do other things. We 
have talked about that in terms of Korea. So those are the kind 
of deliberations--and it is not just Korea, but other places as 
well.
    So those are the kind of deliberations that we are in the 
middle of to try to do I think exactly what you want to do, is 
make sure that we are postured for the long term, for the long 
run, because, going back, Senator Dayton, this overall war on 
terrorism is going to require patience and probably a 
substantial commitment for some time to come.
    Chairman Warner. Thank you very much, Senator.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman; and thank you to 
the witnesses for hanging in there with us during this very 
important hearing.
    I remember 42 years ago when I was very young, President 
Kennedy said something that I heard President Bush echo last 
Sunday night. President Kennedy said: ``Let every nation know, 
whether it wishes us well or ill, that we shall pay any price, 
bear any burden, meet any hardship, support any friend, oppose 
any foe, to assure the survival and the success of liberty.''
    I was pleased to hear Senator Dayton mention the broad 
bipartisan support that your efforts enjoy in this body as our 
troops bear the burden that they volunteered for and which they 
are currently bearing now in Iraq so that liberty may succeed 
for the Iraqi people and also for the American people.
    But of course, the decision in Congress to go to war in 
Iraq was not universally shared, that commitment, and there are 
those who in my view seek some vindication of their lack of 
agreement for the Nation's policy for regime change in the 
subsequent hardships that our military forces have endured, and 
that is unfortunate.
    I apologize for not having been here at the very beginning 
of this hearing, but I was chairing another hearing, which I 
think is indicative of where we are in the post-September 11 
environment, and that was a hearing on the continuity of 
Congress in the event of a catastrophic event, perhaps a 
terrorist attack on this very Capitol, which indeed was 
narrowly averted on September 11 due in large part to the 
heroic efforts of civilians on a plane that were able to divert 
it to a Pennsylvania field. The very fact we are having a 
hearing about the continuity of government is a solemn 
additional reminder of the serious threats that we face.
    I just want to come out and say that I commend President 
Bush and the administration for the resolute leadership that 
has been demonstrated in the war on terror, both in Iraq and 
around the globe. I believe that everyone who is engaged in 
fighting this war, from the most junior recruit to the 
Commander in Chief, is doing a remarkable job under 
extraordinarily difficult circumstances.
    Of course, the American people understand that we are 
engaged already in a presidential election and that there are 
those who criticize the President's handling of the war in Iraq 
in order to gain political advantage. The American people, as I 
say, understand that. But again speaking only for myself, I 
find something unsavory about the comments of those who seek 
political advantage in questioning our commitment to our troops 
and our commitment to winning the war on terror.
    I believe that there is a lot to be very proud of in terms 
of what we have been able to accomplish in making sure that the 
Iraqi people will enjoy the blessings of liberty that we enjoy 
in this country. For me the fundamental question is: Are Iraqis 
better off today than they were during Saddam's regime? The 
answer is unequivocally yes. Is America a safer place today 
than it was before Saddam was toppled? I think the answer to 
that is likewise unequivocally yes.
    I had the privilege of traveling to Iraq with the chairman 
and the ranking member and other members of this committee at 
the end of June and the beginning of July. I was shocked, as 
they were, to see samples of mass graves of some 300,000 
individuals who Saddam had simply killed during his reign of 
terror. I have been shocked as well to learn of some 1.5 
million people that were simply missing and we do not really 
know where they are, whether they are dead or alive, in Iraq, 
out of Iraq, or elsewhere.
    Of course, we know today that there are those who enjoy 
religious freedom that did not enjoy religious freedom under 
Saddam's regime. Women now have basic rights. The Iraqi people 
have hope for the future that they did not have just a few 
short months ago.
    But I would like to ask, Secretary Wolfowitz, for you to 
comment on this issue. I know it has been because of the 
sabotage that we have seen on the electrical grid, the 
transmission lines in Iraq, it has been very difficult for us 
to get the message of all of our accomplishments out to the 
Iraqi people. Indeed, that was one of the things that I came 
away with on our trip, that the American people are seeing the 
drip, drip, drip of criticism of the armchair generals and the 
pundits who want to criticize everything that happens that does 
not happen in a perfect or desirable way.
    I really worry that we are not doing everything we might do 
to get the positive message out to the Iraqi people. I wonder 
if you would just speak to that issue and the challenges you 
have and perhaps some of the successes that you have seen.
    Secretary Wolfowitz. I would like to do that, but if I 
could also comment on what you said earlier, because I agree 
with you very strongly. We have an awful lot to be proud of in 
terms of what we have done for the Iraqi people, in terms of 
what we have done to make the whole Middle East safer, although 
it is a long way from safe, and what we have done to make our 
own children and grandchildren safer, although they are still a 
long way from safe.
    I think it is very important, as I said earlier, that we be 
open to criticism, that we learn the lessons we need to learn, 
but not to send out a message to our enemies that we are weak 
or that we are lacking in resolve or that we do not recognize 
what we have accomplished and how strong we are, because, 
believe me, they do know we are strong. We need to show that we 
believe it.
    It was said earlier, I think by Senator Reed, that the 
costs of this conflict were underestimated. I do not know which 
estimates he is referring to, but it seems to me that in fact, 
if you look at the various things that we feared could happen 
and quite legitimately feared--in fact, I have a list here that 
Secretary Rumsfeld drew up--it was secret at the time; I do not 
know if it is still secret--of 29 different terrible things 
that could happen with the war in Iraq. He started this list, 
he kept adding to it and adding to it and asking us to think 
about what kind of things needed to be done to prevent it.
    But there is a note at the bottom that says: ``It is 
possible, of course, to prepare a similar illustrative list of 
all the potential problems that need to be considered if there 
is no regime change in Iraq.''
    I think it was the right decision. I do think it is 
important to note that there are people who opposed the war but 
who now understand the importance of winning it, and I 
appreciate that support very much. I think that has to be said.
    But let me say that none of us who believed it was the 
right thing to do thought it would be easy. Anyone who knows 
anything about war should not ever think that war would be 
easy. But we did not start this war. We were attacked on 
September 11. We are defending ourselves, not simply by sitting 
behind walls and barriers, but by going after the enemy where 
they are.
    I will say it over again. Senator McCain has said it, the 
President has said it, General Abizaid has said it. Today the 
central battle in the war on terrorism is the struggle to build 
a secure and free Iraq, and the terrorists know it. I think 
most of our people know it. Certainly our men and women who are 
out there fighting know it. We have to win it.
    Part of winning it now, to get to your specific question, 
is indeed the information campaign. General Abizaid has five 
I's: better intelligence, more Iraqis, more 
internationalization, better infrastructure, and better 
information, meaning in the sense of media and getting the 
message out.
    We are at a number of disadvantages. One is there is a lot 
of very sophisticated poison out there, from the local media in 
that part of the world. It is pretty hard to fight that. We 
have to fight it. We had some severe physical infrastructure 
problems, which I think are largely corrected. We now cover 
most of the country.
    The big challenge now is getting the right programming, and 
it is a bigger challenge there because we are dealing with 
people, if you do surveys--I do not know the percentages 
exactly--but most Iraqis rely on rumor for their information 
because in their history rumor has been much more reliable than 
anything you heard on state television. We have to get 
programming in Arabic. We may be good at media here, but we are 
not naturally skilled in Arabic media.
    But Ambassador Bremer has brought a new man out there, Gary 
Thatcher, to do for the media what Bernie Kerik has done for 
the police, if I could put it that way, somebody I think of 
real star quality, who has a very ambitious strategy put 
together. Just as we are looking at how we can accelerate 
fixing the electricity by putting money against a good program, 
I think we have a good program now on the media side that 
deserves money against it, and that is indeed part of what we 
are asking for out of the supplemental. The importance of it 
cannot be exaggerated.
    But let me make one last comment on this subject, because I 
saw it in connection with the Najaf bombing. We are at a 
fundamental disadvantage. It is what they call asymmetric 
warfare, because we do not believe in putting out untruth. Our 
enemies will put out untruths the minute something happens. We 
have people alleging that Americans bombed a mosque in Falujah. 
We know it was wrong. It took us 3 days just to find out the 
facts, though. Until we had the facts, the best media network 
in the world could not counter the lies.
    One of the things we are talking about is just within our 
system, among the intelligence people and the military people 
who know facts, is to appreciate the importance of getting that 
information, not just to a tactical level, but to a level where 
it can be used in an effective media campaign also.
    Senator Cornyn. Thank you. Let me just say in wrapping up 
that I was very pleased to see that the Arab League recognized 
the delegate, the foreign minister from the Iraqi Governing 
Council, as the legitimate representative of the Iraqi 
government, and see that as an important milestone.
    Secretary Wolfowitz. It is a huge breakthrough and it is 
the result of real teamwork between Ambassador Bremer and our 
State Department colleagues.
    Senator Cornyn. It was very good news.
    In conclusion let me just say, Mr. Chairman, that I think 
we all know that there are obstacles to overcome and there will 
be setbacks along the way, but I hope that the politics of the 
moment do not drive criticism that will only serve to undermine 
the war on terror and tend to undermine American resolve.
    I wonder what people must be thinking at this point. 
Certainly not that we should cut and run or that we should 
leave the Iraqi people with only half of our promise fulfilled, 
the promise that we made to them that they would enjoy the 
blessings of liberty. Certainly I know that we will all agree 
that we owe our men and women in uniform our unequivocal 
support.
    Our troops, I am convinced, have the will to win. I hope 
our politicians have that will to win as well.
    Thank you very much.
    Secretary Wolfowitz. Thank you, Senator.
    Chairman Warner. Senator, thank you. That is an excellent 
statement on which to end this very important session of the 
Armed Services Committee.
    I am pleased to note, together with my ranking member, that 
22 Senators participated in this hearing today. We had 
extensive colloquies between the Senators and our distinguished 
panel of witnesses. I wish to commend each of you. You 
presented a strong message and you responded, I think, very 
thoroughly to the questions of the Senate.
    General, I particularly want to thank you. I had an 
opportunity to visit at length with you yesterday and we talked 
about your experience, which goes back to Vietnam, which was 
another troubled era in the history of our country. But I think 
today was an example of how responsible the executive branch is 
informing the legislative branch and hopefully, and I think I 
am optimistic, the legislative branch is going to respond to 
the request of our President with regard to the support that we 
need to fulfill the missions and to do everything we can to 
protect the men and the women of the Armed Forces as they 
undergo the continuing burdens, together with their families, 
of these conflicts. That includes Liberia, where again there 
are 2,300 marines under the command of an Army two-star 
general, so a wonderful example of jointness, General Myers.
    General Myers. Yes, sir.
    Chairman Warner. These are very significant moments in the 
history of this country and I think our government 
collectively, the two branches, are working in a responsible 
way to bring about fulfillment. As was said several times by 
many, what we do in these two conflicts will establish the 
direction of the world in terms of its ability to deal with 
terrorism, not just for years but for generations to come.
    So I thank you.
    Senator Dayton. Mr. Chairman, if I may just thank you for 
your excellent conduct of this hearing, and say I would prefer 
your wisdom and discretion over any stopwatch any day of the 
week. Thank you.
    Chairman Warner. I think in some instances I recognized my 
good friends on the right. Do not worry about that. But time 
and time again, at the conclusion of a Senator's period there 
were important responses in which our witnesses brought 
information which was essential to complete the colloquy. 
Particularly, General Myers, if I ran over, by golly, it was 
your fault. But I will take the heat.
    General Myers. You bet, it is my fault.
    Chairman Warner. I will take the heat.
    General Myers. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Dayton, and thank you, 
Senator Levin.
    Senator Levin. Just one quick comment. Let me thank our 
witnesses. I think what you heard, I surely feel, is that there 
are differences as to how best we can succeed in defeating 
terrorism around the world and here at home. There are healthy 
differences as to how best to succeed. There are no differences 
as to whether we must succeed. That goal is shared by all that 
I know of in the Senate and I think by all Americans.
    The constructive criticism, which has been forthcoming, I 
hope is viewed as exactly that, as a healthy earmark in a 
democracy of what we are all about. I hope that everyone who 
watches this around the world will say, halleluja, these folks 
here are trying to succeed in the war on terrorism, but they 
are more than willing to speak out as to how best to achieve 
that. That is what this body has always been about, I hope 
always will be about, and I think that you have expressed your 
understanding of that, all of you, this morning, that that is 
how you have taken comments from this panel this morning.
    Finally, on the information side let me just quickly say, 
and I think the rest of us who took that one trip together 
remember very vividly that getting information to the people of 
Iraq about what is going on on the positive side is absolutely 
critical. We made that point on the ground in Iraq 2 months 
ago.
    We made that point when we got back here. We actually have 
asked for those tapes to see what is going forward to the 
people of Iraq on the television channel that we control. We 
cannot control Al-Jazeera. We can control our own television 
channel. We have urged the administration to put Iraqi people 
speaking in Arabic who have positive things to say about our 
trying to get water systems back, our trying to get the 
electricity system back, our getting schools back and going 
again, and how it is the enemies, their enemies, who are 
attacking those progressive efforts on our part.
    We have urged the administration to get those messages out, 
not from our people speaking, not talking heads of Americans on 
our channel, but Iraqis talking to Iraqis about what we are 
trying to do, what our soldiers and our marines and everyone 
else are trying to do in Iraq.
    Secretary Wolfowitz. I think it can also stimulate us to 
get our people to perform better, too. So I am glad to work 
with you on that.
    Senator Levin. Thank you.
    Chairman Warner. You mentioned the other day when General 
Abizaid was here--and it is a follow-on because Senator Cornyn 
on that trip to Iraq brought up this subject, as you did today. 
You indicated in our discussions here a week ago that you 
needed to do more in that area, and you have agreed today to do 
just that.
    Senator Talent. Mr. Chairman?
    Chairman Warner. Yes?
    Senator Talent. I did not want the hearing to close leaving 
uncontested on the record Senator Nelson's comment that the 
Florida National Guard was the best in the country. I saw a few 
eyebrows raised around the table and, as good as the Florida 
National Guard is, I do not want to leave the record showing 
that I agree with that comment. [Laughter.]
    Senator Levin. As a matter of fact, I am glad Senator 
Talent mentioned that, because in that one regard I think there 
is total disagreement on this panel. [Laughter.]
    Chairman Warner. Thank you, Senator.
    Thank you very much. We are adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

                            OPERATIONS TEMPO

    1. Senator Inhofe. Secretary Wolfowitz, I understood during the 
hearing that the Department of Defense does not want any additional 
troops in Iraq. I understand the desire to limit the size of the 
footprint currently in country. However, I don't think my concern was 
fully understood. I am concerned about the current strain on the Guard 
and Reserve component. What can be done to reduce the strain on the 
Guard and Reserve?
    Secretary Wolfowitz. On September 26, 2003, we had about 166,039 
Reserve component personnel mobilized in support of Operations Noble 
Eagle/Enduring Freedom/Iraqi Freedom. This number represents about 14 
percent of the RC force down from a maximum of 218,000 or 18 percent at 
the peak of operations on April 29, 2003. The Department is reducing 
the number of Guard and Reserve in theater as operational requirements 
allow and reducing the pressure on the Guard and Reserves in several 
ways. Efforts are currently underway to find the right balance to meet 
the challenges of our country while preserving this valuable resource--
our people. To alleviate the strain on the Reserves, Active/Reserve 
Force mix issues are being addressed in the fiscal year 2004 budget and 
more will be done in the fiscal year 2005 and fiscal year 2006 budgets. 
Some examples include:

          1. Moving active and Reserve capabilities within and between 
        warplans to reduce involuntary mobilization during the early 
        days of a rapid response operation.
          2. Implementing various innovative management techniques to 
        enhance volunteerism.
          3. Expanding the use of reachback to reduce the footprint in 
        theater through virtual connectivity to CONUS locations.
          4. Streamlining the mobilization process to provide adequate 
        notification and reduced mobilization timelines.
          5. Using alternative manpower resources, such as contractors, 
        civilians, or coalition forces, or mitigating shortfalls 
        through technology when appropriate.

    Additionally, the Department has in place a survey program that 
continuously reviews family and employer issues and concerns to 
determine whether adjustments to policies are needed.

    2. Senator Inhofe. Secretary Wolfowitz, do you think the current 
size of the Army should be increased from 10 to 12 divisions, not only 
to relieve the strain on the Guard and Reserve, but also on the 
rotation of troops from Iraq and to address other worldwide 
commitments?
    Secretary Wolfowitz. First, let me emphasize that increasing end 
strength is not a near-term solution for relieving strain on our Guard 
and Reserve units. It takes several months to recruit, train, and 
adequately equip newly formed units. The Army leadership is thoroughly 
examining ways to relieve current stress on our units and better align 
its active and Reserve capabilities to support current operations in 
Iraq, Afghanistan, and the global war on terrorism.
    We are not sure if the current pace of military operations will 
continue for the near future. Adding more end strength is a costly 
endeavor for our taxpayers, especially if the use of our military 
declines in the coming months. It is imperative that we continue 
pursuing ongoing initiatives. At the completion of these efforts, if it 
is determined that additional end strength or divisions are needed, it 
will be DOD's responsibility to recommend such adjustments to the 
President. 

    3. Senator Inhofe. Secretary Wolfowitz, what can be done 
immediately, within the next 6 months, to relieve the strain on the 
active, Guard, and Reserve?
    Secretary Wolfowitz.

        <bullet> The Department has taken several measures to reduce 
        the stress on troops deployed in support of Operations Enduring 
        Freedom and Iraqi Freedom. To that end, rotation policies, 
        rest/recuperation programs, redistribution of specialties, and 
        extended childcare operations are among tools the Department 
        intends to use to alleviate the impact of deployments.
        <bullet> The Operation Iraqi Freedom rotation policy will 
        provide greater certainty and stability for our deploying 
        service members.
        <bullet> The Department has recently announced a rest and 
        recuperation (R&R) program that would provide 15 days leave for 
        those expected to serve at least 1 year in contingency 
        locations in direct support of Operations Enduring Freedom and 
        Iraqi Freedom. At steady state, as many as 800 service members 
        at a time will depart to Frankfurt or one of four locations 
        within the U.S. from which they can further travel to a 
        destination of their choice. In a March 2003 Defense Manpower 
        Data Center survey, respondents indicated that some of the best 
        stress reducers included time with family and friends.
        <bullet> Our low density/high demand (LD/HD) troops have been 
        under a very challenging deployment schedule. They provide 
        intelligence, command and control, special operations, search 
        and rescue, and air defense support to our combatant 
        commanders. The Services have developed a stress list to 
        identify the LD/HD specialties and realign 3,704 authorizations 
        from the 42 least stressed to the 15 most stressed career 
        fields. Even more important, the Department is conducting an 
        overall review of military billets to determine which could be 
        affected by non-military sources. This would allow even more 
        people to flow to the LD/HD career fields. Our goal is to 
        eliminate today's LD/HD issues.
        <bullet> On the home front, the Department has expanded 
        childcare operations and subsidies to meet the increased needs 
        of troops maintaining stateside bases. We are also standing up 
        family assistance centers to provide 2,417 telecommunications 
        access to deployed family members.
        <bullet> Other steps to relieve the strain on the Active, 
        Guard, and Reserve Forces include: use of coalition forces, 
        host-nation support, use of trained Iraqi Nationals, civilian 
        contracted labor, and items that provide technical solutions 
        for security both at CONUS and OCONUS locations.

    4. Senator Inhofe. Secretary Wolfowitz, how many troops could we 
dedicate to Korea if required with the current number of troops in 
Iraq?
    Secretary Wolfowitz. Commander, U.S. Pacific Command (PACOM) and 
Commander, U.S. Forces Korea are confident they have the forces in 
theater and readily available to deter or, if necessary, defeat any 
foreseeable North Korean belligerence. However, operations in the U.S. 
Central Command (CENTCOM) area of responsibility (AOR) have put a 
higher premium on certain low-density, high-demand assets, and made the 
task of decisively defeating North Korean aggression somewhat more 
difficult. Military planners, currently scheduling force rotations for 
Iraq and Afghanistan, are working hard to ensure the United States has 
sufficient forces available to address any PACOM contingencies. Due to 
existing operational requirements, any major contingency in the PACOM 
AOR could require some forces to be deployed with less than ideal 
recovery time following CENTCOM's AOR duty.

    5. Senator Inhofe. Secretary Wolfowitz, how many deployable troops 
would be available if the operations in Kosovo, Bosnia, the Sinai 
Peninsula, and Okinawa were reduced?
    Secretary Wolfowitz. The United States currently has slightly over 
2,000 military personnel deployed in support of the NATO mission in 
Kosovo and approximately 1,600 deployed to Bosnia in support of the 
NATO mission, 800 in the Sinai, and 11,000 in Okinawa.
    Since last October the Department of Defense has reduced the force 
presence in Kosovo by over 2,000 soldiers and in Bosnia by nearly 500 
soldiers. The forces in Okinawa are forward-based to be able to rapidly 
respond to crises in that part of the world. DOD worldwide force 
presence is constantly evaluated to balance U.S. global commitments and 
the risk to U.S. interests against the need to support current 
operations. The Department of Defense is considering all options 
regarding its worldwide force structure as part of the current force 
rotation deliberations.

    6. Senator Inhofe. Secretary Wolfowitz, how many deployable troops 
would be available by converting military to civilian positions?
    Secretary Wolfowitz. The number depends on the results of reviews 
now ongoing. The Department plans to convert military in functions such 
as law enforcement, personnel support, installation management, 
administrative support for recruiters, and training development. The 
converted military will be used to, among other things, provide light 
infantry and additional high demand capabilities such as military 
police. The Department is reviewing the potential use of supplemental 
funds for this purpose. The number of military conversions possible and 
options for how to best utilize these resources is under review.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy

                             TROOP SUPPORT

    7. Senator Kennedy. Secretary Wolfowitz, what is the administration 
including within the supplemental request for our deployed troops that 
will assist them to overcome some of the financial difficulties 
associated with protracted deployments?
    Secretary Wolfowitz. The supplemental requests funding for enhanced 
special pays, including Imminent Danger Pay (IDP), Family Separation 
Allowance (FSA), and Hardship Duty Pay (HDP) for Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF) deployed personnel 
in theater or in direct operational support. The fiscal year 2003 
Emergency Wartime Supplemental Appropriations Act (P.L. 108-11) 
increased IDP temporarily by $75 per person per month (from $150 to 
$225 per month) and FSA by $150 per month (from $100 to $250 per 
month), effective from October 1, 2002 through September 30, 2003. The 
Department intends to continue paying IDP and FSA at these increased 
rates through December 31, 2003.
    Beginning on January 1, 2004, the Department's plan is to begin 
paying an additional $225 per month in HDP to military personnel 
serving in OIF/OEF in a combat zone. This would maintain the same level 
of special pay as IDP and FSA, via increased rates HDP. Further, it 
would increase the special pay amount for members without dependents, 
who are serving in those same combat zone locations, by $150 (these 
latter members received a $75 increase in special pay only via IDP) as 
a result of Public Law 108-11, whereby married members serving 
alongside them had received a total increase of $225 (an additional $75 
in IDP and an additional $150 in FSA).
    Moreover, by funding incremental costs associated with the global 
war on terrorism, the supplemental will obviate the need to divert 
funds from the regular annual Department of Defense budget. This will 
help us sustain good quality of life and support for deployed troops 
and their families.
    The Department needs greater flexibility in executing appropriated 
funds so that it can address its most pressing requirements, some of 
which would be ways to relieve the strain on deployed forces. To that 
end, the Department urges congressional approval of the supplemental's 
request for authority to transfer up to $5 billion between 
appropriations.

    8. Senator Kennedy. Secretary Wolfowitz, are there any funds set 
aside for supporting families of deployed members, such as fully 
funding the Marine Corps' highly successful One Source program and 
expanding it across DOD, and if so, how much is included? If there are 
additional funds for expanding the One Source program, how far will 
this go toward making the program available to all military families?
    Secretary Wolfowitz. Yes, we have $20 million to support family 
members of deployed service members in the fiscal year 2004 
supplemental request.
    We have funding in the fiscal year 2004 President's budget request 
to expand military One Source across all Services.

    9. Senator Kennedy. Secretary Wolfowitz, are any funds identified 
to support expanded demands on the Defense Health Program that result 
from the growth in eligible beneficiary population precipitated by 
Reserve personnel being activated?
    Secretary Wolfowitz. Yes. The funds identified for the Services 
listed in the DHP section of the supplemental request represent funds 
to support the health care requirements of activated Guard and Reserve 
personnel and their family members. The projected requirements are the 
product of the projected number of full time equivalent National Guard 
and Reserve personnel activated for the global war on terrorism during 
fiscal year 2004 multiplied by the per capita rate for health care 
costs, which is $2,689 in fiscal year 2004. These funds will support 
the cost of health care provided to activated National Guard and 
Reserve personnel and their family whether the care is provided by 
military treatment facilities or purchased from the private sector. The 
Service-specific distribution is provided below.

  Army...............................................     $400,100,000
  Navy...............................................        5,700,000
  Marine Corps.......................................       18,000,000
  Air Force..........................................      101,400,000
                                                      ------------------
    Total............................................     $525,200,000
 

                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                        OVERSEAS BASING STRATEGY

    10. Senator Akaka. Secretary Wolfowitz, when will this committee 
receive the results of the overseas basing strategy that is being 
developed by the Joint Chiefs of Staff in conjunction with the Under 
Secretary of Defense for Policy to support current and future U.S. 
defense requirements?
    Secretary Wolfowitz. As the President recently noted in a 
statement, we are intensifying our consultations with Congress and with 
our friends, allies, and partners on our overseas defense posture 
review. We have shared detailed outlines of proposed changes with this 
committee staff and others, and we will continue that process. No 
decisions have been made.

    11. Senator Akaka. Secretary Wolfowitz, have there been any interim 
decisions made or steps taken toward any change in our overseas forces 
either by the commands or the military departments while the overall 
basing strategy is being developed?
    Secretary Wolfowitz. There have been no decisions to change our 
overseas posture. We will consult with Congress and our allies and 
friends to ensure that our decisions support our transformational and 
operational needs with comprehensive and affordable actions.

    12. Senator Akaka. Secretary Wolfowitz, when will we see basing 
decisions reflected in the budget? In further fiscal year 2004 
revisions, or in the fiscal year 2005 request?
    Secretary Wolfowitz. We anticipate decisions on overseas defense 
posture to be made during 2004, with initial budgetary implications 
included in the fiscal year 2006 budget proposal. We will, of course, 
stay in close consultations with you throughout this process.

    13. Senator Akaka. Secretary Grossman, the Department of Defense is 
in the process of developing a comprehensive overseas basing strategy 
to support current and future U.S. defense needs. To what degree have 
you been consulted by either the Office of the Secretary of Defense, 
the individual military departments, or the combatant commands in their 
process of developing this strategy?
    Secretary Grossman. We are in the early stages of a senior 
interagency review, in which we are working closely with the Department 
of Defense in particular to develop the best possible strategy for U.S. 
force posture overseas.

    14. Senator Akaka. Secretary Grossman, how would the State 
Department typically be consulted or involved in this decision process?
    Secretary Grossman. The State Department's role in the process will 
be to provide our expertise and to assess options and their foreign 
policy implications of changes to our posture. We will also be deeply 
involved in consulting with allies, partners, friends, and other key 
countries on our plans as part of the process. Together with the 
Department of Defense, we will also consult with Congress. Finally, we 
will play a key role in obtaining, negotiating, and implementing any 
new or modified agreements central to the transformation.

                   INTERNATIONAL PEACEKEEPING TROOPS

    15. Senator Akaka. Secretary Wolfowitz, the Liberian operation is 
an example of an international peacekeeping operation that relies 
mainly on troops from developing countries to ensure stability. We are 
relying on many of these developing country troops for the current 
operation in Iraq and may end up relying on many more. These troops 
often lack the resources, training, and motivation of our own troops. 
They are underpaid and ill-equipped. Corruption and poor command and 
control often affect their capability. Have any of these problems 
affected the current troop deployment by West African states in 
Liberia?
    Secretary Wolfowitz. The limitations of developing countries to 
contribute to international peacekeeping operations (PKO) in general 
are well known, but our past and present programs of support seek to 
address these limitations. The U.S. pre-positioned equipment in 
Freetown, Sierra Leone, and U.N. pre-positioned equipment in Brindisi, 
Italy, address many of the vehicle, communications, and basic equipment 
shortfalls existing in developing countries for effective participation 
in PKO. In Liberia, U.S. PKO and Foreign Military Financing funding 
were used to procure additional necessary equipment for deploying West 
African militaries. Past training efforts, such as the U.S. Africa 
Crisis Response Initiative, Operation Focus Relief, and International 
Military Education and Training programs have helped to leaven West 
African forces with better-trained personnel. Regarding leadership and 
motivation, these forces are motivated, generally experienced in 
peacekeeping, and have good leaders. West Africans do not lack in 
motivation or peacekeeping experience, only resources. Their readiness 
for international PKO was confirmed by the U.N. assessment that all 
Economic Community of West African States Mission in Liberia (ECOMIL) 
troop contributors would be accepted for the U.N. Mission in Liberia.
    A review of ECOMIL results suggests this operation was highly 
successful, albeit with significant U.S. logistics assistance and staff 
mentoring. With continued security assistance and training focused on 
enhancing peacekeeping capacity, the militaries of developing countries 
do make an important contribution to international PKO.

                          CONTRACTORS IN IRAQ

    16. Senator Akaka. Secretary Wolfowitz, General Mahan recently 
claimed that Army forces were unable to get necessary support in some 
areas in Iraq because contractors refused to go into some of the most 
dangerous areas. This is of great concern, particularly if DOD intends, 
as is reported, to increase its reliance on non-governmental 
contractors. How is DOD valuing the operational risks involved with 
increasing contractors on the battlefield in its analyses of whether 
additional military positions should be outsourced?
    Secretary Wolfowitz. The DOD (and Army specifically) has several 
policy documents that describe how to design long-term contractual 
support vehicles that consider operational risks of outsourcing, plan 
for specific contingencies, and execute contingencies in which 
contractors play an active role. They do a good job of addressing the 
risks associated with using contractors on the battlefield. Theater 
planning by combatant commanders also addresses risk and many of the 
issues that arise when using civilian contractors to better prepare the 
Joint Task Force commander and mitigate the risks in advance. Although 
risk assessment approaches vary among DOD components, all approaches 
call for effective risk assessment on the use of contractors on the 
battlefield and none do anything that jeopardize our warfighting 
capability.
    In light of the increasing use of contractors on the battlefield, 
the DOD has been working with the RAND Arroyo Center to further examine 
our decisionmaking and risk assessment processes affecting use of 
contractors and to recommend improvements. Interim findings from the 
RAND effort indicate that recent Army doctrine has effectively captured 
the conceptual risks relevant to using contractors and choosing between 
contract and organic sources and that Army doctrine on risk assessment 
provides a reliable framework for improving Army sourcing decisions. 
RAND further adds that the challenge now is to transform this doctrine 
into practice by training our personnel in the subtleties of risk 
analysis relevant to sourcing decisions.
    The challenge for commanders at the operational level is how to 
make the most effective use of contractors and to balance the increased 
capabilities brought by contractors with the added challenges. 
Commanders evaluate each function, define the acceptable level of risk, 
and balance the mix of military and contractor support accordingly. 
When using civilian contractors, commanders don't necessarily face more 
risks, but they do face different risks. These benefits and risks must 
be placed in perspective, properly assessed, and dealt with. For 
example, use of contractors may actually reduce operational risk 
because the contractors represent capabilities, or increments thereof, 
that otherwise may not be available to commanders. However, in 
accepting that contractor's increased capability, the commander must 
assess the increased force protection associated with the contractor's 
presence.

                               HEZBOLLAH

    17. Senator Akaka. Secretary Wolfowitz, in testimony before this 
committee earlier this year, the Director of Central Intelligence, 
George Tenet, said that the Hezbollah is a ``more capable 
organization'' than al Qaeda ``with a potential for lethality that's 
quite great.'' General Sanchez was quoted over the weekend as stating 
that Hezbollah fighters are now coming into Iraq to attack Americans. 
If true, this would be, I believe, the first time that this State-
sponsored terrorist organization has threatened the United States 
directly. Are these reports true and could you comment on the danger 
this organization poses, not only to our troops in Iraq but also to the 
American homeland?
    Secretary Wolfowitz. Director Tenet's sentiments were echoed last 
year by Deputy Secretary of State Armitage, who described Hezbollah as 
the terrorist ``A Team.'' We agree with both the DCI and the Assistant 
Secretary. Hezbollah--an organization supported and nutured by Iran--
remains the most capable terrorist organization in the world. It is 
well funded, highly motivated, and professional. Although its stated 
raison d'etre is Lebanon and the ``liberation'' of Israel-occupied 
lands, Hizbollah is a terrorist organization of global reach--a reach 
that includes the United States. In 2000, for example, law enforcement 
authorities interdicted a Hezbollah fundraising operation based out of 
North Carolina. Anti-U.S. operations sponsored or assisted by 
Hezbollah, should they happen in Iraq, would not be unprecedented. 
Hizbollah was responsible for and/or implicated in: the destruction of 
the U.S. Embassy in Beirut in 1983 which killed 17 Americans; the 
killing of Navy Diver Robert Stethem aboard TWA Flight #847 in 1985; 
the destruction of the U.S. Marine barracks in 1984, in which 241 
Americans were killed; and the blast at Khobar Towers then in 1996 
which killed 19 Americans. General Sanchez' comments on Hezbollah 
presence in Iraq also are true. Hezbollah constitutes a clear and 
present danger to U.S. and Coalition Forces in Iraq, and elsewhere.

                              INTELLIGENCE

    18. Senator Akaka. Secretary Wolfowitz, so far we have not 
discovered the weapons of mass destruction that posed an imminent 
threat to the United States. Indeed, it appears now that our 
intelligence was less than definitive about the existence of these 
weapons and that this assessment was perhaps not clearly understood. 
The Washington Times in a September 3 article states that ``Senior U.S. 
officials, including Deputy Defense Secretary Paul Wolfowitz and Deputy 
Secretary of State Richard Armitage, conceded in recent weeks that the 
Bush administration failed to predict the guerrilla war against 
American troops in Iraq.'' The question I would like to ask you, and 
you may have to answer this question in a classified response, did our 
intelligence fail to predict a guerrilla war or the post-war problems 
that have surfaced in Iraq?
    Secretary Wolfowitz. The administration did not claim that Iraq's 
weapons of mass destruction posed an ``imminent threat to the United 
States.'' The President called it a ``grave and growing danger.'' 
Nothing in the Iraq Survey Group (ISG) interim report detracts from 
that statement. Rather the ISG report confirms that Saddam was 
deceiving the U.N., violating 12 years worth of U.N. Security Council 
Resolutions, hiding a network of biological weapons laboratories, and 
developing prohibited longer-range missiles.
    Intelligence is hardly ever ``definitive.'' As chief U.S. arms 
inspector David Kay has said, ``[W]hatever we find will probably differ 
from pre-war intelligence. Empirical reality on the ground is, and has 
always been, different from intelligence judgments that must be made 
under serious constraints of time, distance, and information.''
    Governments make decisions based upon the best information 
available at the time. The ISG interim report has not undermined the 
credibility of the intelligence on which we, the Coalition, and the 
United Nations based our judgments. The ISG report is not final and we 
look forward to the conclusion of the teams work.
    With respect to anticipating post-war developments in Iraq much of 
our planning effort was directed at dealing with potential disasters 
that were averted or did not occur. There was no refugee crisis, no 
mass starvation, no epidemics, very little destruction of the oil 
infrastructure, and no use of weapons of mass destruction--in part 
because of the speed and unexpectedness with which our military 
operations unfolded.
    Events that we did not fully anticipate did pose challenges during 
the post-war phase:

        <bullet> The extent to which the Iraqi government would simply 
        collapse in the absence of Saddam's terror to sustain it.

                <bullet> When the Saddam regime collapsed, 17 of the 21 
                Iraqi ministries simply evaporated, leaving nothing and 
                no one to work with.

        <bullet> The extent to which Saddam had allowed the 
        infrastructure to decay, while he devoted resources to armed 
        forces and palaces.

    That said, intelligence assessments of the post-war situation did 
include a broad range of possibilities. Among them were reports of the 
distribution of arms to regime loyalists. 

    19. Senator Akaka. Secretary Wolfowitz, did you see intelligence 
assessments of post-war problems?
    Secretary Wolfowitz. Yes, I did see such assessments of possible 
post-war problems. In part we based the planning referred to in our 
previous answer (question #18) on information provided in these 
assessments.

                           ELABORATE CROSSBOW

    20. Senator Akaka. General Myers, it is my understanding that the 
Joint Staff has been coordinating an exercise or planning effort called 
Elaborate Crossbow. I have heard various references to the results of 
these deliberations, but the scope and purpose of this effort is not 
clear to me. Can you describe exactly what Elaborate Crossbow is, what 
issues it covers, and what happens with the results of the analyses?
    General Myers. Elaborate Crossbow is one of a number of seminar war 
games the Joint Staff conducted to address different issues concerning 
our global commitments. The results of these seminars and other efforts 
help to shape our operational thinking and planning as we work with the 
combatant commanders and Services to prepare for the future.

                      INTERNATIONAL UNITS IN IRAQ

    21. Senator Akaka. General Myers, does the United States intend to 
provide any long-term support to the multinational divisions in Iraq?
    General Myers. Currently the United States has contracted, 
established, and is funding a Logistical Civil Augmentation Plan 
(LOGCAP) in Iraq that provides basic logistic support to coalition 
forces. The LOGCAP is being used to provide logistic support for the 
Multinational Division-Central South, (MND-CS) in support of operations 
in Iraq. Some of the areas covered by this contract are: leased 
vehicles, maintenance of leased vehicles, feeding, lodging, fuel, power 
generation, and morale welfare and recreation for the forces assigned 
to the MND-CS.

    22. Senator Akaka. General Myers, do we expect U.S. forces to be 
attached to or associated with international units to provide them with 
logistics, training, or other support on a routine or regular basis? If 
so, how many United States forces are projected to be involved?
    General Myers. Currently, there are U.S. units working alongside 
coalition partners. In the Polish sector (Central South), we support 
their efforts with two military police battalions [deleted], a signal 
battalion providing communications support [deleted], one Special 
Forces company [deleted], and four civil affairs battalions conducting 
civil-military operations [deleted]. In the U.K. sector (southeast), 
the United States currently has two civil affairs brigades [deleted].

    23. Senator Akaka. General Myers, how much in-kind support do we 
plan to provide to multinational forces? It is my understanding that we 
are providing some forces with vehicles, night vision goggles, and 
other equipment. I would like to know how we intend to ensure the 
continued readiness of U.S. units that are giving up current or planned 
equipment to foreign units.
    General Myers. Utilizing Department of State Peacekeeping Operation 
funds, we have procured approximately $43 million of personal equipment 
such as night vision goggles, desert uniforms, body armor, and tactical 
radios for coalition forces in the Polish-led MND-CS. Vehicles required 
by this division are being leased commercially through the Logistical 
Civil Augmentation Plan with costs paid through the $1.4 billion DOD 
supplemental for Iraqi operations. The equipment being provided to the 
MND-CS is not being diverted from operational stocks intended for U.S. 
soldiers supporting operations in Iraq. Some equipment with long 
procurement lead-times, such as night vision goggles and radios, have 
been loaned temporarily to the MND-CS until the procured equipment 
arrives in theater by mid-November 2003. Similarly, certain vehicles 
are being temporarily loaned until vehicles leased from commercial 
sources are delivered in the same timeframe.
    The U.S. commanders on the ground in Iraq have not indicated that 
these temporary loans or procurement of these items have caused any 
operational impact to U.S. forces in Iraq. When all procured equipment 
and leased vehicles are distributed to the MND-CS, all loaned U.S.-
owned equipment and vehicles will be returned to U.S. units. With 
vehicles and other equipment required by the MND-CS being in place by 
mid-November, we anticipate very little loaning of U.S.-owned equipment 
to multinational forces in the future.

                            ATTACKS IN IRAQ

    24. Senator Akaka. General Myers, with casualties increasing in 
Iraq, could you speak to the level of sophistication and the number of 
attacks?
    General Myers. [Deleted.] These are conventional weapons being used 
in conventional ways, and do not reflect an increase in sophistication. 
[Deleted.]
    [Deleted.]

    25. Senator Akaka. General Myers, are the bombs being used in these 
attacks now more sophisticated and has the number of these attacks 
increased?
    General Myers. [Deleted.]

                   STATE DEPARTMENT PERSONNEL IN IRAQ

    26. Senator Akaka. Secretary Grossman, there have been press 
reports suggesting that Ambassador Bremer is understaffed in Iraq and 
that because of security concerns, even these personnel are restricted 
in their access to what is happening on the ground. Could you provide 
us with an estimate of how many State Department personnel are assigned 
in Iraq and comment, if you can, on their ability to get out in the 
field and be Ambassador Bremer's eyes and ears?
    Secretary Grossman. As of October 24, there are 59 State Department 
personnel on the ground in Iraq with another 65 in the pipeline. The 
Department was asked by the Coalition Provisional Authority to fill 110 
positions total, and we are working to do so. It is a very fluid 
situation on the ground in Iraq. State Department officers assigned to 
Iraq, and all personnel at the Coalition Provisional Authority, are 
doing admirable work under tough circumstances. Security measures have 
not kept CPA personnel from doing their job. Throughout the country, 
they are working closely with Iraqis to lay the foundations for 
participatory democracy by establishing local governing institutions. 
These neighborhood and municipal councils have provided a transparent 
forum for local leaders to address local needs. Even in less secure 
areas like Tikrit, CPA representatives have been able to meet regularly 
with tribal leaders and religious leaders to gain insight into local 
views and sensitivities.

    [Whereupon, at 2:15 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
